<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MARCH 2, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:34 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Thad Cochran presiding.
    Present: Senators Cochran, Byrd, and Leahy.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENTS OF:
        MICHAEL J. GARCIA, ASSISTANT SECRETARY, IMMIGRATION AND CUSTOMS 
            ENFORCEMENT
        ROBERT C. BONNER, COMMISSIONER, CUSTOMS AND BORDER PROTECTION
        EDUARDO AGUIRRE, JR., DIRECTOR, U.S. CITIZENSHIP AND 
            IMMIGRATION SERVICES


                   STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. The hearing will please come to order. 
Today we begin our committee's review of the fiscal year 2006 
budget request for the Department of Homeland Security. We will 
consider specifically the request for programs and activities 
of U.S. Citizenship and Immigration Services, Customs and 
Border Protection, and Immigration and Customs Enforcement.
    I am pleased to welcome the Director of U.S. Citizenship 
and Immigration Services, Eduardo Aguirre; the Commissioner of 
Customs and Border Protection, Robert Bonner; and the Assistant 
Secretary of Immigration and Customs Enforcement, Michael 
Garcia.
    Our committee will work with you to help ensure that we 
provide the funds necessary for your agencies to carry out 
their responsibilities and missions. For fiscal year 2006, the 
President's budget requests $12.9 billion to fund the 
organizations appearing before us today. This includes 
mandatory and discretionary appropriations, user fee 
collections, and trust funds.
    We thank each of you for submitting to the committee copies 
of your statements in advance. These will be made a part of the 
record and we invite you to make any comments you think will be 
helpful to the committee's understanding of the budget request.
    Before hearing from the witnesses, I am pleased to yield to 
Senator Leahy or other Senators who may wish to make opening 
statements. Senator Leahy.


                 STATEMENT OF SENATOR PATRICK J. LEAHY


    Senator Leahy. Thank you, Mr. Chairman.
    I think these three agencies before us have the duty of 
keeping our Nation safe, but also keeping our historic 
commitment to legal immigration. I know I have to think about 
the fact that my grandparents came, my maternal grandparents, 
came to this country not speaking any English. If they had not 
been here, their grandson would not be here, and how proud and 
how happy they were to come.
    I remember talking with my grandparents as a child and how 
much it meant to them to be the first generations of Americans. 
It has left a mark in my own mind. You look around this room, 
look around anywhere else, look at your own backgrounds, and we 
know that we are a Nation of immigrants. We have to keep being 
able to do that.


     BUDGET SHORTFALLS AND INCREASED STAFFING FOR THE BORDER PATROL


    When we held hearings on these three agencies last year, 
Mr. Chairman, they were facing substantial budget shortfalls. 
They had imposed hiring freezes. I want to know where we stand 
today on these issues. I am concerned that the administration 
is ignoring Congress's clear and consistent call, call from 
both Republicans and Democrats, for substantial increases in 
staffing for the Border Patrol. The Border Patrol's presence on 
our northern border--and I want to remind everybody we have a 
northern border as well as a southern border; I live an hour's 
drive from it--it was minimal before the September 11th 
attacks. I think we had something like 300 agents stretched 
over 4,000 miles of border. There is no other place in the 
world similar to that.
    I authored a provision in the Patriot Act to triple that 
number. It has been achieved. A lot more needs to be done. The 
President signed the Intelligence Reform and Terrorism 
Prevention Act of 2004. That mandated increasing at least 2,000 
Border Patrol agents for fiscal year 2006, 20 percent of them 
for the northern border. But that is the good news and the 
President did sign that bill for the 2,000, but his budget 
provides only enough funding for 210. So he signed the bill 
with great fanfare for 2,000 and put the budget in for 10 
percent of it. And it appears none of them go to the northern 
border.
    So I hope Mr. Bonner will explain why the administration is 
not heeding this Congressional mandate and whether he now 
believes it is time to declare mission accomplished for the job 
of protecting our northern border.


                     LAW ENFORCEMENT SUPPORT CENTER


    Assistant Secretary Garcia and I have spoken a number of 
times about the excellent work of the Law Enforcement Support 
Center. We have visited this. This is the place that stores 
information for State and local police. It provides immigration 
status and identities of aliens any time of the day or night, 
every day of the year.


    FISCAL YEAR 2006 BUDGET REQUEST FOR CITIZENSHIP AND IMMIGRATION 
                                SERVICES


    Of course, Mr. Aguirre, we talked before, I am concerned 
about the President's proposed budget for Citizenship and 
Immigration Services. It calls for a 50 percent cut in the 
amount of directly appropriated funds for CIS. At the same time 
the President says he will achieve his goal of reducing the 
average wait time for applicants for immigration benefits to 6 
months.
    He has asked the Congress to enact a guest worker program 
that is going to significantly increase the CIS workload. That 
is fine, we can increase it, but if the administration is 
cutting the manpower for this substantially, but wanting to add 
to the workload, I do not know how you ever get here.


                            H2B VISA PROGRAM


    I hope--the last thing is I hope the CIS and the 
administration will support bipartisan efforts in Congress to 
increase the cap for the H2B visa program. The Department 
announced in January for the second straight year the statutory 
cap has been reached and that is causing tourism-related 
businesses across the country to go into justifiable panic and 
concern.
    We have a bipartisan group of 16 colleagues introducing S. 
352, the Save Our Small and Seasonal Business Act of 2005. It 
would allow aliens who obtained H2B visas in recent years to 
reenter under that program. I hope the administration would 
support it. It is a quick, easy, I think effective, cost 
effective way of handling this.
    So thank you, Mr. Chairman. Those are some of the concerns 
I have. I thought I would express them here because I know we 
are going to have votes in between and I may have to go back 
and forth.
    Senator Cochran. Thank you very much, Senator.
    Senator Byrd.


                  STATEMENT OF SENATOR ROBERT C. BYRD


    Senator Byrd. Thank you, Mr. Chairman.
    Excuse me, I am sorry.
    Senator Leahy. Any time you want.
    Senator Byrd. Thank you.
    Well, today, Mr. Commissioner and also Mr. Assistant 
Secretary and Director Aguirre, we hold the first hearing on 
the President's budget for the Department of Homeland Security. 
Chairman Cochran and I have worked together over the last 2 
years to produce bipartisan legislation to fill critical gaps 
in the security of our homeland. I commend Chairman Thad 
Cochran for his excellent leadership of this subcommittee and 
of any other committee or subcommittee that he chairs. I know 
how well it is going to be run.
    Today our witnesses will focus on issues related to border 
security, immigration, and trade. For the third year in a row, 
the President has submitted a budget for the Department of 
Homeland Security that ignores the stark reality of the 
resources needed to secure the homeland. The 9/11 Commission 
report concluded this:
    ``More than 500 million people annually cross U.S. borders 
at legal entry points, about 330 million of them non-
citizens.'' What a flow of humanity. ``Another 500,000 or more 
enter illegally without inspection across America's thousands 
of miles of land borders or remain in the country past the 
expiration of their permitted stay.'' Now, that was the 
commission talking.
    The commission concluded that, quote: ``Two systemic 
weaknesses came together in our border system's inability to 
contribute to an effective defense against the 9/11 attacks: 
one, a lack of well-developed counterterrorism measures as a 
part of border security; and two, an immigration system not 
able to deliver on its basic commitments, much less support 
counterterrorism.''


            INTELLIGENCE REFORM AND TERRORISM PREVENTION ACT


    In response to the commission's findings, Congress enacted 
the Intelligence Reform and Terrorism Prevention Act. In a 
December 6, 2004, letter to the Congress urging final passage 
of that Act, President Bush stated, ``I also believe the 
conference took an important step in strengthening our 
immigration laws by, among other items, increasing the number 
of Border Patrol agents and detention beds.'' Close of 
quotation.
    As enacted, the Act authorizes the hiring of 2,000 new 
Border Patrol agents and 800 new ICE investigators and the 
funding of 8,000 new detention beds for illegal alien 
immigrants. Yet, when the President submitted his budget 
request months after sending that letter, virtually no new 
funds were requested for any of these activities.
    At the same time, the President's own terrorism experts are 
extremely concerned about the threat posed by terrorists to our 
borders. In written testimony before the Senate Intelligence 
Committee on February 16, 2005, the Department's Deputy 
Secretary, Admiral James Loy, cited recently received 
information as the reason for his concern about the threat 
facing the Mexican border. He called it a ``very serious 
situation'' and added: ``Several Al Qaeda leaders believe 
operatives can pay their way into the country through Mexico 
and also believe illegal entry is more advantageous than legal 
entry.'' How about that, ``believe illegal entry is more 
advantageous than legal entry for operational security 
reasons.''


                             FUNDING ISSUE


    Despite this testimony, there is virtually no funding in 
the budget to increase our border security. In addition to 
having a strong deterrent to illegal immigration at the border, 
it is critically important for the Department to have the 
resources to enforce our immigration laws. Therefore, I am very 
troubled by the fact that 6 months into the fiscal year we have 
not received a supplemental request or a reprogramming proposal 
to address a shortfall in funding for immigration and customs 
enforcement.
    Since last spring, the Congress has been ringing the alarm 
bell--ding-a-ling, ding-a-ling, ding-a-ling--that the 
Department's primary investigative arm, Immigration and Customs 
Enforcement, ICE, faced significant budget shortfalls. To 
partially address this problem, ICE last year instituted a 
hiring freeze, significantly reduced spending, and took other 
painful steps--bring on the aspirin--to cope with the 
shortfall. There were even media reports that some apprehended 
illegal aliens were being released because ICE could not afford 
to cover the costs associated with holding these individuals.
    Well, Congress stepped up to the plate. This man, Cochran, 
he is on the ball. Congress stepped up to the plate by 
providing ICE with $193 million more for the current fiscal 
year than requested by the President. However, the hiring 
freeze and other spending restraints remain in place halfway 
through the new fiscal year. We are being warned by the 
Department that ICE faces a funding gap of nearly $300 million 
for the rest of this year.
    Has the President found any room in his $81.9 billion 
supplemental spending request to address this gap? No. He is 
willing to request billions of dollars for foreign aid to build 
the most expensive U.S. embassy in the world in Baghdad. I do 
not plan to go there often. But he does not seem to be able to 
find the funds to hire and support the men and women fighting 
the war on terrorism here at home.
    Today I sent a letter to Secretary Chertoff raising these 
issues, and I hope that he will work with the White House to 
send to the Congress a request that would implement the 
recommendations of the 9/11 Commission contained in the 
Intelligence Reform and Terrorism Prevention Act.
    Thank you, Mr. Chairman. Thank you, Mr. Commissioner.
    [The information follows:]

                   Letter From Senator Robert C. Byrd

                                               U.S. Senate,
                                     Washington, DC, March 2, 2005.
Hon. Michael Chertoff,
Secretary, Department of Homeland Security,
Washington, DC.
    Dear Secretary Chertoff: Congratulations are in order as you assume 
the task of leading the Department of Homeland Security, an immense and 
important burden. Sadly, the President, in his fiscal year 2006 budget 
request for the Department, has not made your task any easier.
    For the third year in a row, the President has submitted a budget 
that ignores the stark reality of the steps needed to secure the 
homeland.
    The 9/11 Commission report concluded that:
    More than 500 million people annually cross U.S. borders at legal 
entry points, about 330 million of them noncitizens. Another 500,000 or 
more enter illegally without inspection across America's thousands of 
miles of land borders or remain in the country past the expiration of 
their permitted stay. The challenge for national security in an age of 
terrorism is to prevent the very few people who may pose overwhelming 
risks from entering or remaining in the United States undetected.
    Our investigation showed that two systemic weaknesses came together 
in our border system's inability to contribute to an effective defense 
against the 9/11 attacks: a lack of well-developed counterterrorism 
measures as a part of border security and an immigration system not 
able to deliver on it basic commitments, much less support 
counterterrorism.
    In response to the Commission's findings, Congress enacted the 
Intelligence Reform and Terrorism Prevention Act. In his December 6, 
2004, letter to Congress urging final passage of that Act, President 
Bush stated, ``I also believe the Conference took an important step in 
strengthening our immigration laws by, among other items, increasing 
the number of border patrol agents and detention beds.'' As enacted, 
the Act authorizes the hiring of 2,000 new Border Patrol agents and 800 
new ICE investigators, and the funding of 8,000 new detention beds for 
illegal aliens immigration. The President's letter called that ``an 
important step.'' Yet that letter appears to be another empty 
rhetorical gesture. When the President submitted his budget request 2 
months after sending that letter, virtually no new funds were requested 
for any of these activities.
    At the same time, the President's own terrorism experts are 
extremely concerned about the threat terrorists pose to our borders. In 
written testimony before the Senate Intelligence Committee on February 
16, 2005, the Department's Deputy Secretary, Admiral James Loy cited 
recently received information as the reason for his concern about the 
threat facing the Mexican border. He called it a ``very serious 
situation'' and added, ``several Al Qaeda leaders believe operatives 
can pay their way into the country through Mexico and also believe 
illegal entry is more advantageous than legal entry for operational 
security reasons.''
    Mr. Secretary, I know that this budget was completed prior to your 
coming onboard. I strongly encourage you to work with the White House 
to formally request additional resources to implement the Intelligence 
Reform and Terrorism Prevention Act authorization enacted to respond to 
the recommendations of the 9/11 Commission.
    In addition to having a strong deterrent to illegal immigration at 
the border, it is critically important for the Department to have the 
resources to enforce our immigration laws. Therefore, I am very 
troubled by the fact that, 6 months into the fiscal year, we have not 
received a supplemental request or reprogramming proposal to address a 
shortfall in funding for Immigration and Customs Enforcement. Since 
last spring, the Congress has been ringing the alarm bells that the 
Department's primary investigative arm, Immigration and Customs 
Enforcement (ICE), faced significant budget shortfalls. To partially 
address this problem, ICE last year instituted a hiring freeze, 
significantly reduced spending, and took other painful steps to cope 
with the shortfall. There were even media reports that some apprehended 
illegal aliens were being released because ICE could not afford to 
cover the costs associated with holding these individuals.
    Congress stepped up to the plate by providing ICE with $193 million 
more for the current fiscal year than requested by the President. 
However, the hiring freeze and other spending restraints remain in 
place halfway through the new fiscal year. We are being warned by the 
Department that ICE faces a funding gap of nearly $300 million for the 
rest of this year. Has the President found any room in his $81 billion 
supplemental spending request to address this gap? No. He is willing to 
add to the deficit to provide hundreds of millions of dollars to build 
the most expensive U.S. embassy in the world in Baghdad, but he does 
not seem to be able to find the funds to hire and support the men and 
women fighting the war on terrorism here at home. To them, he suggests 
they carpool to work.
    Mr. Secretary, you really have your work cut out for you. Our 
repeated entreaties to the President and his representatives to provide 
the resources to meet these threats fall on deaf ears. I know that you 
will do all that you can to get this Administration to put its money 
where its rhetoric is. I wish for you success.
    With kind regards, I am.
            Sincerely yours,
                                            Robert C. Byrd,
                                                      U.S. Senator.

    Senator Cochran. Thank you, Senator Byrd.

STATUS OF SECURITY OF THE UNITED STATES 2 YEARS AFTER THE ESTABLISHMENT 
                 OF THE DEPARTMENT OF HOMELAND SECURITY

    I am going to ask our witnesses, in view of the fact that 
it has been almost exactly 2 years--March 1, 2005, actually 
would have been the second anniversary of the establishment of 
the Department of Homeland Security--in your estimation from 
what you know as administrators of these important agencies at 
the Department, are we safer now 2 years later after the 
Department of Homeland Security has been created than we were 2 
years ago?
    Mr. Garcia, would you like to start?
    Mr. Garcia. Thank you very much, Mr. Chairman. That is a 
question I often hear in many different forms, and everybody 
brings I think their own perspective.
    Senator Cochran. I am going to ask each one to answer that 
before you proceed with your statements. Tell us what you 
think?

                              ICE RESPONSE

    Mr. Garcia. I think we are safer, yes, and I bring 
perspective I think that is somewhat unique to that answer. I 
was a prosecutor in New York in the 1990s. I prosecuted many of 
the terrorism cases before 9/11 and I saw terrible exploitation 
of our immigration systems and our border security in those 
cases. Now, as part of the Homeland Security Department, I am a 
piece of the Government's response to those attacks in a 
Department that was created to address the vulnerabilities that 
were exposed by the 9/11 attacks.
    From that vantage point, I can clearly say that we are 
safer, and I see evidence of that, Mr. Chairman, every day. I 
will speak mostly about the ICE contributions here and how my 
agency has responded with creativity, using these new combined 
authorities that we have been given in ICE. You look at the 
systems and we have created--and I think Senator Leahy and 
Senator Byrd may have mentioned--overstays and how there was no 
tracking. We have created a Compliance Enforcement Unit that 
sends out thousands of prioritized leads to look at deterrent 
effect, to look at enforcing our immigration rules and bringing 
integrity to the system as a whole.
    We work very hard in benefits fraud with Director Aguirre's 
folks to close those vulnerabilities that were exploited in the 
past. So we are improving the integrity of the system.
    Senator Cochran. Let me ask Mr. Bonner for his reaction to 
that question before you proceed with your full statement.

                              CBP RESPONSE

    Mr. Bonner. Yes, thank you, Mr. Chairman. First of all, 
yes, America is absolutely unquestionably safer now than it was 
before the creation of the Department of Homeland Security on 
March 1, 2003. Our borders are more secure now than they were 
before 2001--excuse me, March 1, 2003. Part of that is that one 
of the truly big and important ideas of the Department of 
Homeland Security was to create one front-line border agency 
for our government that combined at our front line all of 
Customs' powers and personnel, Immigration powers and 
personnel, agriculture protection, and most importantly anti-
terrorism as a focus and a priority mission.
    So as a result of that one step alone, unifying our border 
agencies, whereas before March 1, 2003, they had literally been 
fragmented at our borders, at our ports of entry, among four 
different agencies of government reporting to three different 
Departments, it is now one front-line border agency, that is 
Customs and Border Protection, within the Department of 
Homeland Security, with a priority mission which is nothing 
less than keeping terrorists and terrorist weapons out of our 
country.
    So are we totally safe? No, but we are safer and more 
secure because our borders are more secure.
    Senator Cochran. Mr. Aguirre.

                             USCIS RESPONSE

    Mr. Aguirre. Mr. Chairman, as the Director of the agency 
that is responsible for administering immigration services, I 
say unquestionably we are safer from the vantage point in which 
I sit. We process 6 to 7 million applications a year and we 
have implemented some national security components and fraud 
deterrent components that were simply not there 2 or 3 years 
ago. Therefore I think we have tightened the filter, if you 
will, to determine those who may do us harm or who wish to take 
advantage of our good nature. I think we are much better off.
    There is no finish line to this effort, but I think we are 
far, far beyond where we were a couple years ago.
    Senator Cochran. Thank you very much.
    Now you may proceed with your opening statements. Mr. 
Garcia?

                      STATEMENT OF MICHAEL GARCIA

    Mr. Garcia. Mr. Chairman, Senator Byrd, Senator Leahy, it 
is my pleasure to be with you today to discuss the President's 
fiscal year 2006 budget request for U.S. Immigration and 
Customs Enforcement, or ICE, the largest investigative arm of 
the Department of Homeland Security. The $4.36 billion request 
underscores the vital role that ICE plays in the Department's 
mission of ensuring the security of the American people.
    In order to provide a better understanding of the 
President's 2006 budget request for ICE, I would like to first 
provide you with the context in which the request is made. 
Specifically, I would like to share with you a few highlights 
of significant ICE achievements as well as some of the 
challenges we have faced.

                      SIGNIFICANT ICE ACHIEVEMENTS

    ICE removed a record number, 160,000, illegal aliens from 
the United States in 2004. More than half of those were 
criminal aliens. We also arrested a record number of fugitive 
aliens. In fact, that was an increase of more than 100 percent.
    ICE conducted 7,600 money-laundering and other financial 
investigations. ICE agents conducted more than 2,500 
investigations into illegal exports that would have sent 
sensitive technology and weapons components to Iran, Iraq, 
China, and other nations. ICE arrested more than 5,000 sexual 
predators since Operation Predator was launched and have 
removed almost half of them from the United States. ICE agents 
also made the first 11 arrests for child sex tourism, targeting 
U.S. citizens who attempt to exploit children overseas.
    ICE arrested more than 1,600 human smugglers and ICE's 
Federal Protective Service officers made more than 4,000 
arrests, a nearly 60 percent increase over the previous year. 
ICE Federal Air Marshals logged millions of miles on tens of 
thousands of flights and Air Marshals have completed advanced 
training, an important benchmark to ensure professionalism and 
peak performance.
    Senator Leahy mentioned the Law Enforcement Support Center 
in Vermont. That Center received more than 600,000 inquiries 
from Federal, State, and local law enforcement officials last 
fiscal year, a 12 percent increase over the year before. 15,000 
detainers with police agencies nationwide on aliens were lodged 
from Vermont alone.
    I could continue with many, many additional examples of 
achievements that ICE's employees have made. I would like to 
note that ICE's accomplishments over the last 2 years, which I 
believe are unprecedented in law enforcement, were brought 
about despite significant challenges. In addition to the 
challenges faced in creating a new law enforcement agency, ICE 
has faced severe budget issues related to resource allocations. 
During the organization of the new Department, the budgets for 
component agencies, including those for overhead, information 
technology support, legal support, and other administrative 
functions, were broken apart in ways that were not entirely 
consistent. As a result, in some cases ICE was paying for 
services when the funds for those services had been allocated 
to other agencies.

                             BUDGET ISSUES

    When we realized the budget issues that would arise from 
these allocation errors, we took swift action. ICE placed a 
freeze on new hires. We limited expenditures to those deemed 
mission essential and we moved to set clear priorities for 
funding. We also worked with the Department to undertake a 
budget review to determine what money was appropriately due to 
ICE in return for shared services.
    These measures got results. Diligent and conscientious 
efforts on the part of our employees and field management 
helped us to realize tens of millions of dollars in short-term 
savings during fiscal year 2004. In addition, ICE identified 
and recouped more than $500 million from other agencies in the 
second half of 2004. ICE also bought services from other DHS 
components as part of the shared services concept, such as 
human resources, logistics, and fleet management.
    We are also in the process of systematically improving 
financial management throughout the entire agency. Some changes 
have been implemented and we expect to implement additional 
improvement in the coming months. These steps have been further 
outlined in a letter recently submitted to this committee.

                    COMMUNICATION WITH ICE EMPLOYEES

    While this has been a challenging time for ICE, we have 
made every effort to communicate the facts to our employees at 
every opportunity through such measures as town hall meetings, 
broadcast messages to all employees, and visits by myself and 
other senior members of the agency's leadership to all of our 
field offices.
    Over the past 2 years, ICE employees have refused to be 
defined by our challenges, but rather we have been defined by 
our achievements, which represent the true story of our agency. 
Our accomplishments represent the abiding commitment of all ICE 
employees to meeting these challenges head-on and accomplishing 
the critical mission with which we are charged.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The proposed 2006 budget builds on the foundation of our 
accomplishments while addressing many of the challenges 
outlined above. The President's 2006 budget request seeks more 
than $4.36 billion for ICE, which represents an increase of 
more than 13 percent over fiscal year 2005. I would like to 
briefly address these enhancements.

                         DETENTION AND REMOVAL

    The President's 2006 budget proposal request seeks $176 
million in enhancements for Detention and Removal operations. 
These enhancements will be used to fund detention bed space and 
management, Alternatives to Detention, Fugitive Operations, the 
Institutional Removal Program and interior repatriation. This 
funding will help ICE to continue to build on the vigorous 
enforcement efforts we have developed in the last 2 years.

                    INVESTIGATIONS AND INTELLIGENCE

    The President's budget also seeks $171 million in 
enhancements for ICE investigations and intelligence. 
Specifically, the budget will replace funding for Organized 
Crime Drug Enforcement Task Force activities. This enhancement 
requests no additional positions or money, but proposes that 
346 positions currently on board be paid by direct 
appropriation instead of reimbursement from DOJ. In addition to 
a base increase, the enhancement allows for maintenance of Visa 
Security operations initiated in 2005 and support for one 
additional Visa Security Unit overseas. It funds 143 positions 
and training to successfully implement a worksite enforcement 
component for the proposed temporary worker program.

                      FEDERAL AIR MARSHALS SERVICE

    We are also seeking enhancements to increase staffing for 
the Federal Air Marshal Service, funding for additional 
attorneys required to improve the ability of ICE's legal 
program to complete matters in Immigration Court, and money for 
Department-wide secure classified and computer to computer 
connectivity.

            OVERVIEW OF ICE FISCAL YEAR 2006 BUDGET REQUEST

    The President's 2006 budget request for ICE is a solid step 
forward for this agency and ICE is dedicated to protecting the 
homeland by enforcing immigration and customs laws, restoring 
integrity to the immigration system, as we discussed before, 
and ensuring the sanctity of our financial and trade systems. 
We protect Federal property and we ensure the security in our 
civil aviation.
    That is a broad and diverse mission, but the men and women 
of ICE are dedicated to building this agency into a model for 
law enforcement in the 21st century. The 2006 budget request 
provides us with the resources that will make this goal a 
reality as we strive to secure the American homeland and 
protect the American people.

                           prepared statement

    I would like to thank you, Mr. Chairman, Senator Byrd, 
Senator Leahy, for the opportunity to testify before you today. 
I look forward to answering any questions you may have.
    [The statement follows:]

                Prepared Statement of Michael J. Garcia

                              INTRODUCTION

    Mr. Chairman, Senator Byrd, and distinguished Members of the 
Subcommittee. It is my pleasure to be with you today to discuss the 
President's fiscal year 2006 budget request for U.S. Immigration and 
Customs Enforcement (ICE), the largest investigative arm of the 
Department of Homeland Security (DHS). This $4.36 billion request 
underscores the vital role that ICE plays in the Department's mission 
of ensuring the security of the American people.
    By integrating these various components in a single agency, ICE is 
able to more effectively meet the threats of the post-9/11 world, 
wherever these threats may arise--across our borders, within the 
Nation's interior, in our financial systems, at Federal facilities 
nationwide, in cyberspace, or civil aviation.
    With ICE's broad authorities and expertise, we are prepared to 
counter the threats posed by criminal and terrorist organizations in 
ways not possible before the creation of the Department of Homeland 
Security.

                     REVIEW OF ICE ACCOMPLISHMENTS

    In order to provide a better understanding of the President's 
fiscal year 2006 budget request for ICE, I would first like to provide 
you with the context in which the request is made. Specifically, I 
would like to share with you a few highlights of significant ICE 
achievements as well as some of the challenges we have faced.
  --Prioritizing Removals of Criminal and Fugitive Aliens.--As part of 
        our mission to restore integrity to the Nation's immigration 
        system, the Office of Detention and Removal Operations (DRO) 
        removed a record number of illegal aliens from the United 
        States, posting approximately 160,200 such removals. More than 
        half of those were criminal aliens. 7,200 fugitive aliens were 
        removed last fiscal year--an increase of 112 percent over the 
        previous year.
  --Protecting U.S. Financial and Trade Systems.--The ICE Office of 
        Investigations conducted 7,670 money laundering and other 
        financial investigations in fiscal year 2004, resulting in more 
        than 1,368 arrests, 895 indictments and the seizure of more 
        than $202 million. These achievements stem from ICE's 
        Cornerstone initiative, in which we direct our expertise in 
        financial, trade, and intellectual property investigations 
        toward shutting down the schemes that criminal or terrorist 
        organizations use to earn, move, and store their assets.
  --Checking Illegal Flows of Weapons and Sensitive Technology.--ICE 
        agents conducted more than 2,500 investigations into the 
        illegal export of U.S. arms and technology in fiscal year 2004. 
        These investigations protect national security by keeping 
        sensitive technologies and weapons--whether it's missile 
        components or night vision technology, laser scopes for 
        military rifles or sensitive software--out of the hands of our 
        Nation's adversary. In the last year, ICE investigated export 
        violations that would have sent sensitive technology and 
        weapons components to Iran, Iraq, China, and other nations. 
        These investigations not only contribute to the security of the 
        United States, but they serve to enhance the security of our 
        troops and allies around the globe as well.
  --Protecting Children from Sexual Exploitation.--Under Operation 
        Predator, ICE arrested more than 4,900 sexual predators since 
        the program was launched in 2003. We have ensured that 2,100 of 
        those predators were removed from the United States. ICE agents 
        also made the first 11 arrests for child sex tourism, targeting 
        U.S. citizens who attempt to exploit children overseas under 
        the PROTECT Act. Leads developed out of ICE investigations into 
        online child pornography have been provided to foreign law 
        enforcement authorities through ICE's 54 International Attache 
        offices. These leads have led to the arrest of approximately 
        850 child pornography subscribers overseas. ICE Attaches also 
        provided expertise and support to their law enforcement 
        counterparts in areas ravaged by the tsunami waves in southeast 
        Asia in December, to ensure that children were not victimized 
        by sexual predators or trafficking networks.
  --Targeting Human Smuggling and Trafficking.--Another of ICE's top 
        priorities is to dismantle criminal organizations that smuggle 
        and traffic human beings for profit. In fiscal year 2004, ICE 
        arrested more than 1,630 human smugglers. Operation ICE Storm, 
        an initiative we launched in 2003 to target violent human 
        smuggling networks in Arizona, has brought charges against more 
        than 300 defendants and resulted in the seizure of more than $7 
        million. This unprecedented seizure of alien smuggling proceeds 
        is a direct result of the combination of our immigration and 
        customs authorities (particularly customs financial crimes 
        expertise). Law enforcement authorities in Arizona have 
        credited Operation ICE Storm with a dramatic decrease in 
        homicides and other violent crime in the Phoenix metropolitan 
        area.
  --Improving Security at Federal Facilities.--ICE's Federal Protective 
        Service (FPS) made 4,426 arrests in fiscal year 2004--a 58 
        percent increase over the previous fiscal year. In addition, 
        FPS officers prevented nearly 550,000 prohibited items and 
        weapons from being carried into Federal facilities--a fourfold 
        increase over the previous year. FPS officers also responded to 
        430 bomb threats and more than 875 calls about suspicious 
        packages and other items. All of these achievements are key 
        components of the FPS mission to provide a safe and secure 
        environment for Federal workers and the American public.
  --Enhancing Security in the Skies.--ICE's Federal Air Marshal Service 
        (FAMS) once again logged millions of miles on tens of thousands 
        of flights in fiscal year 2004, as part of the division's 
        enhanced mission of providing security in the air since 9/11. 
        All FAMS recruited and deployed since 9/11 have successfully 
        completed advanced training--an important benchmark to ensure 
        professionalism and peak performance.
  --Stopping the Flow of Drugs into the United States.--ICE plays a 
        leading role in the Nation's war on drugs, with significant 
        results. In fiscal year 2004, ICE agents, working in 
        cooperation with our partners at other agencies, were involved 
        in the seizure of roughly 3.1 million pounds of illegal drugs 
        in fiscal year 2004--a 63 percent increase over the previous 
        year. Another key achievement stemming from an ICE 
        investigation was the extradition of one of the leaders of Cali 
        drug cartel from Colombia, as well as the arrest of several 
        leaders of the Norte Valle cartel.
  --Providing Support and Assistance to the Law Enforcement 
        Community.--ICE's Law Enforcement Support Center (LESC) 
        responded to more than 603,000 inquiries related to immigration 
        status from Federal, State, and local authorities in fiscal 
        year 2004--a 12 percent increase over the previous year. In 
        addition, the LESC placed more than 15,000 immigration 
        detainers with police agencies nationwide. These detainers 
        allow ICE to more efficiently remove aliens from the United 
        States once their jail term is expired.

                               CHALLENGES

    I could continue with many, many additional examples. I would like 
to note that ICE's accomplishments of the last 2 years--which I believe 
are unprecedented in law enforcement--have taken place against a 
backdrop of significant challenges.
    First, we have faced the organizational and logistical challenges 
inherent in bringing our various divisions together into an integrated 
whole within the Department of Homeland Security. The challenges of the 
DHS reorganization have been likened to ``trying to change the engine 
in an airplane in mid-flight.'' We have certainly experienced those 
challenges at ICE, where we have had to build a new agency almost from 
the ground up--bringing together divisions from four separate agencies 
into a single functioning unit, and melding the cultures and missions 
of various units into a unified whole. This process was analogous to 
that of building a new start-up company while performing a large-scale 
merger and acquisition--with the notable difference that we had but a 
few weeks to accomplish our merger, compared to the months, or years, 
that would be devoted to a merger in the private sector. While the 
reorganization is still ongoing, I am pleased to report that the 
majority of these organizational and logistical challenges have been 
met and addressed, thanks to the commitment, and perseverance of ICE 
employees.
    Another significant challenge that ICE has faced has been budget 
issues related to resource allocations. During the reorganization of 
the new department, the budgets for component agencies--including those 
for overhead, information technology support, legal support, and other 
administrative functions--were broken apart in ways that were not 
entirely consistent. As a result, in some cases ICE was paying for 
services when the funds for those services had been allocated to other 
agencies. When we realized the budget issues that would arise from 
these allocation errors, we took swift action. ICE placed a temporary 
freeze on new hires; we limited expenditures to those deemed ``mission 
essential''; and we moved to set clear priorities for funding. We also 
worked with DHS to undertake a budget review to determine what money 
was appropriately due to ICE in return for shared services.
    These measures got results. Diligent and conscientious efforts on 
the part of our employees and field management helped us to realize 
$120 million in short-term savings during fiscal year 2004. In 
addition, ICE identified and recouped more than $500 million from other 
agencies in the second half of fiscal year 2004. ICE also bought 
services from other DHS components as part of the shared services 
concept such as HR, logistics and fleet management.
    We are also in the process of systematically improving financial 
management throughout the entire agency. Some changes have been 
implemented, and we expect to implement additional improvements in the 
coming months. We will update the Congress periodically with details on 
our reforms in reports requested by the Committees.
    While this has been a challenging time for ICE, we have made every 
effort to communicate the facts to our employees at every opportunity--
through such measures as town hall meetings; broadcast messages to all 
employees; and visits by myself and other members of the agency's 
senior leadership to all of our field offices.
    Over the past 2 years ICE employees have refused to be defined by 
our challenges, but rather by our achievements, which represent the 
true story of our agency. Our accomplishments represent the abiding 
commitment of all ICE employees to meeting these challenges head-on and 
accomplishing the critical mission with which we are charged.

                  BUDGET REQUEST FOR FISCAL YEAR 2006

    The proposed fiscal year 2006 budget builds on the foundation of 
our accomplishments while addressing many of the challenges outlined 
above. The President's fiscal year 2006 Budget request seeks more than 
$4.36 billion for ICE, which represents an increase of 13.5 percent 
over fiscal year 2005. This budget request will allow ICE to pursue our 
priority missions--including the apprehension, detention, and removal 
of illegal aliens; financial and trade investigations; protection of 
Federal infrastructure; and protection of the civil aviation system--
with even greater effectiveness. In my testimony, I will address our 
major program areas--Investigations, Detention and Removal Operations, 
the Federal Air Marshal Service, and the Federal Protective Service--as 
well as issues related to management, administration, and information 
technology.

                     FISCAL YEAR 2006 ENHANCEMENTS

    The President's fiscal year 2006 budget proposal request for ICE 
Detention and Removal Operations will enhance public safety and 
national security by ensuring that those aliens who pose the most 
critical threats are removed from the United States first--a critical 
objective in ICE's long-term strategy to restore integrity to the 
Nation's immigration system. In addition, this funding will help ICE to 
meet its detention needs, which are growing every year as we move to 
aggressively enforce immigration laws. This funding will help ICE to 
continue building on the vigorous enforcement efforts we have developed 
in the last 2 years.
    Detention and Removal Operations.--The DHS Immigration and Customs 
Enforcement (ICE) fiscal year 2006 President's budget seeks $176.0 
million in enhancements for Detention and Removal Operations:
  --$90 million/16 Full-Time Employees (FTEs) for Custody Management/
        Bedspace. In many cases, apprehended aliens must be detained 
        while they go through immigration proceedings and until they 
        are removed. Custody Management provides safe, secure, and 
        humane confinement for these aliens. It also ensures that 
        aliens in ICE custody appear for their immigration hearings, 
        and then for their subsequent removal. This request would 
        provide $90 million to fund requirements of the Custody 
        Management budget activity, adding 16 FTE and increasing funded 
        bedspace by 1,920 beds. This enhancement will improve detention 
        efforts that ensure public safety and national security.
  --$5.4 million/7 FTEs for the Alternatives to Detention program. The 
        Alternatives to Detention program places low-risk aliens under 
        close supervision, rather than into traditional detention, 
        serving as a cost-effective way to ensure their appearance for 
        an immigration hearing or for removal. ICE's Intensive 
        Supervision Appearance Program (ISAP) is a community-based case 
        management program that is aimed at improving the appearance 
        rate of aliens at immigration hearings. This request includes 
        $5.4 million/7 FTE to expand the ISAP to two additional 
        locations.
  --$8.9 million for Fugitive Operations. Approximately 465,000 aliens 
        have received final orders of removal but are not confirmed to 
        have departed the United States. This request includes $8.9 
        million to enhance case management resources that enable the 
        Fugitive Operations program to locate and apprehend fugitive 
        aliens in the United States. This investment will serve to 
        improve the integrity of the immigration enforcement process 
        that is instrumental in deterring the efforts of potential 
        absconders.
  --$5.4 million/19 FTEs for the Institutional Removal Program (IRP). 
        Many removable aliens are currently incarcerated in Federal or 
        State prisons for criminal convictions. If these aliens are 
        released upon completion of their criminal sentence, they are 
        likely to avoid immigration removal proceedings. The IRP 
        ensures that these aliens are not released back into the 
        community before they are removed from the United States. The 
        $5.4 million requested would provide for Immigration 
        Enforcement Agents to enhance the IRP with staff support needed 
        to facilitate the removal of aliens following completion of 
        criminal sentences.
  --$39.3 million for Interior Repatriation, as part of the Arizona 
        Border Control multi-agency effort. One of the major components 
        of enhanced border control is a focus on border safety through 
        the removal of migrants from the dangers associated with 
        crossing the border illegally. The United States, in 
        cooperation with the government of Mexico, has focused on the 
        use of every available tool to break the cycle of migrant 
        deaths in the dangerous terrain where human smugglers value 
        profits more than the human life they often sacrifice for 
        personal gain. One of the major tools agreed to by both 
        countries is the use of a voluntary interior repatriation 
        program. The interior repatriation program allows for movement 
        at the U.S. border of Mexican nationals who voluntarily return 
        to selected cities within the interior of Mexico by means of 
        commercial flights. Without this program, a significant number 
        of persons who are apprehended and returned to Mexico at the 
        border seek re-entry through dangerous border terrains, thus 
        repeatedly risking injury or death in the process.
  --$24.0 million for the Office of Detention and Removal. This request 
        provides that the base budget for Detention Removal Operations 
        be adjusted by $24 million for salary costs and operating 
        expenses. These funds will augment support for increased 
        detention and removal activities to ensure the departure of 
        removable aliens from the United States through the fair 
        enforcement of immigration laws.
    ICE's Office of Investigations and Office of Intelligence play a 
vital role in advancing national security and homeland defense through 
aggressive investigations and cooperation with other agencies to share 
information on organized criminal activity and terrorist organizations. 
ICE's investigators have a long history of targeting money laundering 
networks; narcotics trafficking; criminal financial schemes; 
counterfeiting and piracy; trade fraud; export violations; and other 
financial and economic crimes. In addition, our investigators lead the 
way in targeting child sexual predators, human traffickers, and child 
labor violators. Our investigators are also at the forefront of 
combating immigration violations, including enforcement of immigration 
laws at worksites and shutting down organizations that provide 
fraudulent documentation for a price.
    Investigations and Intelligence.--The ICE fiscal year 2006 
President's budget seeks $171.7 million in enhancements for 
Investigations and Intelligence:
  --$43.7 million/346 FTEs for Organized Crime Drug Enforcement Task 
        Force (OCDETF) activities. This increase replaces funding 
        previously received on a reimbursable basis from the Department 
        of Justice (DOJ) for ICE's participation in the OCDETF program. 
        OCDETF is a Federal drug enforcement program that focuses on 
        the disruption and dismantling of major drug trafficking 
        organizations. OCDETF has been in existence since 1982 and 
        operates under the guidance and oversight of the Attorney 
        General. Employing the resources and expertise of 11 member 
        Federal agencies, along with support from State and local law 
        enforcement agencies, OCDETF has contributed to the successful 
        prosecution and conviction of more than 44,000 members of 
        criminal organizations and resulted in the seizure of cash and 
        property assets totaling more than $3.0 billion. This 
        enhancement requests no additional FTEs but proposes that 346 
        positions currently on board be paid by direct appropriation 
        instead of by reimbursable funding.
  --$5.0 million/5 FTEs for Visa Security Program Expansion. The ICE 
        Visa Security Program provides follow-up investigations on visa 
        applicants seeking to enter the United States, for the purpose 
        of denying visas to terrorists, criminals, and persons of 
        special interest. Officers are assigned to posts to perform 
        this law enforcement review of immigrant and nonimmigrant visa 
        applications prior to visa issuance by consular officers of the 
        Department of State. This enhancement would allow ICE to 
        maintain operations initiated in fiscal year 2005 and support 
        one additional Visa Security Unit overseas.
  --$18.0 million/72 FTEs for Temporary Worker Worksite Enforcement. As 
        part of the President's proposed temporary worker program (TWP) 
        to match willing foreign workers with willing U.S. employers, 
        enforcement of immigration laws to ensure compliance is 
        required. The requested resources would fund 143 positions and 
        the required training to conduct employer audits, investigate 
        possible violations, and prepare criminal employer case 
        presentations. This funding more than doubles the resources 
        dedicated to the worksite enforcement effort.
  --$105.0 million for the Office of Investigations. This request 
        includes $105 million for salary and support costs, including 
        vehicle and other equipment purchases.
  --$3.5 million/24 FTEs for Legal Proceedings. This enhancement would 
        provide funding for additional attorneys and support staff 
        required to improve the ability of ICE's legal program to 
        complete matters in Immigration Court and help reduce the case 
        backlog.
  --$11.3 million/1 FTE for the Homeland Secure Data Network (HSDN). A 
        total of $37 million is required for the HSDN to provide for 
        secure classified, computer-to-computer connectivity. The HSDN 
        is expected to streamline and modernize the classified data 
        capabilities of DHS to facilitate high-quality and high-value 
        classified data communication and collaboration within DHS and 
        with other Federal agencies and organizations, including the 
        Department of Defense (DOD). Based on modern network and 
        telecommunications designs, the HSDN will optimize both the 
        classified data exchanges between DHS offices, and other 
        networks of classified data such as the Anti-Drug Network 
        (ADNET), Automatic Digital Network (AUTODIN), and Defense 
        Message System (DMS). The HSDN will provide a scalable 
        infrastructure, capable of supporting the growth and evolution 
        of the DHS mission. ICE's allotted portion in support of the 
        network is $11.3 million. Enhancement request includes one 
        position to serve as a liaison between ICE and DHS.
    The Federal Air Marshal Service (FAMS) has been charged with 
providing security in the skies since 9/11. The President's budget 
request will help FAMS to continue in that mission as we continue the 
evolutionary process of integrating this key Homeland Security division 
into the agency.
    Federal Air Marshal Service (FAMS).--The ICE fiscal year 2006 
President's budget seeks $14.8 million in The Federal Air Marshal 
Service (FAMS) has been charged with providing security in the skies 
since 9/11. The President's budget request will help FAMS to continue 
in that mission as we continue the evolutionary process of integrating 
this key Homeland Security division into the agency.
    Federal Air Marshal Service (FAMS).--The ICE fiscal year 2006 
President's budget seeks $9.9 million in enhancements for the Federal 
Air Marshal Service (FAMS). This enhancement request would allow the 
FAMS to increase its staffing level to a level that will allow it to 
meet its mission objective through the risk-based deployment of Federal 
Air Marshals. In accomplishing this objective, FAMS works closely with 
DHS and other Federal, State and local agencies and private industry to 
develop, deploy and sustain a comprehensive intelligence-driven 
approach and response to terrorist and related criminal threats against 
the United States and its interests. FAMS provides critical support to 
the DHS mission to prevent terrorist acts within the United States, 
reduce vulnerability to terrorism, and minimize damage from potential 
attacks.

                               CONCLUSION

    The President's fiscal year 2006 budget request for ICE is a solid 
step forward for the agency. ICE is dedicated to protecting the 
homeland by enforcing immigration and customs laws; restoring integrity 
to the immigration system; ensuring the sanctity of our financial and 
trade systems; protecting Federal property; and ensuring security in 
the air. That is a broad and diverse mission, but the men and women of 
ICE are dedicated to building this agency into a model for law 
enforcement in the 21st century. The fiscal year 2006 budget request 
provides us with the resources that will make this goal a reality as we 
strive to secure the American homeland and protect the American people. 
We look forward to continuing to work with you to accomplish these 
worthy objectives.
    I would like to thank you, Chairman Cochran, Senator Byrd, and 
Members of the Committee, for the opportunity to testify before you 
today. I look forward to answering any questions that you may have.

    Senator Cochran. Thank you very much, Mr. Garcia.
    Mr. Bonner, you may proceed.

                     STATEMENT OF ROBERT C. BONNER

    Mr. Bonner. Yes, thank you, Mr. Chairman, Senator Byrd, 
Senator Leahy. I am very pleased to be here this morning to 
discuss the fiscal year 2006 budget request for U.S. Customs 
and Border Patrol, or CBP. I am also very pleased to be here 
with my colleagues from the Department of Homeland Security, 
both Director Aguirre of CIS and Mike Garcia, the Assistant 
Secretary for ICE.
    I particularly want to thank the members of this 
subcommittee for your strong support of the work that CBP does 
every day 24-7 to protect and defend the borders of our 
country. As you know, CBP's priority mission is homeland 
security and for a front-line border agency, which is what we 
are, that means that CBP's priority mission is keeping 
terrorists and terrorist weapons from getting into the United 
States.
    The budget request for 2006 in my view will provide 
resources to perform our all-important priority mission, our 
anti-terrorism mission, as well as our traditional missions, 
which go from everything from interdicting illegal drugs at our 
border to determining admissibility of people appearing at our 
ports of entry to apprehending people illegally entering the 
United States, protecting American agriculture, regulating 
trade, as well as collecting about $27 billion in duties and 
fees.

                  FISCAL YEAR 2004 WORKLOAD STATISTICS

    The magnitude of our border task is reflected by just a few 
statistics from fiscal year 2006, because in fiscal year 2004 
CBP through its Border Patrol agents apprehended over 1.1 
million people illegally entering our country or attempting to 
enter our country, 1.1 million. By the way, you want to 
translate that? It is about 3,000 each and every day of the 
year, day and night.
    CBP officers at our ports of entry and Border Patrol agents 
collectively seized slightly over 2 million pounds, nearly 1 
million kilograms, of illegal drugs attempting to be entered 
through our ports of entry. That is 56,000, by the way, 
separate seizures of illegal drugs at our borders last year.
    We seized almost $46 million in cash and currency that was 
leaving the United States, much of that of course is from the 
proceeds of illegal drug trafficking. We just seized about $1.7 
million in cash in a vehicle a couple of days ago that was 
going outbound in a vehicle through the Port of Laredo back to 
Mexico.
    There were 450,000 aliens that were turned around at our 
ports of entry. By that I mean they were not allowed to enter 
the United States because they were determined to be 
inadmissible. There were 78,000 fraudulent passports and other 
documents that were seized and intercepted by CBP at our 
borders.

                         ONE FACE AT THE BORDER

    So it gives you an idea of the magnitude of the task, but 
it also tells you what we are doing and that the job is getting 
done. We have unified our work force to create one unified 
front-line border agency for managing and securing and 
controlling the borders of our country. We have developed a 
comprehensive border strategy at our ports of entry for our CBP 
officers and Agriculture specialists and between our ports of 
entry, primarily our land borders with Mexico and Canada, with 
our CBP Border Patrol agents.
    The transfer of the air and marine operations to CBP last 
November I believe further strengthens our effort to secure our 
borders, to interdict drugs at and beyond our borders, and to 
support our homeland security mission.

                       TRADE/TRAVEL FACILITATION

    We have moved forward on important initiatives set in 
motion after 9/11 to secure the movement of goods and people 
across our border and our ports of entry without unduly 
impeding the legitimate flow of trade, the flow of legitimate 
trade and travel that is so important to our economy.

            WEAPONS OF MASS DESTRUCTION DETECTION TECHNOLOGY

    We are also deploying more technology at our ports of entry 
and between them to help detect potential terrorists and 
terrorist weapons, including potentially weapons of mass 
destruction, and I am talking about nuclear devices and 
radiological weapons, at our borders. This includes, by the 
way, already the over 400 radiation portal monitors at many of 
our major ports of entry. We are in phases three and four of 
that project to deploy better radiation detection equipment at 
our borders.
    As I said, Mr. Chairman, because the personnel and 
functions from the front-line border agencies of our you have 
been unified into one border agency, our Nation's borders are 
more secure and our Nation is safer than it was when we were 
literally fragmented between four agencies and three different 
departments of government that were responsible for our border. 
With over 41,000 approximately FTE Customs and Border 
Protection, about one-fourth of all the employees of the 
Department of Homeland Security, is by far the largest actual 
merger of people and functions taking place in the Department.

                 COMPREHENSIVE BORDER CONTROL STRATEGY

    Having one border agency also allows us for the first time 
in the history of our country to implement a comprehensive 
border strategy, not just at our ports of entry but between our 
ports of entry as well. Between our ports of entry--along the 
Mexican border and the Canadian border--the strategic goal is 
clear. That goal is to establish operational control of our 
borders, which by the way I think was always an important goal 
for our country, but is absolutely essential, as Senator Byrd 
suggested in his comments. It is absolutely essential in the 
post-9/11 era, in the era of global terrorism.
    Now, to do this, by the way, it is not all about staffing. 
It is also about the better use and deployment of technology. 
It is about organizing ourselves better in terms of how we 
protect and secure our border. To do this, we have done a 
number of things that are not widely known. One is we have 
centralized the Border Patrol command structure and increased 
the use and deployment of technology, including remote camera 
system and sensoring devices. We are pioneering as the first 
law enforcement agency ever the use of unmanned aerial 
vehicles, or UAV's, to establish literally an aerial patrol 
over significant segments of our borders.
    But we recognize that technology alone, by the way, is not 
a substitute for well trained and dedicated Border Patrol 
Agents. One of our goals of our strategy to control the border 
is to increase our ability to more rapidly deploy Border Patrol 
Agents to respond to weak spots along our borders with Mexico 
and Canada.

                      CARGO/SUPPLY CHAIN SECURITY

    Let me just say one other thing. Just shortly after 9/11, 
U.S. Customs, now CBP, developed a strategy for securing the 
movement of cargo to the United States and we did that through 
essentially four interrelated initiatives: the 24-hour rule to 
get advance information on all cargo coming into the United 
States; the use of an automated targeting system to identify 
the high-risk cargo, particularly for the terrorist threat, and 
that is done at our National Targeting Center in Northern 
Virginia; the container security initiative, an initiative that 
partners with other governments to screen high-risk containers 
before they are loaded on board vessels for the United States. 
Currently there are 35 foreign seaports that are partnered with 
us in CIS, including ports like Singapore and Rotterdam, and 
most recently Shanghai, China.
    Through the Customs Trade Partnership Against Terrorism (C-
TPAT), our partnership with the private sector, many major 
importers in the United States, oceangoing carriers and others, 
to improve the security of the supply chain literally back to 
the manufacturer, the foreign loading docks of manufacturers in 
foreign countries, all the way to U.S. ports of arrival, in 
exchange for benefits of faster processing that CBP can give to 
goods of companies that have better secured their supply chain.
    Those initiatives provide greater protection for our 
country against potential terrorist attack and not a one of 
those initiatives existed before 9/11.

                           prepared statement

    Thank you, Mr. Chairman, for letting me make an opening 
statement and for this opportunity to appear, and I look 
forward to answering any questions you or the other members may 
have.
    [The statement follows:]

                 Prepared Statement of Robert C. Bonner

                       INTRODUCTION AND OVERVIEW

    Chairman Cochran, Ranking Member Byrd, Members of the Subcommittee, 
it is a privilege and an honor to appear before you today to discuss 
U.S. Customs and Border Protection's (CBP) fiscal year 2006 budget 
request.
    I want to begin by expressing my gratitude to the Committee for the 
support it provided for important initiatives implemented by CBP last 
year. That support enabled CBP to make significant progress in securing 
our borders and protecting our country against the terrorist threat. As 
the Commissioner of CBP, I look forward to working with you to build on 
these successes.
    As the frontline border agency, CBP's mission is to prevent 
terrorists and terrorist weapons from entering the United States. That 
extraordinarily important priority mission means improving security at 
our physical borders and ports of entry, but it also means extending 
our zone of security beyond our physical borders--so that American 
borders are not our first line of defense.
    And we must do this while continuing to perform our traditional 
missions well. These missions include apprehending individuals 
attempting to enter the United States illegally, stemming the flow of 
illegal drugs and other contraband, protecting our agricultural and 
economic interests from harmful pests and diseases, protecting American 
businesses from theft of their intellectual property, regulating and 
facilitating international trade, collecting import duties, and 
enforcing U.S. trade laws. In fiscal year 2004, CBP processed almost 30 
million trade entries, collected $27 billion in revenue, seized 2.2 
million pounds of narcotics, processed 428 million pedestrians and 
passengers, 121 million privately owned vehicles, and processed and 
cleared 23.5 million sea, rail and truck containers.
    We must perform all of this important security and border-related 
work without stifling the flow of legitimate trade and travel that is 
so important to our Nation's economy. In other words, we have ``twin 
goals:'' Building more secure and more efficient borders.
    The fiscal year 2006 budget for CBP totals $6.7 billion, including 
$5.6 billion in appropriated resources and $1.1 billion from user fees. 
The total program increase request for fiscal year 2006 is $261 
million. This increase is paramount to help CBP fulfill its priority 
mission of preventing terrorists and terrorist weapons from entering 
the United States. As Commissioner, I will continue to ensure funds are 
devoted to support the traditional missions for which CBP is 
responsible, including resources for the automation and information 
technology programs that will improve overall operations of the agency.
    Mr. Chairman, although I will touch on each of the priority 
programs and initiatives in my statement, I want to point out that in 
many cases, funds spent in one area have a direct and positive impact 
on other areas. For example, funds spent on automation and information 
technology provide invaluable assistance to our priority mission of 
preventing terrorists and terrorist weapons from entering the United 
States. Also, funds spent on our priority anti-terrorism mission often 
result in improvements in our effectiveness and efficiency in carrying 
out our traditional missions, such as interdicting narcotics.
    By way of summary of the fiscal year 2006 budget for CBP, I can 
tell you that the program increases we are requesting include:
  --$125 million to continue the deployment and enhancement of Weapons 
        of Mass Destruction Detection Technology to our Nation's ports 
        of entry (POE);
  --$19.8 million for the continued deployment of surveillance and 
        intrusion detection technology along our Nation's land borders 
        through the America's Shield Initiative;
  --$36.9 million to hire 210 new Border Patrol Agents thereby 
        increasing border security and enhancing control of the borders 
        between the ports of entry;
  --$20 million to replace 12 of the Border Patrol's 58 Vietnam-era 
        vintage helicopters ensuring that Agents on the ground have 
        adequate and reliable air support;
  --$5.4 million to enhance and improve the efficiency our cargo, 
        conveyance and passenger screening systems ensuring that 
        legitimate trade and travel crosses our borders without delay 
        and that terrorists and their weapons, criminals or contraband 
        are intercepted before entering the United States;
  --$2.0 million for expansion of the Immigration Advisory Program to 
        additional overseas locations ensuring that terrorists, 
        criminals or persons traveling with fraudulent documents do not 
        board aircraft bound for the United States;
  --$5.4 million to expand the Container Security Initiative to 
        strategically important foreign seaports;
  --$8.2 million for the Customs-Trade Partnership Against Terrorism to 
        increase supply chain security and expedite the clearance of 
        legitimate trade;
  --$1.0 million for the operating expenses associated with the Arizona 
        Border Control Initiative;
  --$3.0 million for the operation of the Automated Biometric 
        Identification System (IDENT)/Integrated Automated Fingerprint 
        System (IAFIS) so that CBP Officers and Border Patrol Agents 
        can positively identify known terrorists and criminals 
        attempting to enter the United States;
  --$31.7 million to operate and maintain the long range radar system 
        in partnership with the Department of Defense, ensuring that 
        aircraft are detected and tracked as they attempt to enter U.S. 
        airspace; and
  --$3.2 million to contribute to the development of the DHS-wide 
        Homeland Security Data Network.
    In my statement, I will discuss these programs and others that CBP 
has been working on during the past year, and outline the actions CBP 
is planning to take in each area. I would like to begin, though, with a 
brief update for the Subcommittee on the status of CBP after its second 
year of existence as a consolidated agency within DHS.

             CUSTOMS AND BORDER PROTECTION--THE SECOND YEAR

    Fiscal year 2004 was the first full year that CBP operated as the 
single, unified border agency for the United States. From a strategic 
and operational standpoint, this consolidation has significantly 
increased our ability to execute our anti-terrorism and traditional 
missions at our Nation's borders more effectively than ever before, 
thereby enhancing the security of the United States, its citizens and 
the economy. I believe firmly that the United States is safer today 
than it was on September 11, 2001, because of the creation of CBP and 
the efforts and vigilance of CBP's personnel.

Achieve One Face at the Border
    With the creation of CBP, one agency has the responsibility for the 
entirety of our country's borders, for all purposes, customs, 
immigration, agriculture protection and, importantly, terrorism. This 
means that for the first time in our Nation's history, we are able to 
design a comprehensive strategy for our borders.
    To create ``One Face at the Border,'' CBP had to unify and 
integrate its operations and workforce. CBP is the largest merger of 
people and functions taking place within the DHS. Nowhere was 
unification more critical than at the ports of entry (POEs) where 
19,000 legacy Customs, Immigration and Agriculture inspectors joined 
together to carry out CBP's priority and traditional missions. To unify 
the Inspector workforce at the POEs, CBP established a new frontline 
team--the CBP officer and CBP Agriculture Specialist. In March 2004, 
former Agriculture Inspectors became CBP Agriculture Specialists and in 
July, all former Customs and Immigration Inspectors were converted to 
the CBP Officer position with a new series, title and job description. 
The two occupational groups wear the same uniform and have been unified 
under a single compensation system for overtime and premium pay, 
ensuring efficient and equitable assignment of work and compensation. 
This consolidation was commemorated in August when the new CBP badges 
with the DHS seal were issued to our personnel. Today CBP Officers and 
CBP Agriculture Specialists are our frontline team at all of our 
Nation's ports of entry and overseas pre-clearance locations.

Secure and Improve the Flow of Global Trade
    For the first time ever, on December 9, 2004, the World Customs 
Organization (WCO) Policy Committee endorsed a Framework of Standards 
to secure and facilitate global trade. The WCO represents 164 Customs 
administrations from around the world and accounts for 99 percent of 
all global trade. The framework is based in large part on principles 
designed and implemented by CBP in the aftermath of September 11, 
including: the 24-Hour Rule; the Advanced Targeting System located at 
the National Targeting Center; the Container Security Initiative, and 
the Customs-Trade Partnership Against Terrorism (C-TPAT). The WCO 
framework encourages cooperation among worldwide Customs 
administrations to secure international supply chains and facilitate 
the movement of legitimate trade and travel.

Develop and Implement a Comprehensive Border Control Strategy
    As a sovereign Nation, it has always been important that we control 
our borders. In light of the terrorist attacks of September 11, and the 
continuing threat posed to our country by international terrorists, it 
is now absolutely essential that we do so. and it is likewise essential 
that we have a coherent and understood strategy for doing so. We are 
developing a new Border Patrol strategy designed to achieve the goal of 
operational control of the United States borders. This strategy will 
build on the previous Border Patrol strategies, but will be enhanced to 
reflect the current threat environment.
    CBP's Office of Border Patrol is a vital part of CBP, responsible 
for controlling the border between official ports of entry. In the last 
2 years, the Border Patrol has made significant strides in improving 
our ability to control our border and establish a substantial 
probability of apprehending terrorists and their weapons as they 
attempt to illegally enter the United States between the ports of 
entry. For example, CBP has tripled the number of Border Patrol Agents 
on the Northern Border since 9/11, centralized the Border Patrol's 
command structure, and deployed additional technology to improve border 
enforcement operations, including cameras, electronic sensors, and 
Unmanned Aerial Vehicles.
    As important as these milestones are, we cannot afford to become 
complacent or let down our guard. To meet the threat of global 
terrorism, we must implement a layered, defense in-depth strategy to 
protect our borders. New challenges and opportunities are on the 
horizon for CBP. Our achievements over the past year and the 
President's fiscal year 2006 budget will serve as the foundation to 
meet them.

Integrate Air and Marine Operations
    The fiscal year 2005 Department of Homeland Security (DHS) 
Appropriations Act directed the transfer of missions and assets of the 
Air Marine Operations (AMO) from Immigration and Customs Enforcement 
(ICE) to CBP. The transfer will be completed in two phases. Phase One, 
which was completed on October 31, 2004, moved AMO intact from ICE to 
CBP. This included the transfer of operational responsibility and 
responsibility for all AMO personnel, missions, commitments, 
facilities, and assets to CBP.
    Phase Two, which commenced in late November, is the integration of 
all CBP air and marine personnel, missions, and assets. To accomplish 
this, CBP is using the Transition Management Office (TMO) process that 
was used successfully during the merger of the legacy CBP entities. CBP 
has made significant progress in Phase Two. I am confident that upon 
completion of this process, we will have a more integrated, effective 
and efficient aviation and marine program.

Provide Assistance to the New Government of Iraq
    In August, teams of CBP Officers and Border Patrol Agents were 
deployed to the Jordanian International Police Training Center to train 
officers of the Iraqi Department of Border Enforcement. The Iraqis have 
been provided with courses on border security tactics, human rights, 
defensive tactics, weapons training, and vehicle searches; in addition 
to basic customs and immigration activities. To date, CBP personnel 
have assisted in the training of more than 2,100 Iraqi border control 
officers. The training provided by CBP personnel will continue in the 
aftermath of the recent elections and focuses on keeping saboteurs, 
terrorists and armaments from crossing into or out of Iraq. The Iraqi 
officials CBP trained are now putting these skills to use at their 
country's borders and ports of entry.
meeting our twin goals: building more secure and more efficient borders
    As the single, unified border agency of the United States, CBP's 
mission is extraordinarily important to the protection of America and 
the American people. In the aftermath of the terrorist attacks of 
September 11th, CBP has developed numerous initiatives to meet our twin 
goals of improving security and facilitating the flow of legitimate 
trade and travel. The fiscal year 2006 budget will help us expand upon 
those initiatives to ensure further protection of both the American 
people and the American economy. Our strategy in implementing these 
initiatives involves a number of factors, including: (A) constant 
improvement of our targeting systems to better screen people and goods 
entering and departing the United States; (B) extending our zone of 
security outward by partnering with other countries; (C) extending our 
zone of security outward by partnering with the private sector; (D) 
deploying advanced inspection technology and equipment at our ports of 
entry to improve our ability to detect weapons of mass destruction; and 
(E) deploying advanced detection and monitoring equipment between our 
ports of entry to detect illegal crossings of our land borders with 
Mexico and Canada.

Enhancing Our Ability to Identify High-Risk People and Cargo
    Information is one of the most important keys to our ability to 
increase security without stifling legitimate trade and travel. Good 
information enables us to more accurately identify--or target--what is 
``high risk,'' defined as a potential threat, and what is low risk or 
absolutely no risk whatsoever. The separation of high risk from no risk 
is critical because searching and scrutinizing 100 percent of the cargo 
and people that enter the United States would cripple the flow of 
legitimate trade and travel to the United States. What is necessary and 
advisable is searching 100 percent of the high-risk cargo and people 
that enter our country. To do this, we need to be able to identify what 
is high risk, and do so as early in the process as possible. CBP has 
several programs and initiatives that help us accomplish that task.

            Automated Targeting System
    The Automated Targeting System (ATS), which is used by National 
Targeting Center (NTC) and field targeting units in the United States 
and overseas, is essential to our ability to target high-risk cargo and 
passengers entering the United States. ATS is the system through which 
we process advance manifest and passenger information to pick up 
anomalies and ``red flags'' and determine what passengers and cargo are 
``high risk,'' and therefore scrutinized at the port of entry or, in 
some cases, overseas.
    The funding increases sought for ATS in the fiscal year 2006 budget 
will allow for the continued improvement of the system as well as 
provide it with the capacity to process the electronic data related to 
the ever-increasing number of people and goods entering the United 
States. For example, the funding will allow us to develop and implement 
a version of ATS that, for the first time, will be able to identify 
potentially high-risk travelers in passenger vehicles. It will also be 
used to upgrade our passenger targeting system by improving the amount 
of government data that the system can access and analyze as well as 
provide us with the capacity to train more people on the use of the 
system. On the cargo side, the funding will permit ATS to increase its 
capacity and upgrade its capabilities by utilizing cutting edge 
information analysis technologies developed by CBP and the private 
sector.

Extending our Zone of Security Outward--Partnering with Other Countries
            Container Security Initiative (CSI)
    To meet our priority mission of preventing terrorists and terrorist 
weapons from entering the United States, CBP must extend our zone of 
security outward--so that our borders are not the first line of defense 
to keep terrorists and terrorist weapons out of the United States. We 
have done this by partnering with other countries on our Container 
Security Initiative (CSI), one of the most revolutionary and successful 
homeland security initiatives developed and implemented after September 
11, 2001.
    Almost 25,000 seagoing containers arrive and are off loaded at U.S. 
seaports each day. That equates to nine million cargo containers 
annually. Because of the sheer volume of sea container traffic and the 
opportunities it presents for terrorists, containerized shipping is 
uniquely vulnerable to terrorist attack. Under CSI, which is the first 
program of its kind, we are partnering with foreign governments to 
identify and inspect high-risk cargo containers at foreign ports, 
before they are shipped to our seaports and pose a threat to the United 
States and to global trade.
    The three core elements of CSI are:
  --First, identifying ``high-risk'' containers, using ATS and the 24-
        hour rule, before they set sail for the United States.
  --Second, performing security inspections of ``high risk'' containers 
        at the foreign CSI port before they are shipped to the United 
        States.
  --Third, using technology to perform security inspections of the 
        high-risk containers, including both radiation detection 
        equipment and large-scale imaging machines, to detect potential 
        terrorist weapons.
    CSI continues to generate exceptional participation and support. 
Right now, CSI is operational in 35 foreign seaports, including: 
Rotterdam, the Netherlands; Le Havre and Marseilles, France; 
Bremerhaven and Hamburg, Germany; Antwerp and Zebrugee, Belgium; 
Singapore; Yokohama, Tokyo, Nagoya and Kobe Japan; Hong Kong; 
Gothenburg, Sweden; Felixstowe, Liverpool, Southampton, Thamesport, and 
Tilbury United Kingdom; Genoa, La Spezia, Naples, Gioia Tauro and 
Livorno Italy; Busan, Korea; Durban, South Africa; and Port Kelang and 
Tanjung Pelepas, Malaysia; Piraeus, Greece; Algericas, Spain; and Laem 
Chabang, Thailand; Halifax, Montreal and Vancouver, Canada; and most 
recently Shanghai, China.
    I want to express my gratitude to the Committee members for their 
support of CSI in fiscal year 2005. With the $5.4 million increase in 
funding requested for fiscal year 2006, we will continue expanding CSI 
capabilities to ports with strategic importance or ports through which 
containers from high risk areas are transshipped. The fiscal year 2006 
budget will allow for future expansion of the program to additional 
high-risk or strategic foreign ports.

            Immigration Advisory Program
    The Immigration Advisory Program (IAP) extends our zone of security 
outward by screening passengers before boarding aircraft destined for 
the United States. Immigration Advisory Program teams identify high 
risk and terrorist watchlisted passengers using the Automated Targeting 
System and are able to intervene by questioning high risk passengers at 
overseas boarding areas of foreign hub airports. They are able to check 
documentation of high-risk passengers prior to departure and make 
preliminary decisions whether the passenger will be admissible to the 
United States upon arrival. If potentially fraudulent identification or 
immigration documents are identified, or the individual's purpose poses 
a threat, the airline is advised not to board the passenger and the 
host country law enforcement is contacted. The IAP teams have access to 
the passenger screening information produced by CBP's NTC through the 
vetting of passenger manifests against terrorist watch lists and 
criminal databases. If a ``hit'' occurs or documents are found to be 
deficient or fraudulent, the passenger is not allowed to board the 
aircraft. There are two significant advantages to this approach. First, 
terrorists, criminals or inadmissible aliens are not allowed to board, 
thereby preventing their entry into the United States and/or the 
inconvenience and expense of an in flight diversion of the aircraft. 
Second, the United States Government avoids penalties and the costs of 
detaining the individual before being deported and the airline avoids 
the costs of transporting the individual back to the originating 
airport.
    IAP is currently operating on a pilot basis in Amsterdam's Schipol 
Airport in the Netherlands and at Chopin Airport in Warsaw, Poland. The 
fiscal year 2006 budget includes $2.0 million to expand IAP to two 
additional overseas locations. I thank the Committee for their support 
of this program in the fiscal year 2005 DHS Appropriations Act.

Extending our Zone of Security--Partnering with the Trade
            Customs-Trade Partnership Against Terrorism (C-TPAT)
    The Customs-Trade Partnership Against Terrorism (C-TPAT) is a 
voluntary partnership between CBP and industry to secure international 
supply chains from end-to-end. C-TPAT importers secure supply chains 
from the foreign factory loading docks of their vendors to the port of 
arrival in the United States. CBP, in return, offers C-TPAT shipments 
expedited processing and provides C-TPAT participants with other 
benefits.
    As C-TPAT has evolved, we have steadily added to the rigor of the 
program. In order to join C-TPAT, a company must conduct a self-
assessment of its current supply chain security procedures using C-TPAT 
security criteria and best practices developed in partnership with 
logistics and security experts from the trade. A participant must also 
commit to increasing its supply chain security to meet minimal supply 
chain security criteria. Perhaps most importantly, participants also 
make a commitment to work with their business partners and customers 
throughout their supply chains to ensure that those businesses also 
increase their supply chain security. By leveraging the influence of 
importers and others on different participants in the supply chain, C-
TPAT is able to increase security of U.S. bound goods to the point of 
origin (i.e., to the point of container stuffing). This reach--to the 
foreign loading dock--which is beyond the regulatory reach of the 
United States Government, is critical to the goal of increasing supply 
chain security.
    C-TPAT is currently open to all importers, cross-border air, sea, 
truck, and rail carriers, brokers, freight forwarders, consolidators, 
non-vessel operating common carriers, and U.S. Marine and Terminal 
operators. We are currently enrolling certain foreign manufacturers in 
the C-TPAT program as well, and we will continue to develop ways to 
include this important element of the supply chain in the program. The 
intent is to increase point of origin to point of arrival security into 
the supply chain with active C-TPAT links at each point in the 
logistics process.
    Although C-TPAT is a partnership, the risk is too great to simply 
take participants at their word when it comes to their supply chain 
security. We have created a cadre of specially trained supply chain 
security specialists to validate the commitments made by C-TPAT 
participants--to ensure that they are increasing supply chain security 
as they have promised CBP. These specialists meet with personnel from 
C-TPAT participants and their business partners and observe the 
security of their supply chains, including security at overseas loading 
docks and manufacturing plants, as well as transportation links 
outbound to the United States. Through this process, we work with C-
TPAT participants to identify ways that they can further increase their 
supply chain security and we ensure that companies that are not 
honoring their commitments lose their C-TPAT benefits. As of January 
12, 2005, C-TPAT had reviewed and verified the security profiles for 
4,460 companies; there are more than 3,500 company profiles pending 
acceptance. We have validated or are in the process of validating parts 
of the supply chain of over 1,200 of the 4,460 certified partners, or 
approximately 27 percent. Our fiscal year 2006 program increase request 
of $8.2 million will enable outreach activities and continue 
validations and verifications of C-TPAT certified partner profiles.

Using Technology to Detect Weapons of Mass Destruction at our Ports of 
        Entry
    As trade increases, CBP's reliance on Non-Intrusive Inspection 
(NII) technology to secure the borders becomes more and more critical. 
Only by using NII technology to speed the inspections process for 
weapons of mass destruction (WMD) and contraband can CBP meet its twin 
goals of increasing security and at the same time facilitating trade.
    CBP uses various technologies in different combinations to 
substantially increase the likelihood that a nuclear or radiological 
weapon or weapons grade material will be detected. In addition, CBP 
also uses NII technology to detect and interdict narcotics, currency 
and other contraband secreted in large containers and commercial 
shipments. Technologies deployed to our Nation's land, sea and air 
ports of entry include large-scale X-ray and gamma-imaging systems--
systems that can image the contents of an entire container in minutes. 
These systems include the Vehicle and Cargo Inspection System (VACIS), 
Mobile VACIS, Truck X-ray, Mobile Truck X-ray, Rail VACIS, Mobile Sea 
Container Examinations Systems and the Pallet Gamma-ray System. In 
September 1996, our first large-scale NII system, a Truck X-ray, became 
operational in Otay Mesa, California. Today, we have 145 large-scale 
NII systems deployed.
    In addition, we have developed and are implementing a comprehensive 
radiation detection strategy at our ports of entry. Pursuant to that 
Strategy, we are deploying nuclear and radiological detection equipment 
to include personal radiation detectors (PRDs), radiation portal 
monitors (RPMs) and radiation isotope identifier devices (RIIDs). In 
combination with our layered detection strategy--working overseas to 
prevent the proliferation of nuclear materials and to detect them 
before they are shipped to the United States--and our use of multiple 
inspection technologies, these tools currently provide CBP with 
significant capacity to detect nuclear or radiological weapons and 
materials. We currently have over 400 RPMs deployed at our borders.
    The fiscal year 2006 request includes $125 million to continue the 
acquisition, deployment, and enhancement of Weapons of Mass Destruction 
Detection Technology at our Nations ports of entry. These actions will 
be coordinated with the Domestic Nuclear Detection Office (DNDO), which 
is being established to develop, acquire and support the deployment of 
the national nuclear detection architecture, including future 
acquisition issues. CBP's radiation detection strategy will be 
integrated into the overall strategy developed by DNDO.
    Our investment in WMD Detection technology is paying off as 
demonstrated by the following recent event. On January 26, 2005, at the 
Los Angeles seaport a PRD activated in proximity to a vessel from Kwan 
Yang, South Korea. A search of the vessel revealed that the source of 
the radiation was located in the ship's engine room. Subsequent 
screening with a Radiation Isotope Identifier and analysis by CBP 
Laboratory and Scientific Services Personnel stationed at the NTC 
revealed that the material was Cobalt 60, a material used in industrial 
and medical applications. Following coordination with the Science and 
Technology Directorate's Secondary Reachback Program, scientists were 
dispatched from the Department of Energy Radiation Assistance Program 
and it was confirmed that the radiation levels posed no threat to 
safety and that it was emanating from a gauge in the ship's fire 
extinguishing system. Although this alarm proved to be benign, the 
event demonstrates CBP's improving ability to detect sources of 
radiation in conveyances arriving at our borders and quickly take 
appropriate action to resolve any potential threats. Indeed, since CBP 
installed the first RPMs in May 2002, we have resolved over 10,000 
radiation hits of vehicles or cargo shipments crossing our borders.

Detecting and Responding to Illegal Crossings Between our Ports of 
        Entry
            America's Shield Initiative (ASI)
    The America's Shield Initiative, formerly known as the Integrated 
Surveillance Intelligence System (ISIS), is an effort to develop a 
comprehensive and unified system of electronic surveillance of our 
entire land borders. ASI is a critical part of CBP's strategy to build 
smarter borders. This, in turn, is critical to the Border Patrol's 
ability to increase its apprehension capabilities along our borders, 
and thereby establish greater control of our borders. The deployment of 
ASI is critical to prevent terrorists from entering the United States 
and to achieve operational control of our Nation's borders.
    I thank the Committee for the $64.2 million provided for ASI in the 
fiscal year 2005 Appropriations Act. These resources are being used to 
solicit and award a contract for the nation-wide integration of legacy 
ISIS capabilities and to deploy additional systems along our borders. 
Nation-wide integrated ASI capabilities will provide the Border Patrol 
with a tactical, command and control, situational awareness and 
intelligence collection and management system. The $19.8 million 
requested for fiscal year 2006 would enable CBP to broaden 
substantially its ASI coverage of the northern and southern borders by 
deploying the system where no coverage currently exists. In addition, 
with the advent of ASI, system capabilities will be improved to enhance 
the sensor and video surveillance capabilities of currently installed 
components, integrate new, state of the market surveillance 
technologies and increase interoperability with other law enforcement 
agencies.
    ASI acts as an important force-multiplier that allows CBP's Border 
Patrol agents to remotely monitor the border and respond to specific 
illegal border crossings rather than having to exhaustively patrol an 
area adjacent to the border. By contrast, Border Patrol operations 
without ASI support are not only less effective, they are more 
resource-intensive and less safe for Border Patrol Agents. Expanding 
the portion of the border covered by electronic surveillance, 
integration of new components and technologies, and improved Agent 
support equipment via the ASI program will provide the Border Patrol 
with the increased ability to meet its and CBP's priority mission 
threats.

            Border Patrol Aircraft Modernization and Replacement
    Aviation is one of the most effective force multipliers used in 
securing our Nation's borders. Aircraft perform a multitude of missions 
in this environment, including border surveillance, operational patrol, 
personnel deployment to permit rapid response to intrusions, and 
medical evacuation. In fiscal year 2004, CBP Border Patrol Aircraft 
flew almost 46,000 hours, apprehending 96,341 persons and assisted in 
seizing $103.6 million in illegal narcotics. This equates to 2.1 
arrests and $2,259 in seized contraband for each flight hour. The 
largest segment of the Border Patrol fleet is its helicopters; 
including 58 that are Vietnam era vintage. The high level of fight time 
is taking its toll on these important assets. New parts are no longer 
manufactured, requiring that salvaged parts be used to repair broken or 
damaged aircraft. The $20.0 million requested will allow CBP to begin 
implementation of the fleet modernization and replacement plan through 
the acquisition of 12 new helicopters. This initiative will improve 
Border Patrol Agent safety and ensure that these valuable assets, 
essential to effective border control, continue to be available to our 
frontline personnel.

            Border Patrol Agent Staffing
    An increase of $36.9 million is included in the fiscal year 2006 
budget to enhance Border Patrol staffing by 210 Agents. The additional 
Agents will be deployed along the southwest border to areas with the 
highest concentration of illegal entry activity. To date in, fiscal 
year 2005, there has been a 15 percent increase in apprehensions along 
the southwest border when compared to the aliens from the same time 
period in fiscal year 2004. In addition, there has been an increase in 
the number of Special Interest Aliens (SIA) and High-Risk Other Than 
Mexican illegal entrant aliens that pose an increased threat to U.S. 
national security. CBP has experienced significant operational success 
in targeted areas. Additional Agents and supporting resources are 
necessary to sustain and expand the progress made in border control 
efforts.

            Arizona Border Control Initiative-ABCI
    This landmark program supporting the mission of CBP to detect and 
deter terrorist activities and cross-border illegal trafficking of 
people and drugs was initiated on March 16, 2004, in the Border 
Patrol's Tucson Sector. Working in partnership with Immigration and 
Customs Enforcement (ICE), the government of Mexico, state, local, 
tribal and Federal law enforcement organizations, the CBP Border 
Patrol-led ABCI was designed to produce a safer and more secure 
southwest border at one of the weakest segments of our border with 
Mexico.
    The goals of ABCI were and are to: (1) achieve operational control 
of the Arizona border (2) support CBP's priority antiterrorism mission; 
(3) significantly impair the ability of smuggling organizations to 
operate; and (4) decrease the rate of violent crime and reduce the need 
for social services in southern Arizona. In fiscal year 2004, as part 
of ABCI, CBP repatriated 14,058 Mexican nationals on a voluntary basis 
to the interior of Mexico by means of commercial flights. This is the 
first successful interior repatriation effort, and it is a result of 
cooperation of and coordination with the Government of Mexico. These 
flights decreased the incidence of border crossing recidivism and 
reduced the number of heat related exposure deaths in the Arizona 
desert by 69 percent--from 45 in fiscal year 2003, to 14 in fiscal year 
2004 (during the period of July 12th through September 30th). ICE will 
assume responsibility for the interior repatriation flights in fiscal 
year 2006. Our fiscal year 2006 budget request of $1.0 million will 
assist in offsetting the costs of CBP's continued participation in the 
ABCI. These resources will be used for Border Patrol Agent support 
costs and other operational expenses including fuel, vehicle 
maintenance, and overtime associated with increased border surveillance 
within the Arizona area of operation.

            Long Range Radar
    The fiscal year 2006 CBP budget includes a total of $44.2 million, 
an increase of $31.7 million over base resources for our share of the 
joint agreement with the Department of Defense (DOD) to assume 
financial responsibility for the operations and maintenance costs of 
the primary component of the Federal Aviation Administration (FAA) 
long-range radar system. Beginning in fiscal year 2006, CBP and DOD 
will share these costs equally.
    Continued access to the primary component of the long-range radar 
system is essential to our ability protect the United States from acts 
of terrorism and drug smuggling via cross-border aviation. The FAA's 
primary radar system is used to track aircraft that either do not have 
transponders or have their transponders turned off in an attempt to 
avoid radar detection. Most small, non-commercial aircraft do not have 
transponders and these are the vehicle of choice for smugglers 
attempting to bring loads of cocaine, marijuana and heroin to the 
United States from Mexico and other source countries in Central and 
South America.

            IDENT/IAFIS
    The Automated Biometric Identification System/Integrated Automated 
Fingerprint Identification System otherwise known as IDENT/IAFIS, was 
established to merge the capabilities of the FBI's criminal master 
fingerprint file and the former Immigration and Naturalization 
Service's immigration violator database. These systems have been 
integrated into one system that captures biometric and biographical 
information through the use of a ``10 Print'' fingerprint machine and 
computer based facial imagery. The goals of the system are to identify 
repeat immigration offenders and identify criminals and previously 
deported aliens who should be detained. IDENT/IAFIS provides CBP's 
front line personnel with access to approximately 48 million criminal 
history records dating back to the 1920's. All Border Patrol field 
locations now have access to integrated IDENT/IAFIS and all CBP Ports 
of Entry will have access to the system by the end of this year. 
Previous studies indicate that combining IDENT and IAFIS checks 
increases the probability of identifying criminal aliens by almost 10 
percent. In addition, significant efficiencies are gained by being able 
to electronically scan fingerprints to and get a response back from the 
databases within ten minutes. From October 1, 2003, through August 31, 
2004, IDENT/IAFIS technology assisted Border Patrol Agents in the 
arrest of 138 homicide suspects; 67 kidnapping suspects; 226 sexual 
assault suspects 431 robbery suspects; 2,342 suspects for assaults of 
other types and 4,801 suspects involved with illegal drugs.
    The Directorate of Border and Transportation Security has assumed 
ownership of the IDENT/IAFIS system. The fiscal year 2006, $3.0 million 
budget initiative will offset CBP's share of IDENT/IAFIS operations and 
maintenance costs.

                   AUTOMATION/INFORMATION TECHNOLOGY

    Mr. Chairman, no discussion of a successful strategy to protect the 
American people and the American economy in the 21st century would be 
complete without consideration of the central importance of automation 
and information technology to CBP's mission.

Automated Commercial Environment
    The Automated Commercial Environment (ACE) is an important project 
for CBP, for the business community, for our country, and for the 
future of global trade. If done properly, it will reform the way we do 
business with the trade community. It will also greatly assist CBP in 
the advance collection of information for targeting high-risk cargo to 
better address the terrorist threat. And in doing so, it will help us 
expedite the vast majority of low-risk trade.
    The successful implementation of ACE has been and continues to be 
one of my top priorities as Commissioner. Increasing support from 
Congress and the Administration for ACE has been essential to the 
development of the new system. Funding of $321 million in fiscal year 
2005 has enabled us to continue development and begin to expand the 
first installment of ACE benefits to the trade community. Indeed, since 
my testimony last year, I can tell you that the development of ACE and 
the efforts to put its capabilities to work on America's borders have 
continued full throttle. We have over 350 importers, brokers, and 
carriers using the ACE Secure Data Portal and, since June 2004, have 
been collecting an increasing amount of duties and fees via the ACE 
Period Monthly Statement. CBP is also operating a pilot test of the ACE 
truck cargo release software in the port of Blaine, Washington, and 
plans to expand this new capability to ports across our northern and 
southern borders. In parallel with this development, CBP is working 
with the DHS Chief Information Officer and the US-VISIT program to 
ensure compliance with the DHS Enterprise Architecture and position the 
ACE architecture so that it can be leveraged to support the broad 
homeland security mission.
    Included within the $321 million for ACE is $16 million dedicated 
to continuing support of the International Trade Data System (ITDS). 
ITDS is our mechanism for coordinating intergovernmental support for 
ACE and ensuring that ACE meets the needs of government agencies with a 
need for trade data and a stake in border security. To that end, the 
ITDS Board of Directors has adopted a standard set of trade data as a 
step toward realizing the concept of using the ACE portal as the 
``single window'' into government for the trade community. We are 
pleased to report that the original group of eight participating 
agencies in ITDS has now grown to twenty-six. Representatives from 
these agencies are actively involved in defining the releases of ACE 
software.
    I want to thank Congress again for its past support of ACE. The 
continued support of ACE with $321 million in funding for fiscal year 
2006 will enable us to keep pace with our schedule for future ACE 
releases including:

            Account Revenue and Secure Trade Data
    ACE Release 5, scheduled to be complete in fiscal year 2007 will 
leverage the inherent capabilities of CBP's core financial system, SAP. 
Release 5 will integrate the entry summary business process from 
manifest receipt to entry liquidation. Through this release, ACE will 
become the system of record for all entry summaries.

            Screening and Targeting Capabilities
    The Targeting Foundation scheduled for release during fiscal years 
2005 and 2006 will extend ACE capabilities to entry summary processing 
through enhanced links to the NTC and its systems. Advanced Targeting 
capabilities will be expanded providing risk assessment and modeling, 
data mining, link analysis and pattern recognition capabilities.

Homeland Security Data Network--HSDN
    The Homeland Security Data Network addresses the Department of 
Homeland Security's requirement for a system capable of managing and 
disseminating sensitive and classified information in a secure 
environment. The HSDN effort will streamline and modernize the 
classified data transmission capabilities of DHS in order to facilitate 
communication and collaboration within DHS and with other Federal 
agencies including the Department of Defense. When implemented, the 
HSDN will facilitate transmission of data between DHS offices and other 
networks including the Anti-Drug Network (ADNET), Automatic Digital 
Network (AUTODIN) and the Defense Message System (DMS). HSDN will 
provide a scalable infrastructure, capable of supporting the growth and 
evolution of the DHS mission. CBP's share of this DHS-wide initiative 
is $3.2 million in fiscal year 2006.

                       OTHER TRADITIONAL MISSIONS

    Although CBP's priority mission is preventing terrorists and 
terrorist weapons from entering the United States, we know that we 
must--and will--accomplish that priority mission while continuing to 
perform our traditional missions well. Included among those missions 
are our responsibilities for interdicting drugs, apprehending 
individuals who enter the United States illegally, regulating and 
facilitating international trade, and protecting U.S. agricultural and 
economic interests from harmful pests and diseases.

Drug Interdiction
    Our anti-terrorism and counter-narcotics missions are not mutually 
exclusive, and one does not necessarily come at the expense of the 
other. The initiatives we have put in place to prevent terrorists and 
terrorist weapons from entering the United States have enabled us to be 
more effective in seizing other illegal contraband, including illegal 
drugs. Indeed, one of the first results we saw after implementing ATS 
for commercial trucks on the land border was a large narcotics seizure 
from a targeted shipment. And, it is worth noting that the lessons we 
have learned in our battle against international drug trafficking will 
help us in the fight against international terrorism.
    It would be a grave mistake for drug traffickers and other 
criminals to misinterpret our focus on terrorism as a weakening of 
resolve on other fronts. If anything, we have made life even more 
miserable for drug smugglers as we have intensified our overall 
presence along America's borders. Our heightened state of security 
along America's borders has strengthened, not weakened, our 
counternarcotics mission. As we have added staffing for both inspectors 
at the ports of entry and Border Patrol Agents between the ports of 
entry, acquired more inspection technology, conducted more questioning 
of travelers, and carried out more inspections of passengers and goods 
in response to the terrorist threat, we have seized greater amounts of 
narcotics. In fiscal year 2004, for example, we seized almost 2.2 
million pounds of illegal drugs, and made some of the largest 
individual seizures ever recorded by officers safeguarding our borders.
    The CBP Office of Air and Marine Operations (AMO) protects the 
Nation's borders and the American people from the smuggling of 
narcotics and other contraband with an integrated, coordinated and 
highly trained air and marine interdiction force. To accomplish the 
mission, AMO's thoroughly trained interdiction assets are deployed 
throughout the Western Hemisphere. The Air and Marine Operations Center 
(AMOC) in Riverside California, provides command, control, 
communications, and intelligence for those assets by assimilating 
information from a wide array of sensors.
    Effective coordination between inspectors at the ports of entry and 
agents who carry out investigative activities is essential to the 
success of our counternarcotics mission. For that reason, CBP will 
continue to cooperate closely with special agents from ICE to carry out 
this mission.

Apprehend Individuals Entering Illegally Between the Ports of Entry
    CBP's Office of the Border Patrol is specifically responsible for 
patrolling thousands of miles of Mexican and Canadian international 
land borders. Its primary task is securing America's borders between 
official ports of entry by preventing the illegal entry of people, 
goods, and contraband across our borders.
    The Border Patrol relies on agents, enforcement equipment (such as 
a fleet of specialized aircraft and vehicles of various types), 
technology (such as sensors and night vision cameras), tactical 
infrastructure (such as roads and vehicle barriers), and intelligence 
to carry out its mission. Applied in the correct combination, these 
resources can effectively deter, detect, monitor, and respond to 
illegal border crossings, as we have seen in locations such as the San 
Diego Sector and during operations such as Desert Safeguard.
    In fiscal year 2004, the Border Patrol played a key role in 
safeguarding the United States from the entry of terrorists, criminals, 
and illegal immigrants. Among the nearly 1.2 million people apprehended 
by the Border Patrol in fiscal year 2004 were 643 aliens from special 
interest countries.
    CBP will continue to work with other agencies and the Mexican 
Government to re-institute and increase the operational tempo of the 
Arizona Border Control Initiative this year. Under this initiative, CBP 
will aim to substantially reduce the number of illegal entries that 
occur in Arizona, and, as a result, will reduce the number of deaths 
that occur as aliens try to cross the Arizona desert. In turn, CBP will 
increase its ability to apprehend potential terrorists seeking to enter 
through the Arizona corridor.

Prevent Individuals from Entering Illegally at the Ports of Entry
    With respect to preventing individuals from entering the country 
illegally at the ports of entry, CBP continues to stop hundreds of 
thousands of people a year who are inadmissible into the United States 
for a variety of reasons, including prior immigration violations, 
criminal history, or the possession of false or fraudulent documents, 
and potential terrorists.
    We are helped in this effort by our close work with the Department 
of State to ensure CBP inspectors have the tools they need to verify 
the identity of visa holders and the authenticity of visas issued by 
the Department of State. Data on holders of immigrant visas is 
transferred electronically to ports of entry. When the electronic 
record is updated to reflect an immigrant's admission at a port of 
entry, that data is transferred electronically to the Bureau of 
Citizenship and Immigration Services (CIS) for production of a 
permanent resident card and creation of the immigrant file.
  --In fiscal year 2004, CBP processed more than 262 million aliens 
        attempting to enter the United States through the ports of 
        entry; 643,091 were deemed inadmissible under U.S. law. CBP 
        Officers also intercepted: 78,255 fraudulent immigration 
        documents; recorded 1.8 million lookout intercepts; and, 
        apprehended 399 travelers for terrorism or national security 
        concerns. In addition, 19,740 criminal aliens attempting entry 
        were not admitted and 566 stowaways were intercepted.

Regulate and Facilitate International Trade
    CBP maintains responsibility for regulating and facilitating 
legitimate international trade. As I mentioned earlier, many of the 
initiatives CBP implements serve the twin goals of increasing security 
and facilitating trade. With the right level of industry partnership 
and the right combination of resources, we can develop innovative 
solutions that not only protect legitimate trade from being used by 
terrorists, but also create a better, faster, more productive system 
for moving goods and people across our borders and thus contributing to 
U.S. economic growth. The key to the success of this effort is 
partnerships, and we devote considerable time and effort to dialogue 
and interact with both large and small enterprises engaged in trade.
    We have two major venues for engaging the trade community on an 
ongoing basis. The Commercial Operations Advisory Committee, created 
under the Federal Advisory Committee Act, is the primary group that 
provides advice on the CBP issues. The Committee meets quarterly and 
holds lively discussions on the full range of critical issues on our 
common agenda. The COAC was particularly important in helping us 
implement the Trade Act, and they most recently have worked on a series 
of measures to implement the Maritime Trade Security Act and to improve 
the Customs-Trade Partnership Against Terrorism (C-TPAT).
    Another key group of our private sector partners is the Trade 
Support Network (TSN), whose members work on developing specific 
requirements for the Automated Customs Environment to ensure ACE 
delivers the critical functionality required by both CBP, the trade and 
other government agencies. The TSN recently created a Supply Chain 
Security Committee, which will be the focal point for helping us 
identify information required to achieve the end-to-end view of the 
supply chain and identify the parties capable of reporting that data.
    As I have indicated, we have continued to work with the trade on 
these security and trade facilitation matters over the past year, and 
we will continue to do so in the year ahead. In fiscal year 2004, CBP 
processed 27.6 million entries of goods, a 7.9 percent increase over 
fiscal year 2003 levels and processed 23.5 million sea, truck and rail 
containers entering the United States, an increase of 5.5 percent over 
fiscal year 2003. CBP also collected more than $27 billion in revenue 
in fiscal year 2004: second only to the Internal Revenue Service in the 
Federal Government sector. CBP officers also completed 2,681 cargo 
merchandise seizures totaling almost $233 million and effected 8,586 
seizures of counterfeit commodities with a fair market value of $48.4 
million
    To increase our effectiveness and provide national direction over 
trade concerns, CBP has a National Trade Strategy that focuses on 
priority trade issues such as revenue collection, intellectual property 
rights, anti-dumping and countervailing duties, textile enforcement, 
and risks associated with intentional or unintentional contamination of 
agricultural products. The goals of the National Trade Strategy are to 
collect the appropriate duties, protect American businesses and our 
economic interests from theft of intellectual property and from unfair 
trade practices, and from the contamination of agricultural products by 
aggressively targeting high-risk shipments. In addition, CBP is 
responsible for key deliverables in the Administration's Strategy 
Targeting Organized Piracy (STOP) initiative, a multi-agency effort to 
improve protection of intellectual property rights, such as using state 
of the art analytical techniques to target suspect shipments and using 
post-entry audits.

Protect U.S. Agricultural and Economic Interests and the Food Supply
    CBP also enforces the laws and regulations pertaining to the safe 
importation and entry of agricultural food commodities into the United 
States. The traditional goals of the Agriculture Inspections (AI) 
program have been to reduce the risk of introduction of invasive 
species into the United States, protect U.S. agricultural resources, 
maintain the marketability of agricultural products, and facilitate the 
movement of law-abiding people and commodities across the borders. 
Accordingly, inspecting potentially high-risk travelers and cargo is 
critical to keeping the prohibited items out of the United States, 
monitoring for significant agricultural health threats, encouraging 
compliance with regulations, and educating the public and importers 
about agricultural quarantine regulations. In August, 2004, CBP 
Agriculture Specialists at the Port of Miami, intercepted and 
quarantined a shipment of habanero peppers infested with Mediterranean 
Fruit Fly larvae at and the False Coddling Moth. This shipment was 
manifested as coming from the Netherlands but was suspected of 
originating elsewhere. The quick actions of the CBP Agriculture 
Specialists prevented an incident that could have created severe 
economic losses to Florida's burgeoning agricultural products industry.
    With the creation of CBP, the AI program has expanded its focus to 
include a new priority mission of preventing potential terrorist 
threats involving agriculture. Indeed, the threat of intentional 
introductions of pests or pathogens as a means of biological warfare or 
terrorism is an emerging concern. To address this threat and to enhance 
its traditional AI missions, CBP has already begun using the Automated 
Targeting System, and its collective expertise regarding terrorism and 
agriculture, to strengthen our ability to identify shipments that may 
pose a potential risk to our agricultural interests.
    In addition, CBP working closely with the Food and Drug 
Administration (FDA) to implement the Bioterrorism Act to guard against 
threats to the food supply. The implementation of Phase III of the Act 
requires that prior notice of importation or intent to import all food 
to be consumed by humans be provided to both CBP and the FDA. Under the 
BTA, food products shipped by truck require two hours advance notice, 
by rail and air four hours and by sea eight hours. Enforcement of the 
provisions of the BTA are designed to protect the food that is on every 
table of every American household and to detect potential incidents of 
bio- and agroterrorism involving food. These efforts have built on our 
priority and traditional missions to make the food supply more secure, 
and will be supported in part by the targeting funding sought in the 
fiscal year 2006 budget.

                               CONCLUSION

    Mr. Chairman, Members of the Subcommittee, I have outlined a broad 
array of initiatives today that, with your assistance, will help CBP 
continue to protect America from the terrorist threat while fulfilling 
our other important traditional missions. Because of your support, we 
are far safer today than we were on September 11th. But our work is not 
complete. With the continued support of the President, DHS, and the 
Congress, CBP will succeed in meeting the challenges posed by the 
ongoing terrorist threat and the need to facilitate ever-increasing 
numbers of legitimate shipments and travelers.
    Thank you again for this opportunity to testify. I will be happy to 
answer any of your questions.

    Senator Cochran. Thank you very much, Mr. Bonner.
    Mr. Aguirre, you may proceed.

                      STATEMENT OF EDUARDO AGUIRRE

    Mr. Aguirre. Thank you, Mr. Chairman. Good morning, 
Chairman Cochran, ranking member Byrd, and Senator Leahy. My 
name is Eduardo Aguirre and I am the Director of USCIS. I 
appear before you to discuss the President's USCIS budget 
request for fiscal year 2006.

                       PROGRESS SINCE MARCH 2003

    Yesterday, as was noted, USCIS celebrated its second 
anniversary. Today I am looking forward to sharing with you our 
tremendous progress since March 2003. We are delivering on the 
President's promise to welcome immigrants with open arms, not 
endless lines. Our remarkable progress is not an anomaly, but 
rather a strong foundation and a new baseline from which to 
grow in the coming years. We secure America's promise as a 
Nation of immigrants by fundamentally reforming our tired 
system of immigration services.

                    FISCAL YEAR 2006 BUDGET REQUEST

    USCIS is one of the largest fee-funded agencies in the 
Federal Government. Our 15,000 employees and contractors serve 
applicants throughout our broad national and international 
network. The President's fiscal year 2006 budget will allow us 
to build upon the progress we have made. The budget includes a 
total for USCIS of $1.854 billion, $80 million in appropriated 
funds and $1.774 billion in fees. This budget will allow USCIS 
to process over 7 million immigration benefit applications.
    We note that fiscal year 2006 will be the final year of the 
President's 5-year plan for backlog elimination. Our budget 
includes a total of $100 million to support backlog elimination 
efforts as well as improvements in applications processing. 
This brings the 5-year total for this aggressive initiative to 
$560 million. We are on track to achieve the President's 
backlog elimination mandate.
    As Will Rogers eloquently stated, even if you are on the 
right track you will get run over if you just sit there. Thus, 
we have taken and continue to take a hard reengineering look at 
the way we currently conduct our business. Since my appointment 
and confirmation as Director of USCIS, our leadership team has 
continually reviewed our processes, identified opportunities 
for streamlining and further improvement, and implemented 
meaningful changes.
    Let me plainly state that as we improve our ways we are 
committed to never compromise national security in an effort to 
increase productivity. From day 1, USCIS established three 
crystal-clear priorities: One, eliminate the immigration 
benefit applications backlog; two, enhance national security; 
and three, improve customer service. Let me briefly touch upon 
progress made on each of these priorities.

                          BACKLOG ELIMINATION

    Eliminating the backlog. Operationally, fiscal year 2004 
was truly an outstanding year for USCIS and we continue the 
momentum so far in fiscal year 2005. We successfully reduced 
the backlog to 1.365 million cases, down from a high of 3.8 
million cases just a year ago in 2004. We increased overall 
completions by 21 percent processed, met, or exceeded cycle 
time targets in 15 of 16 major form types. We completed 109,000 
asylum cases in fiscal year 2004, a 20 percent increase, and 
also 53,000 refugees were admitted to the United States in 
fiscal year 2004, an 86 percent increase.

                       NATIONAL SECURITY MISSION

    Ensuring national security as well as preventing and 
detecting fraud are essential elements of our mission. Our 
newly created Fraud Detection and National Security Unit 
developed a joint anti-fraud strategy with ICE. We enhanced our 
background check process and we share information with key law 
enforcement and intelligence agencies.

                    IMPROVEMENT IN CUSTOMER SERVICE

    As an immigrant who once passed through the old INS system, 
I insist that we treat those who come before USCIS with dignity 
and respect. That brings me to improving customer service. 
Therefore, we have promoted a customer service culture and 
expanded many of the services available to customers online and 
by phone. Electronic filing now supports 50 percent of the 
total volume of benefit applications.
    InfoPass, our web-based system, enables applicants to go 
online in 12 different languages to schedule appointments. No 
more endless lines outside our immigration offices. We expanded 
phone services and access to customer's case status information 
via our website.
    Finally, in the past year USCIS has naturalized more than 
7,000 military service members. This past October, I personally 
led a USCIS team to Afghanistan and Iraq and launched overseas 
naturalizations to our military.

                           PREPARED STATEMENT

    In summary, although we have a long ways to go before our 
destination, I note that we are on the right track and moving 
forward to make USCIS an exemplary United States Government 
agency. This concludes my opening remarks, prepared remarks. I 
thank you for your support and for the invitation to testify 
before this subcommittee, and of course would be happy to 
answer your questions. Thank you, sir.
    [The statement follows:]

               Prepared Statement of Eduardo Aguirre, Jr.

    Good afternoon Chairman Cochran and Ranking Member Byrd and Members 
of the Subcommittee. My name is Eduardo Aguirre and I have the honor of 
serving as the first Director of U.S. Citizenship and Immigration 
Services, within the Department of Homeland Security.
    We are a welcoming Nation, and the hard work and patriotism of our 
immigrants has made our Nation prosperous. Since USCIS was established 
in March of 2003, we have made tremendous progress, which I will share 
with you today, to deliver the President's vision of ``welcoming 
immigrants with open arms . . . not endless lines.'' It is my sincere 
belief that the progress we have made in the past year is not an 
anomaly, but rather a strong foundation and a new baseline from which 
to grow.
    USCIS will continue to secure America's promise as a Nation of 
immigrants by providing accurate and useful information to our 
customers, granting immigration and citizenship benefits, promoting an 
awareness and understanding of citizenship, and ensuring the integrity 
of our immigration system. Our vision is to strengthen America's future 
by becoming a customer-focused innovator of benefits processing, a 
catalyst for citizenship education, instruction and outreach, a 
recognized and credible source of useful information, and a leading 
contributor to the security of the United States.
    USCIS has established three core values: integrity, respect, and 
ingenuity. We shall always strive for the highest level of integrity in 
our dealings with our customers, our fellow employees, and the citizens 
of the United States. We will also demonstrate respect in all our 
actions to ensure that everyone we affect will be treated with dignity 
and courtesy regardless of the outcome of the decision. And we will 
also use ingenuity, resourcefulness, creativity, and sound management 
principles to strive for world-class results.
    USCIS is one of the largest fee-funded agencies in the Federal 
Government--charging fees for a variety of immigration benefits from 
individuals seeking to enter, reside, or work in the United States. 
Therefore, the actual cash flow for our business operations, including 
a network of 250 local offices, Application Support Centers, Service 
Centers, Asylum Offices, National Customer Service Call (NCSC) Centers, 
Forms Centers, and Internet portals, varies from year to year with the 
number of immigration benefit applications received.
    In any typical work day, our workforce of 15,000 (one-third of whom 
are contractors) will:
  --Conduct 140,000 national security background checks.
  --Receive 100,000 hits to our Internet website (www.uscis.gov).
  --Answer phone inquiries from 80,000 callers at four National 
        Customer Service Centers.
  --Process 30,000 applications for an immigration benefit.
  --Answer in-person inquiries from 25,000 visitors to information 
        counters at 92 local offices.
  --Issue 7,000 green cards.
  --Capture 8,000 sets of fingerprints at 130 Application Support 
        Centers.
  --Welcome 3,000 new citizens.
  --Welcome 3,000 new permanent residents.
  --Welcome nearly 200 refugees from around the world.
  --Help American parents adopt nearly 80 foreign-born orphans.
  --Process the naturalization application of 50 individuals serving in 
        the U.S. military.
  --Grant asylum to 80 individuals already in the United States.
    USCIS has established three priorities: (1) enhancing national 
security, (2) eliminating the immigration benefit application backlog, 
and (3) improving customer service. In our second year of operations, 
we have successfully reduced the backlog to 1.5 million cases (down 
from a high of 3.8 million cases in January 2004), expanded electronic 
filing to support 50 percent of the total volume of benefit 
applications, expanded InfoPass (a USCIS Web-based system that enables 
the public to go online to schedule appointments), expanded phone 
services to allow round-the-clock access via automated means, expanded 
access to customers' case status information via the USCIS website, and 
created the Fraud Detection and National Security Unit to work closely 
with the appropriate law enforcement entities in responding to concerns 
relating to aliens who may pose a threat to national security or public 
safety.
    The President's fiscal year 2006 budget will allow us to build upon 
the progress we have made in the past year. The budget includes a total 
for USCIS of $1.854 billion, $80 million in appropriated funds and 
$1.774 billion in fees. The fiscal year 2006 budget will allow USCIS to 
process over 7 million immigration benefit applications and is the 
final year of the President's 5-year plan to achieve a 6-month cycle 
time standard or less for all immigration benefit applications at every 
USCIS office, including a total of $100 million to support backlog 
elimination efforts as well as improvements in application processing. 
This brings the 5-year total for this aggressive initiative to $560 
million.
    The USCIS fiscal year 2006 budget also includes two important fee-
related legislative proposals. One proposal involves the removal of a 
statutory cap on the Temporary Protected Status processing fee. This 
proposal will allow the fee to be adjusted above the current $50 to 
recover full costs, subject to a fee review, similar to the way other 
immigration benefit application fees are currently set. The other 
proposal is a customer service enhancement that authorizes expansion of 
premium processing service to non-employment based applications and 
petitions. The Department is currently authorized to collect a $1,000 
premium processing fee, in addition to the normal processing fee, for 
employment-based applications and petitions. This proposal would 
authorize the Secretary of Homeland Security to set the premium 
processing fee for certain non employment-based applications and 
petitions, such as travel documents, advance parole, employment 
authorization, re-entry permits, fiance adjudications, etc., not to 
exceed $1,000, and in excess of $1,000 for the investor visa (EB-5) 
program.

Eliminating the Backlog
    Although we are on track to achieve the President's backlog 
elimination mandate, we fully realize that funding alone will not 
enable us to achieve this goal. As Will Rogers so simply stated, ``Even 
if you're on the right track, you'll get run over if you just sit 
there.'' Thus, we have taken, and continue to take, a hard look at the 
way we currently conduct our business. This commitment is not just one 
of words, but one of action. Since my appointment and confirmation as 
Director of USCIS, I have worked closely with the leaders in USCIS to 
continually review our processes, identify opportunities for 
streamlining and further improvement, and to implement meaningful 
change. Let me assure you that USCIS will never compromise national 
security in an effort to increase productivity.
    In the past year, USCIS forwarded to the Congress a Backlog 
Elimination Plan that outlines the roadmap to achieve the President's 
mandate. We will continue to provide the Congress with quarterly 
progress reports on our Backlog Elimination status and achievements.
    Fiscal year 2004 was truly an outstanding year for USCIS. USCIS 
increased overall completions by 17 percent over the fiscal year 2003 
volume and met and/or exceeded cycle time targets in fifteen of sixteen 
major form types. In addition, USCIS completed a total of 109,000 
asylum cases in fiscal year 2004, representing a 20 percent increase in 
productivity from the previous fiscal year, when it completed 91,000. 
USCIS also worked steadily with its refugee program partners to 
successfully meet refugee admissions levels designated by the President 
while ensuring that the integrity and security of the program remained 
intact. USCIS officers conducted refugee status interviews in 50 
countries around the world and interviewed more than 70,000 refugee 
applicants of at least 65 different nationalities. As a result of these 
efforts, almost 53,000 refugees were admitted to the United States 
during fiscal year 2004, an 86 percent increase over the previous 
year's admissions.
    USCIS will increase its focus on Information Technology through an 
enterprise-wide transformation effort to ensure that long-term backlog 
elimination goals are sustained, customer service is improved, fraud 
detection and national security capabilities are enhanced, and a 
technology environment is deployed to support new processes and 
workflow aligned with the DHS mission and the Presidential mandate for 
eGov standards. USCIS is currently undergoing an infrastructure upgrade 
of its District and Service Center operations, upgrading its web 
presence environment, and developing a new integrated case management 
system to ultimately operate in a paperless adjudication environment.

Ensuring National Security
    USCIS understands that ensuring national security and preventing 
and detecting fraud are essential elements of its mission. As such, our 
newly established Fraud Detection and National Security Unit (FDNS) 
developed a joint anti-fraud strategy with Immigration and Customs 
Enforcement (ICE), hired and trained nearly 100 anti-fraud officers, 
and is in the midst of implementing an anti-fraud initiative throughout 
the United States. The FDNS is also leading the enhancement of USCIS' 
background check process, which is aimed at identifying applicants, 
beneficiaries, and petitioners who pose a threat to national security 
and public safety prior to granting them immigration benefits. The FDNS 
is also leading USCIS' information sharing initiative with key law 
enforcement and intelligence agencies.
    The establishment of a Refugee Corps with an expanded management 
support structure will provide a strong and effective overseas refugee 
processing program that will more efficiently identify inadmissible 
persons and those who are of national security interest without 
compromising the U.S. Refugee Program's (USRPs) humanitarian 
objectives. A Refugee Corps will ensure responsiveness to USRP 
commitments and goals, while greatly reducing the need to draw on 
scarce domestic program resources. It will also ensure the quality and 
consistency of refugee adjudications and improve the detection of 
refugee application fraud and the identification of security concerns 
relating to refugee admissions.
    USCIS also implemented the Safe Third Country Agreement on Asylum 
with Canada to help strengthen public confidence in the integrity of 
the immigration system and ensure that all asylum seekers will be 
heard, that they will receive procedural safeguards, and that they not 
be removed until either Canada or the United States has made a 
determination on the protection claim, in accordance with national laws 
implementing treaty obligations.

Improving Customer Service
    The Office of Citizenship continues to focus on providing 
information to immigrants at two key points in their journey towards 
citizenship: when they first become Permanent Residents and later when 
they are ready and eligible to begin the formal naturalization process. 
In the past year, the Office of Citizenship introduced an orientation 
guide entitled ``Welcome to the United States: A Guide for New 
Immigrants.'' The guide, which will be available in 10 languages in 
fiscal year 2005, contains practical information to help immigrants get 
started in the United States, and provides information to assist 
immigrants in the civic integration process. The Office of Citizenship 
also held a series of focus groups across the United States during the 
spring of 2004 to hear directly from local communities about their 
strengths, gaps, and needs in the areas of immigrant integration and 
citizenship preparation. The results of these focus group discussions 
were published in a report called ``Helping Immigrants Become New 
Americans: Communities Discuss the Issues.''
    Additionally, we have been examining the standard of knowledge in 
the current citizenship test to ensure that prospective and new 
citizens know not only the facts of our Nation's history, but also the 
ideals that have shaped that history. We also are working to 
standardize testing procedures in an effort to ensure equitable and 
more uniform results. Currently, a candidate in Los Angeles is, in all 
likelihood, not tested the same way or asked the same questions as a 
candidate taking the same exam on the same day in Boston.
    We do not want to make the test more difficult. We do not want to 
make it less difficult. We want to make it more meaningful in a way 
that does not have an adverse impact on any particular group of 
applicants. Therefore, we will carefully pilot test the revised 
English, history, and government tests before implementing them. And we 
will consult with our stakeholders to solicit their input, as we have 
done throughout the process. Once the test development is done, the 
Office of Citizenship will coordinate the creation of educational 
materials to complement this important initiative.
    Our plan is to begin implementing the new test and testing process 
in 2007. Given the importance of the ultimate benefit for those 
tested--U.S. citizenship--this process is not one that can or should be 
rushed. We are committed to improving the current process and to 
improving it in the right way.
    In our commitment to modernize and enhance the delivery of 
immigration services, InfoPass was launched in Miami in June of 2003. 
InfoPass is a free, easy and convenient alternative to waiting in line. 
It allows USCIS customers to go on-line and use an Internet-based 
system to make an appointment to speak with an Immigration Information 
Officer at a time that is convenient for the customer. InfoPass is now 
available for customers at all USCIS District and sub offices.
    Other conveniences available on www.uscis.gov include ``E-Filing'' 
for certain immigration applications, including the renewal and 
replacement of ``green cards,'' (Form I-90). E-Filing provides a quick, 
easy and convenient way for customers to complete, submit, and pay fees 
for petitions and applications at any time, from any computer with 
Internet access. As a further time saver, the USCIS Web site is now set 
up to accept credit cards for the payment of application fees. To date, 
USCIS has received more than 250,000 applications through its E-Filing 
system. E-Filing now supports form types that account for 50 percent of 
the total volume of benefits applications USCIS receives annually. 
During fiscal year 2005, USCIS plans to combine E-Filing with the 
Lockbox program to further streamline our internal processes. E-Filing 
will also play a key supporting role in implementing Premium Processing 
for additional form types; the newly enacted H1-B/L-1 Visa Reform Acts; 
and an electronic adjudication initiative.
    Additionally, the public is encouraged to use the Internet to check 
the status of applications filed with any of USCIS' Service Centers. 
Our Case Status Service Online, available in English and Spanish, 
allows customers who have a receipt number for an application or 
petition filed at a USCIS Service Center to check the status of their 
pending case online through the USCIS website (USCIS.gov), or by 
calling the toll-free telephone number of our National Customer Service 
Center. The Case Status Online system offers customers the option of 
establishing a portfolio of up to 100 cases that can be checked through 
a single login 24 hours a day, 7 days a week. Customers can also elect 
to have USCIS automatically send an email informing them of any change 
in status of a pending case.
    In the past year, USCIS has responded to over 11,000,000 queries 
for verification of immigration status. USCIS provides immigration and 
employment authorization status information to over 126,000 government 
and private sector users. By providing the best possible verification 
services to thousands of agencies and employers, USCIS saves the 
Government money by ensuring that only eligible aliens receive public 
benefits. In addition, an employment verification pilot program 
authorized in 1996 and reauthorized in 2004, helps to ensure that jobs 
are available only to workers authorized to accept employment in the 
United States.
    As you are aware, the National Defense Authorization Act for fiscal 
year 2004 authorized overseas military naturalizations. In the past 
year, USCIS has naturalized more than 7,000 military service members 
both in the United States and overseas, and posthumously naturalized 39 
service members who died in service to the United States.
    Finally, USCIS committed itself to the global effort to recover 
from the earthquake and tsunami by announcing temporary relief measures 
for those individuals who are unable to return to their home country 
due to the destruction and humanitarian crisis in Southeast Asia. USCIS 
is expediting the processing of certain immigration benefit 
applications, including requests for advance parole and relative 
petitions for minor children from the affected areas. USCIS also is 
more readily approving applications from visitors from the tsunami-
affected countries who requested a change or extension of their 
nonimmigrant status.
    This concludes my prepared remarks. I thank you for the invitation 
to testify before this committee and I would be happy to answer any 
questions.

    Senator Cochran. Thank you, Mr. Aguirre.

                       ALTERNATIVES TO DETENTION

    This morning National Public Radio did a report on 
Alternatives to Detention and the program run by the 
Immigration and Customs Enforcement agency using ankle 
bracelets to keep up with and track noncriminal aliens as they 
await the outcome of their immigration cases being considered 
and disposed of. What is the utility of this method and do you 
consider it more humane, more efficient, and less expensive 
than detaining through forcible imprisonment, or whatever other 
devices you have, those who you know may not be legally 
entitled to be in our country? Mr. Garcia?
    Mr. Garcia. Thank you, Mr. Chairman. A timely topic as 
there is a $5.4 million enhancement for that program in the 
2006 request. We right now have eight sites where we do 
Alternatives to Detention and we plan to expand that two more 
for a total of ten.
    This is a program, Mr. Chairman, that does exactly what it 
says. It is an alternative to detention. These are illegal 
aliens who would otherwise be subject to incarceration. The 
program is in three steps: a 30-day period with an ankle 
bracelet, a monitoring and reporting requirement. If the alien 
complies, the bracelet comes off and then it is telephonic 
interviews and home visits. After an additional period, it 
becomes only telephonic interviews.
    It is extremely cost-effective, estimated at a quarter of 
the cost of detention space. It provides assistance to the 
aliens in the process, linking them with pro bono services, et 
cetera. And it asks for responsibility on the part of the 
alien, who has voluntarily opted into this program, and that is 
an important point. This is a voluntary program. But it asks 
for responsibility on the part of the participants and if they 
show that, then the conditions become less onerous over time.

                       USE OF RADIATION MONITORS

    Senator Cochran. Mr. Bonner, we understand too the 
importance of upgrading technologies in the Border Patrol area, 
and you highlighted that in your statement. What is the success 
that you anticipate from using radiation monitors? Is this a 
technology that has been proven? I ask this in the context with 
our experience in Iraq, where the weapons inspectors were using 
radiation monitors there and David Kay made a point of saying 
you can deploy these monitors, but after the sand and the heat 
and the other influences of nature take place you might have a 
useless piece of equipment there in the desert. Have you had 
any experiences similar to that at CBP?
    Mr. Bonner. Well, first of all, the main thing that we have 
going in terms of detecting against a nuclear device or special 
nuclear materials is a combination of technology that we would 
deploy and we are deploying at our ports of entry principally. 
So there is where we have radiation portal monitors. We have 
completed the first two phases, which is the International Mail 
Facility, so every package that comes in is screened. The 
International Air Express Consignment Facilities are completed. 
We have substantially deployed well over 200 portal monitors on 
our northern border ports of entry with Canada. We are in the 
process of now deploying a significant number along our 
southern border ports of entry with Mexico, and we have started 
deployment at some of our major seaports.
    We have a long way to go here. But the question is are they 
effective. Well, you need a combination of technology. 
Radiation portal monitors are highly sensitive to both gamma 
and neutron detection. In other words, you can have, without 
getting into sort of the classified area here, you can have a 
fair degree of confidence in the fact that you are going to 
detect radiation. In fact, since we started deploying the 
radiation portal monitors--and these are large things at our 
ports of entry, through every--not just commercial truck, every 
passenger vehicle that comes through--since we have started 
deploying them, we have resolved over 10,000 radiation hits.
    The good news to tell you is that those radiation hits 
turned out to be negative. In other words, we resolved them to 
be naturally occurring radiation sources or radioactive 
material consistent with the shipment of goods. That might be, 
by the way, a shipment of tiles, which very frequently emits 
radiation that reads for thorium and so on.
    So this is not the only thing, though. We combine that with 
our targeting system, and our NII equipment, that is our large-
scale X-ray scanning machines, as well as isotope identifiers 
and other personal radiation detector equipment, to give us a 
combination of resources that improves our ability to detect 
against a dirty bomb coming across our border and/or 
potentially a nuclear device, which is obviously of the most 
momentous consequence one can imagine.
    We have found them to be effective. Now, we are looking 
for--we are always looking for better technology to detect 
against this issue.

         SIX-MONTH AVERAGE FOR PROCESSING BENEFITS APPLICATIONS

    Senator Cochran. Mr. Aguirre, you mentioned reducing the 
backlog of your benefit application cases down to 1.3 million 
cases from a high of 3.8 million in January of 2004. I know you 
have devoted special funding in this area, too. Once you do not 
set aside dollars to bring down the backlog, are you going to 
be able to maintain this 6-month average of processing 
applications?
    Mr. Aguirre. Senator, I am certain of that. I am certain 
that we are going to meet the commitment to eliminate the 
backlog by September 2006. In fact, I will be surprised if we 
do not beat that by a little. And in the process, we have re-
engineered all our processes so that not only are we 
eliminating the backlog and perhaps put it below a cycle time 
of 6 months, but also making sure that we are taking care of 
the applications that are coming in day in and day out.
    So once this 5-year commitment expires, I do not feel that 
we are going to need to go back to any appropriated funds for 
this particular endeavor.
    Senator Cochran. We have a vote that is occurring on the 
floor of the Senate right now. But before we cut off the right 
of any Senator to ask questions, I am going to proceed and 
recognize Senator Byrd and Senator Leahy both if they wanted to 
ask questions before we go vote.
    Senator Byrd. Mr. Chairman, thank you for your courtesies 
always.
    First, let me ask unanimous consent that a letter from me 
to the Honorable Michael Chertoff be included in the record 
following my earlier statement.
    Senator Cochran. Without objection, it is so ordered.

              ANTIDUMPING/COUNTERVAILING DUTY COLLECTIONS

    Senator Byrd. Thank you.
    Commissioner Bonner, on December 17, 2004, Customs and 
Border Protection (CBP) issued its regular annual report on the 
Byrd Amendment trade law. The annual report describes how 
hundreds of millions of dollars in duties are not being 
collected by Customs, and the agency has been unable to explain 
why it cannot collect these funds.
    In fiscal year 2003, the agency failed to collect $130 
million in duties owed to the United States under the U.S. 
anti-dumping and countervailing duty laws, and CBP failed to 
collect an additional $260 million in fiscal year 2004. The 
majority of that $390 million is the result of uncollected 
duties on goods imported from China. The conference report 
accompanying the Department of Homeland Security Appropriations 
Act for fiscal year 2005, which was enacted in October 2004, 
included language that directed Customs and Border Protection 
to submit a report to the House and Senate Appropriations 
Committees by January 15, 2005, on the implementation of 
recommendations that were made by the U.S. Treasury 
Department's Inspector General concerning the Customs and 
Border Protection's implementation of the Byrd Amendment trade 
law.
    The Senate Appropriations Committee has not yet received 
that report. Why is this problem of noncollection growing, and 
what are you doing to address it? Finally, do your efforts 
respond to the recommendations of the Treasury Inspector 
General?
    Mr. Bonner. Let me first of all say, Senator Byrd, that we 
are committed, I am personally committed, to improving our 
collection efforts. I am troubled that we used to say when we 
were settling cases that we were leaving too much money on the 
table here that is not collected. It is not accurate to say 
that we are unable to explain what the problem is. I think we 
have a pretty good understanding of the problems and we have 
taken some steps to improve our collections of antidumping and 
countervailing duty assessments. But let me just identify a 
couple of ways where we are moving forward. One of the problems 
in terms of collections was the insufficiency of continuous 
duty bonds for these kinds of high-risk shipments. These tend 
to be, by the way, agriculture and seafood products, a lot of 
it coming from China, but some other countries, and the 
continuous duty bonds were not nearly sufficient when the 
ultimate duty assessment was made by the Department of 
Commerce.
    So we have taken steps to raise the continuous duty bonds 
on goods that are particularly those types of goods that are or 
are very likely to be subject to antidumping duties, a final 
order.
    There were insufficient single entry bonds. In other words, 
we did not have recourse. So we are more diligent. We now have 
something that is very close to real-time monitoring of 
shipments that are subject to preliminary orders of commerce or 
potentially high-risk shipments of goods, and are raising the 
single entry duty bonds to higher levels that are more 
consistent with what we expect the ultimate duty assessment to 
be.
    By the way, just to let you know that we have taken not 
just those two steps to increase the bond coverage, but we have 
a better mechanism now for potentially identifying 
circumvention of the antidumping duties. By the way, as you can 
imagine, there is all sorts of circumvention. It is everything 
from fraudulent misdescribing of the goods, so that it is not a 
good that was subject to an antidumping order--we have had 
that, by the way, with respect to catfish shipments mislabeled 
as groupers. I know you are interested in this issue, Mr. 
Chairman. But we have had that.
    We have had sham companies that are set up and so forth. So 
we have ratcheted up our enforcement effort through our 
Commercial Enforcement Division and, frankly, are working very 
closely with ICE in nine significant and hopefully potential 
criminal prosecutions, but criminal investigation of fraud. We 
think that it would be very important to bring additional cases 
in this area for its deterrent value.
    We are better coordinating with the Department of Commerce 
so that we are actually in communication with them before even 
a preliminary order comes out and we can take some steps.

                      DEFAULT OF A SURETY COMPANY

    We have discussed with the Treasury Department one other 
issue, and that was actual default of a surety company, which 
was about $100 million of the total failure to collect. This 
was a surety company that had been approved by the Treasury 
Department and it defaulted on its surety bond obligations. So 
we are working with Treasury to make sure that the surety 
companies that are approved by the Treasury Department to write 
customs bonds are financially viable when payment time comes 
up.

               INITIAL PRELIMINARY ORDERS IN LIQUIDATION

    So we have taken all these steps. Now, there is a lag time, 
as you know, between the initial preliminary orders in 
liquidation. So it is going to take some period of time before 
we see substantial results here, but I do think we have taken 
some very important steps to identify the problem and take 
concrete actions that are going to improve, and I hope 
substantially improve, our collection rate.
    Senator Byrd. Mr. Commissioner, I am heartened by your 
response. I know that you are very much alert to the problem. 
It is complex, it is difficult, and I compliment you on the way 
that you are working with other agencies and departments to 
deal with this problem. I thank you. I urge you to continue to 
work on it and to work even harder. I do appreciate your 
efforts.
    Mr. Bonner. Thank you, Senator.
    Senator Byrd. Mr. Chairman, let me close, because we are up 
against the voting situation over there. Incidentally, I have 
cast over 17,000 votes, but I do want to cast some today. I am 
going to submit the remainder of my questions, if I may, to be 
answered for the record.
    I thank all the witnesses.
    Senator Cochran. Thank you, Senator, for your contribution 
to the hearing.

                     ICE HIRING IN FISCAL YEAR 2006

    Senator Leahy. Just very quickly and I will put most of my 
questions in the record. To Assistant Secretary Garcia: When 
ICE was here last year it had severe budget problems, a hiring 
freeze. Does the fiscal year 2006 request bring ICE back to 
fiscal solvency? Will you be lifting the hiring freeze. If not, 
when?
    Mr. Garcia. Thank you, Senator Leahy. You are correct, we 
were here last year, we had a hiring freeze. We have taken a 
number of steps to address that. Working with the Department, 
we continue to do that. We need to take further steps. 
Secretary Loy testified a couple of weeks ago to that effect.
    The 2006 as we have proposed it will move us forward. We 
will be hiring in 2006.
    Senator Leahy. All these temporary people who have been 
there for 3 or 4 years, does that mean they can be looking for 
permanent positions now?
    Mr. Garcia. That is certainly our intention, Senator. I 
know that there are a number of those temporary positions at 
our Law Enforcement Support Center up in Burlington. As we have 
discussed, I only see the role of that Center expanding and 
becoming more important under our homeland security mission.
    Senator Leahy. Does the budget cover what you need or are 
you going to need reprogramming?
    Mr. Garcia. Hard to answer because, as we go along I will 
look at that. I have not been able to do that yet, obviously, 
because of the lack of clarity on some of the budget issues and 
the challenges we have been facing. But it is an issue that we 
consider a top priority.

                 BORDER PATROL AGENT STAFFING INCREASES

    Senator Leahy. Mr. Bonner, I mentioned before the budget 
only asks for 10 percent of the mandated agents. You think we 
need further agents on the northern border.
    Mr. Bonner. Well----
    Senator Leahy. Because you are only asking for 10 percent 
of what Congress mandated.
    Mr. Bonner. As you know, Senator, I am in full, violent 
support of the President's budget request, which requests 210 
Border Patrol agents in addition to, of course, replacing 
attrition.
    Senator Leahy. But none of them for the northern border?
    Mr. Bonner. Well, you know, you did note----
    Senator Leahy. We needed more.
    Mr. Bonner. You did note and let me note that we had 360 
Border Patrol agents on the northern border for the entire 
border with Canada on 9/11. On March 1, 2003, that was up to 
about 500.
    One of the first actions I took was to direct Border Patrol 
to meet the 1,000 goal, which they did actually in fiscal year 
2003.
    Senator Leahy. Do we need any more--this is what the bottom 
line is. Do we need any more on the northern border? Do we have 
enough on the northern border today?
    Mr. Bonner. You mean beyond what we have in the request?
    Senator Leahy. No, no. Do we have enough on the northern 
border with the number we have today. There is no request for 
the northern border. It is 210, 10 percent of what we mandated. 
But that is not for the northern border.
    Do we have enough on the northern border? It is an easy 
answer, yes or no.
    Mr. Bonner. We do not have enough agents. We do not have 
enough technology to give us the kind of security we need on 
the northern border.
    Senator Leahy. I am just a lawyer from a small town in 
Vermont. I do not understand. Is that a yes or a no?
    Mr. Bonner. I am just a lawyer from a small town in Kansas, 
so--
    That moved to California at some point.
    Senator Leahy. Here we are in the big city. Is it yes or 
no?
    Mr. Bonner. Well, we need more agents----
    Senator Leahy. Help me out here.
    Mr. Bonner. We need more agents. But look, I think it is 
the right combination of people and technology, and essential 
to this is the American Shield Initiative. The fiscal year 2006 
budget includes $81 million for technology, for more 
helicopters, and for UAV's for the Border Patrol. We need to do 
a smarter and a better job. I think we can do that. The 
President's request is for 210 more Agents. I do not know that 
they are necessarily earmarked all for the southern border. If 
you are asking me, I think probably most of them will go there.
    Senator Leahy. We should have this discussion in greater 
detail, because I am not happy. I do not think we are getting 
the number, we are certainly not getting anywhere near the 
number that the Congress mandated.

                            I-91 CHECKPOINT

    I also want to have your staff and mine talk about this 
checkpoint you have on Interstate 91 in Vermont, a long, long 
distance from the border, that just stops honest Vermonters 
that have been driving back and forth there forever and ever.
    You had people--aliens that have been there for ever and 
ever, they keep getting stopped over and over and over again. 
There is a real suspicion of some racial profiling people who 
have honestly, working in New Hampshire and Vermont for years 
and years, and just continuously get stopped. They continuously 
get asked the same questions as they got asked the day before.
    The irony is, of course, if anybody wanted to circumvent 
that they would just go out one of the back roads, and the 
agents would never find them.
    So let our staff talk about that. It is creating, both in 
the ``Live Free Or Die'' State of New Hampshire and the former 
independent republic of Vermont, it is creating a bit of a 
concern. It is not going to do anything to stop people from 
coming across the border, because they are not the ones getting 
stopped.
    Mr. Bonner. Could I briefly respond, though? That is that 
part of the strategy is not putting everything on the line 
itself. There has to be a second line of defense. It is not 
that the checkpoint is necessarily going to--that terrorists 
that might come across the Canadian border into the United 
States. Part of the strategy of a checkpoint is lateral 
enforcement from the checkpoint. It gives us a second line of 
defense.
    Senator Cochran. Senator, we have a vote.
    Mr. Bonner. It is going to be important. It is an important 
part of the overall strategy to get better control of our 
borders, something you and I have a common interest in.
    Senator Leahy. Yes. But when I have to stop and prove my 
identification and I am a U.S. citizen, I know this is helping 
somebody. It is sort of like security stopping Ted Kennedy a 
dozen times from going on a plane because he is seen on a 
terrorist list and the government does not know how the hell to 
get him off it.
    Thank you.
    Mr. Bonner. Thank you, Senator.
    Senator Cochran. This Senate hearing will stand in recess 
until we go vote and we will return to resume our questioning 
of the witnesses. We appreciate your indulgence.

          NEW OFFICE OF SCREENING COORDINATION AND OPERATIONS

    Thank you very much for your patience. I apologize for 
having to go vote on the floor of the Senate during our 
hearing.
    The President's budget proposes to create the Office of 
Screening Coordination and Operations within the Border and 
Transportation Security Directorate. How do each of you see 
this new office contributing to the Department's ability to 
implement the 9/11 Commission recommendation? Mr. Bonner, let 
us start with you.
    Mr. Bonner. Well, I would say this, that certainly there 
will be some benefits from thinking through this issue of 
screening, particularly for the terrorist threat. So I expect 
that it will assist in terms of coordinating those efforts, 
understanding that there are fundamentally very different 
screening opportunities that are presented depending upon which 
homeland security agency you are talking about.
    We have the broadest law enforcement authority of any law 
enforcement agency in our country, Customs and Border 
Protection, and that is because we have the full authority to, 
without cause or suspicion, ask questions of anybody who is 
crossing our border or entering our country through our 
official entry points and certainly to arrest anybody who is 
not. Secondly, we have the broad customs search authority, 
which is the broadest search authority under the Fourth 
Amendment of our Constitution, which permits us to search and 
inspect luggage of everybody, by the way, U.S. citizens, non-
citizens, without cause, warrant, or suspicion.
    So we have broad authorities, which we are using right now 
in terms of being as intelligent as we can to perform that 
priority mission of preventing terrorists from entering our 
country. But I think nonetheless the Screening Coordination 
Office should, I believe, play a helpful role.

                        VETTED TRAVELER PROGRAMS

    There is another area, just briefly let me touch on it, Mr. 
Chairman, where the Screening Coordination Office I think could 
play a valuable role. That is, there are in place right now 
essentially what I call trusted, vetted traveler programs. 
Customs and Border Protection vastly expanded the Nexus program 
at the Canadian border. We now have almost 80,000 people that 
we have vetted. That is not only taking biometrics from them; 
that is a personal interview to make sure that they pose no 
terrorist threat or smuggling threat. We have a similar program 
that we inherited from INS, the SENTRI program at the Mexican 
border. We have FAST, the FAST program for commercial truckers 
from both Mexico, coming from Mexico or Canada, and so forth.
    We have mature actual programs. They are not pilots. We 
have enrolled about 200,000 people into these programs. But on 
the other hand, TSA is piloting a registered passenger program 
and so forth. You need to look at the issue of what are the 
biometrics that should be collected from each person that is 
enrolled or is going to be considered to be a trusted or 
registered individual for receiving some benefits. You need to 
look at the biometric you use to identify them when they appear 
at the border port of entry or when they appear at the airport 
if it is a TSA issue and the like, and so forth.
    I think the Screening Coordination Office could play a very 
important role in getting those policy decisions, and they are 
policy decisions, made and implemented in the most visionary 
way possible, so that at the end of the day somebody that is 
vetted in for one of these programs, let us say for the Nexus 
program, would be cleared in for other kinds of trusted 
passenger programs.
    That is a big idea and I think the Screening Coordination 
Office can and I hope will play a valuable role in harmonizing, 
if you will, the technology issues for these different kinds of 
trusted, vetted, or registered passenger or traveler programs.
    Senator Cochran. Mr. Garcia, this was part of the 
presidential commission, the National Commission on Terrorist 
attacks, the 9/11 Commission's, recommendations, that there be 
a centralized office created, designed to provide comprehensive 
screening across, addressing common problems and setting common 
standards in a systemwide operation. Do you see this office 
contributing to the Department's ability to implement this 
recommendation?
    Mr. Garcia. Thank you, Mr. Chairman. Yes, absolutely. 
Again, you tie it back to the 9/11 Commission report. I think 
you also look at the staff report on terrorist travel, the 
recommendations in there, incredibly important work, the 
conclusion that terrorist travel is at least as important an 
area or vulnerability as terrorist financing. This center 
certainly moves us forward in addressing those vulnerabilities. 
ICE will play a role, as we will CBP and CIS, in working with 
that center. For example, as we discussed, people who are 
screened who are turned back we now can follow through with 
associates present in the country by looking at our systems and 
our data.
    We can use our forensic document lab to examine their 
travel documents and provide bulletins and intelligence 
analysis to the front-line folks by analyzing that travel 
documentation that terrorists or other national security 
threats use to try to enter the country.
    So certainly centralization of the screening function, and 
as importantly I think what will flow from that within the 
Department and within the agencies.
    Senator Cochran. Mr. Aguirre, does this affect your agency 
and how are you cooperating in this effort if so?
    Mr. Aguirre. Mr. Chairman, it does affect our agency 
because, of course, we are all in the immigration business to 
one extent or another. Even though we are not on the 
enforcement side, we are involved in the biometric of, 
capturing biometrics of millions of applicants year in and year 
out, and those biometrics of course are oftentimes being used 
for law enforcement purposes where necessary.
    I actually view the issue from a service standpoint, in 
contrast to the enforcement standpoint. Any time you can have 
consistency and coordination of the identification process and 
the biometrics and so on, it can be an expedited opportunity 
for those who do not have hits or do not have any reason to 
feel the need of scrutiny.
    So I think it would expedite the processing of the 97, 98 
percent of those individuals that cross in and out. As you 
probably know, USCIS is the organization that generates many of 
the cards that are being used today. For instance, the Green 
Cards are produced by us. We have put in those Green Cards--
permanent residency card--any number of biometric data for our 
colleagues on the enforcement side to be able to work with.

        OFFICE OF SCREENING COORDINATION AND OPERATIONS MISSION

    Senator Cochran. Commissioner Bonner, should the Office of 
Screening Coordination and Operations have actual operational 
authority for various screening programs, as proposed, or 
should it focus on the integration and coordination function 
necessary across so many programs involved in the activity?
    Mr. Bonner. I would say with respect to operations, you are 
talking about the actual gathering of biometric data on 
potential enrollees. You are talking about the actual interview 
that we do and have done with a couple hundred thousand people. 
I think that probably should be an operational function left 
with the agency that is ultimately responsible for and going to 
be held accountable for whatever benefit is being given.
    If you took just the border issue in terms of our screening 
at our ports of entry, international airports, land border, 
ultimately CBP is operating these programs right now--the NEXUS 
program, the SENTRI program. It may well make sense to leave 
that operation at the agency level, in the agency that actually 
is responsible.
    Now, having said that, let me say we have a new Secretary 
of Homeland Security, Mike Chertoff. By the way, I think 
Secretary Chertoff is somebody who, based upon my past 
experience, is going to be an extraordinary Secretary. He 
ultimately makes the decision, not me, as to how you make this 
distinction between what operational functions should remain at 
the agency level and what, if any, systems functions should be 
performed by the Screening Coordination Office.
    I do not think that has been decided. Those are my views 
subject to, of course, further guidance from Secretary 
Chertoff.
    Senator Cochran. Director Aguirre, what is your take on 
that? Just from an opposite point of view, should the 
Citizenship and Immigration Services programs, screening 
programs, be moved to the Office of Screening Coordination and 
Operations?
    Mr. Aguirre. Mr. Chairman, I am not sure that in the vacuum 
of this hearing I can give you an accurate answer. I think the 
issue of operations and the issue of ``who is responsible for 
what'' needs to be weighed in the context of is it working 
well/is it not working well/and how can it work better. So 
within Homeland Security I think we have a number of components 
that can always stand improvement, and to determine here and 
now what is better or worse, I would be ad libbing.

         INTELLIGENCE REFORM ACT/BORDER PATROL STAFF INCREASES

    Senator Cochran. Mr. Bonner, this request does not include 
resources to fulfill the new Intelligence Reform and Terrorism 
Prevention Act authorizations. Were the new authorizations 
considered or was the bill enacted into law too late to be 
considered when the fiscal year 2006 budget process was 
completed inside the administration?
    Mr. Bonner. That is a good question. I need to probe my 
memory on it in terms of the time line. Obviously, as you know, 
the process is that we did make a request that goes through the 
Department process, and ultimately ends up getting a lot of 
scrubbing and review. I actually participated in the 
Departmental Resources Review Board. I am not on that Board, 
but I was allowed to be present and to present the CBP budget 
request.
    I need to get back to you. I do not have the time line 
clearly in mind, but I do not remember as I was presenting the 
CBP budget to the Department that the intelligence bill I do 
not believe had passed with that authorization level. In fact, 
I am just reminded it was not signed until December 17, 2004. 
So it may have been one of those things where the budget was 
being put together before we even knew what the Congressional 
intent was in the intelligence bill.
    That said, by the way, let me say that--and I was 
addressing this a little bit with Senator Leahy--we have in the 
last 10 years or so, literally tripled the size of the Border 
Patrol, from about 4,000 Border Patrol Agents in the mid-90's 
to now, and with the President's request it will be just about 
11,000 Border Patrol Agents.
    There is a limit, by the way, in thinking of bringing new 
agent resources on board, there is a limit to how much a law 
enforcement organization like the Border Patrol can absorb. 
There are limits to how many agents the Border Control can 
recruit, hire, and train in a single year, and still maintain 
its cohesiveness as a law enforcement organization.
    But that is going beyond your question, Senator. I think 
the answer is I do not believe that the 2000 number was out 
there as the budget request was going forward.

                 IMPLEMENTATION OF THE VISA REFORM ACT

    Senator Cochran. Mr. Aguirre, the Visa Reform Act was 
passed as part of the fiscal year 2005 Consolidated 
Appropriations Act. That act tightens controls on the L1 visa 
and expands the cap on the H1B visas. What steps have been 
taken to begin implementation of that act?
    Mr. Aguirre. Well, Mr. Chairman, on the L1B visas there is 
a provision for additional resources, human resources, to be 
ensured that we can prevent fraudulent applications on the L1B. 
I think you are clearly aware that fraud is a major issue for 
Immigration Services, and L1B visas in particular are ones that 
we have felt, and I think the Congress has felt as well, that 
it is vulnerable to fraud. Therefore we are putting additional 
human resources and applying our fraud detection and national 
security unit to make sure that the applications are properly 
processed, and expedited in the normal process, but that we 
identify if there are any indices of fraud that we can identify 
appropriately.

                    L1 VISA INTER-AGENCY TASK FORCE

    Now, on the H1B applications, as you know, there is a 
provision for an additional 20,000 applications, or the cap is 
raised by 20,000. We are in the process of implementing that 
number and within the next few days, if not weeks, we will have 
an improved process to take advantage of that.
    Senator Cochran. Has the L1 Visa Inter-Agency Task Force 
been set up?
    Mr. Aguirre. Senator, I am not aware of that, no, sir.

                UNFAIR TRADE PRACTICES--CATFISH IMPORTS

    Senator Cochran. Mr. Bonner, this committee is interested 
in the progress to protect American industries from unfair 
competition. You mentioned the catfish and grouper issue a 
while ago. Of importance of course in our State and in the 
South is the catfish industry and the enforcement of 
antidumping orders in connection with Vietnamese tra and basa. 
What are ICE and CBP doing now to enforce this antidumping 
order?
    Mr. Bonner. Well, I can tell you, Senator, that going back 
to October of last year we began a special enforcement effort 
to essentially identify the misdescription, mislabeling of 
catfish, imported catfish that would be subject to antidumping 
duties. We do have a laboratory science and services branch 
where we were taking samples literally of imports that were 
coming into the port of L.A., Long Beach, Miami, and the Port 
of New York, and determining whether in fact they were what 
they were represented to be. We found that there was 
significant misdescription of a product that was being shipped 
from Vietnam.
    We have taken three important actions. One, based upon that 
identification at the port levels, we have raised the 
continuous duty bonds. We are requiring higher single entry 
duty bonds with respect to product that we believe in fact was 
subject to the countervailing duties, that is to say was in 
fact catfish. We have required payment of additional duties. We 
are actively pursuing what are called section 1592 penalty 
actions against those importers who imported mislabeled, I 
might say falsely and potentially fraudulently mislabeled 
product. We are working with ICE, as I indicated to Senator 
Byrd, to attempt to get further investigation through the ICE 
special agents, and potentially we are hopeful to get criminal 
prosecutions in at least some of these cases in conjunction 
with the Department of Justice and the relevant U.S. attorney's 
offices.
    Clearly, we have taken some steps. We are moving out on 
this issue because there is clearly some false labeling that is 
taking place here to essentially circumvent and fraudulently 
evade the antidumping duties.
    Senator Cochran. Mr. Garcia, you have some responsibilities 
in this area as well, do you not?
    Mr. Garcia. Yes, I do, Mr. Chairman. ICE, as Commissioner 
Bonner indicated, is responsible for investigations in this 
area. We are committed to doing that. I know this crime has a 
very real impact on industries in this country. I have spoken 
with a number of members of Congress about those impacts in 
their particular districts and particular industries.
    I have seen a number of significant cases, and again 
Commissioner Bonner touched on them, that have come across my 
desk. I believe that we will be moving forward, again with the 
relevant U.S. attorney's office, to seek to bring criminal 
charges in a number of cases. We are using our overseas assets 
very aggressively to root out some of the fraud that has been 
going on in this area.
    So we have made progress and we are committed to continuing 
those enforcement efforts.

                   BORDER PATROL AIRCRAFT REPLACEMENT

    Senator Cochran. Mr. Bonner, the budget request includes 
some money, $20 million, to begin replacing Border Patrol 
helicopters. The plan calls for the full replacement of the air 
fleet to be completed in 2010. Is the request that is included 
in the budget sufficient to get you started in this direction? 
Would additional resources allow you to speed up the 
replacement of the fleet?
    Mr. Bonner. I am happy to get started on the 
recapitalization of the Border Patrol air assets. As I think 
you know, Mr. Chairman, out of the 110 or so air platforms that 
the Border Patrol has, roughly--this is a rough estimate as I 
do not have the exact number, about 40 to 50 of those are 
Vietnam vintage aircraft--the OH-6's, the small bubble 
surveillance helicopters, as well as about maybe 10 or 12 
Vietnam vintage Hueys.
    It is a good start. As we move forward with the integration 
of the Air and Marine Office in a better configuration with the 
Border Patrol air assets, we are going to find that there are 
some benefits there in terms of how we look at the air 
resources we need.
    But nonetheless, there is a significant amount of 
recapitalization that is going to need to be done and this is a 
start on it. Yes, Mr. Chairman, if there were more funding it 
would help us get there faster.

                INTEGRATION OF CBP AIR AND MARINE ASSETS

    Senator Cochran. The integration of the air and marine 
resources has begun, as you point out. What progress is being 
made toward integrating the units with the Border Patrol?
    Mr. Bonner. There is some good progress. First of all, of 
course, the first phase of it was essentially the integration 
or the transfer. In some ways I see it as a transfer back to 
U.S. Customs, but anyway it was the transfer in November of 
last year of the Air and Marine Operations (AMO) office to CBP. 
That was phase one. That has been completed.
    We are now into phase two. In phase two, I am using the 
Transition Management Office process that we used very 
successfully to unify and integrate CBP. It is a process that 
essentially looks at the ways that we can now further integrate 
essentially the air assets and also the marine assets that are 
now all within CBP.
    By the way, there have already been some very important 
benefits from this, from the transfer of AMO to CBP in terms of 
better operational coordination between the Border Patrol and 
AMO and the like. But phase two will do this. It will better 
integrate one procurement, for not just the Border Patrol and 
not just for AMO, but for both. It will better integrate one 
maintenance system for all aviation air assets, one training 
system for all of our pilots, whether they are from the Border 
Patrol or whether they were AMO pilots. Ultimately, as part of 
this process, we are going to determine ways to better 
operationally integrate the efforts of both of these air and 
marine groups and assets.
    I have had several briefings on this already. I believe 
that we will be able to make some key decisions along the lines 
I have described certainly in the next couple of months or so, 
so that we are continuing to move forward with the best optimal 
organization, if you will, of the sum total of the air and 
marine assets that are now within CBP.
    Senator Cochran. I appreciate very much the cooperation of 
each of you and your agencies with our committee and the 
requests that we submit for information from time to time. 
Particularly, I appreciate your taking time to come here today 
and participate in this hearing, which is very important for us 
to have to get a full understanding of how you are allocating 
the resources under the budget request and what the priorities 
are.

                     ADDITIONAL COMMITTEE QUESTIONS

    We want to help you succeed in your activities. So we thank 
you very much for your cooperation with our subcommittee. 
Senators may submit questions to you in writing and we ask you 
to respond to those within a reasonable time for our committee 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                   continued funding shortfalls--ice
    Question. In September of 2004, this Committee approved a request 
to transfer and reprogram $152 million in order to allow Immigration 
and Customs Enforcement (ICE) ``to effectively manage its financial 
position through year end''. In other words, the request was to move 
$152 million to ensure that ICE did not have a shortfall.
    This Committee worked with the Department to permanently move $193 
million in base resources from Customs and Border Protection to ICE in 
the fiscal year 2005 Appropriations Act. Admiral Loy recently testified 
to the House Appropriations Committee that he expects there to be a 
reprogramming request submitted soon to provide anywhere from an 
additional $250 to $300 million to ICE in order to finish out fiscal 
year 2005.
    The cycle of stopgap solutions needs to end. Too much time seems to 
have been spent trying to figure out how this situation came about--
what is termed ``mapping''--rather than trying to make sure this 
problem is resolved so that we can move forward to ensure that an 
agency vital to combating terrorism is solvent.
    When will this Committee receive the transfer/reprogramming 
proposal to address the fiscal year 2005 shortfall?
    Answer. The notification of the proposed reprogramming was 
transmitted to the Appropriations Committees on March 12, 2005, in a 
letter dated March 11, 2005.
    Question. Have Congressional initiatives funded in the fiscal year 
2005 Appropriations Act been deferred until this problem is resolved?
    Answer. In the proposed reprogramming, ICE is proposing to defer 
$85.216 million of the $193.916 million in enhancements, i.e., 
Congressional initiatives, funded in the fiscal year 2005 
Appropriations Act. Item 2, on page 5 of the Report of Proposed 
Reprogramming Action discusses, in detail, the enhancements which are 
being reduced from their original appropriated amounts. The 
enhancements that have been reduced are shown below:
Fugitive Operations
    The enhancement is reduced to $9 million from the appropriated $50 
million level. This will allow funding of 42 positions instead of the 
236 positions originally planned. The reduction will mean that fewer 
Fugitive Operations teams can be deployed as originally planned.
Institutional Removal Program
    The enhancement is reduced to $4 million from the appropriated $30 
million level. This will allow funding of 37 positions instead of the 
279 positions originally planned. Higher cost Special Agents will 
continue to perform some institutional removal duties, instead of 
replacing all of them with Immigration Enforcement Agents.
Compliance Enforcement Units
    The enhancement is reduced to $11 million from the appropriated 
level of $16 million. This will permit funding of 89 positions instead 
of the 130 positions originally planned.
Alternatives to Detention
    The enhancement is reduced to $2 million from the appropriated 
level of $11 million. This will permit funding of 11 positions instead 
of the 60 positions originally planned. Some capacity increases will 
occur at each of the current eight Intensive Supervision sites, though 
not to the anticipated levels.
Guantanamo Migrant Operations Center
    The enhancement is reduced to $2 million from the appropriated 
level of $6.2 million. The level should be sufficient to support the 
Center's operations. (Note: remaining, fully-funded, enhancements 
include $26.5 million for Detention Bed Space; $25 million for Benefit 
Fraud; $14 million for the Visa Security Unit and the Office of 
International Affairs; $6 million for the Immigration Court Backlog; $5 
million for Worksite Enforcement; and, $4.2 million for the Cyber Crime 
Center.)
    Question. What assurance do we have that the fiscal year 2006 
request for ICE will solve this problem permanently?
    Answer. The full funding level requested in the President's Budget, 
internally realigned for the impact of the fiscal year 2005 
reprogramming request, will allow ICE to carry out its mission during 
fiscal year 2006. We do not foresee the need for further reprogramming 
or funding transfers among bureaus.
    Question. ICE has now lived under a hiring freeze for close to a 
calendar year. What impact is this having on the organization's ability 
to carry out its mission?
    Answer. ICE has had to implement several measures to ensure it 
operates within existing resources. It has had to prioritize funding 
requirements. In all cases, ICE has worked to ensure that mission 
critical requirements have been funded with the intent of minimizing 
any adverse impact on its national security related mission.
    Question. There are significant resources requested for fiscal year 
2006 to increase the base funding available to ICE: $105 million for 
the Office of Investigations, $24 million for the Office of Detention 
and Removals, and a significant portion of the $90 million for Custody 
Management. What method was used to come up with these estimates?
    Answer. Estimates were derived by looking at the entire operation 
and determining that the resources of these offices/programs needed 
increases in order to attain key operational goals.
    Question. Will the fiscal year 2006 request provide ICE with the 
funding necessary to enable it to lift the hiring freeze on October 1, 
2005?
    Answer. ICE continues to work closely with DHS, BTS, and OMB to 
identify solutions to address its financial issues. One of ICE's 
priorities is to implement financial solutions that will allow the 
lifting of the hiring freeze. This work is ongoing and as a result, it 
is too early to state whether the hiring freeze will be lifted on 
October 1, 2005. An alternative may be to implement solutions that 
would allow the freeze to be lifted later in the fiscal year.
    Question. According to the just delivered ``ICE Financial 
Management Overhaul'' report, ``The ICE Assistant Secretary brought in 
a team from other components of DHS on a 90-day detail to help identify 
solutions to ICE's financial issues. The team will make recommendations 
to the Assistant Secretary by later this Spring.'' Its charter 
includes: development of short-term recommendations to address fiscal 
year 2005 funding issues; an action plan with key recommendations to 
place ICE into a stable funding position for fiscal year 2006 and 
beyond; and recommendations for policies and procedures that will 
result in transparent budget and financial planning and execution. What 
potential is there that these recommendations could cause significant 
revisions to the President's fiscal year 2006 budget request?
    Answer. The President's Budget includes the necessary funding to 
ensure ICE can accomplish its mission to detect vulnerabilities and 
prevent violations that threaten national security. As mentioned in the 
``ICE Financial Management Overhaul'' report, the team is developing 
recommendations to improve ICE's financial position in 2006.
    As noted in your question, the final report is due to the Assistant 
Secretary later this spring. The team's recommendations will be shared 
with the ICE's new CFO and Budget Director. ICE appreciates your 
interest in this effort and looks forward to working with you and your 
staff where necessary to implement any recommendations.
    Question. How is it that this organization is almost 2 years old 
and is just now looking to develop sound financial planning policies 
and procedures?
    Answer. The creation of the Department of Homeland Security 
represented a reorganization unprecedented in the Federal Government. 
2005 represents the first year that ICE has focused on issues other 
than transition and reconciliation. It is an opportune time to further 
refine financial policies and procedures previously implemented and to 
continue developing sound policies and processes as necessary.
    Question. ICE has two outsourcing competitions on going--labor 
management and intelligence support. Is this an area where ICE could 
see significant cost savings?
    Answer. Fiscal year 2005 would have been U.S. Immigration and 
Custom Enforcement's (ICE's) initial full year of participation in 
competitive sourcing since its inception. ICE intended to initiate its 
original studies on a relatively small scale in order to properly 
establish its competitive sourcing infrastructure. Significant cost 
savings were not expected to be realized based on the fiscal year 2005 
studies. More significant savings would be anticipated based on broader 
studies under consideration for fiscal year 2006. ICE expects to be an 
active participant in the initiative in fiscal year 2006.
    Question. Please provide a chart with the on-board staffing level 
for ICE, by position type, for September 30, 2004, and fiscal year 2005 
through January 31, 2005, both excluding Air and Marine Operations.
    Answer. Attached are the ICE on-board staffing charts for the end 
of fiscal year 2004 and fiscal year 2005, through the pay period ending 
February 5, 2005. Federal Protective Service positions are included, 
but Federal Air Marshal Service positions are not included.
    Highlighted changes from 2004 to 2005 are:
  --An increase of 185 positions transferred from Customs and Border 
        Protection to ICE for International Affairs
  --The movement of 112 Organized Crime Drug Enforcement Task Force 
        positions from reimbursable to direct
  --The movement of 138 positions from reimbursable to direct 


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question. Please provide updated fee projection charts for each fee 
account for fiscal year 2006 as compared to fiscal year 2005, with the 
chart for the Student Exchange Visitor Information System broken out by 
month.
    Answer. Attached are fee projection charts for ICE by fee account 
for fiscal year 2006 versus fiscal year 2005.

------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
              Fee accounts                     2005            2006
------------------------------------------------------------------------
Immigration User Fee....................        $100,000        $101,621
Breached Bond Detention Fund............         114,000         115,260
Student and Exchange Visitor Program:
    I-901 Revenues:
        October.........................       1,459,215       2,039,431
        November........................       2,636,660       2,166,852
        December........................       3,451,620       3,135,481
        January.........................       2,211,365       2,092,676
        February........................       1,970,220       1,485,072
        March...........................       2,661,321       2,661,321
        April...........................       4,452,487       4,452,487
        May.............................       6,211,727       6,311,727
        June............................       7,225,460       7,509,932
        July............................       7,149,570       7,441,213
        August..........................       4,515,573       4,524,954
        September.......................       2,072,375       2,072,375
                                         -------------------------------
          Total.........................      46,017,593      45,893,520
                                         ===============================
    I-17 Revenues:
        October.........................          30,659       1,050,960
        November........................          27,960         403,680
        December........................          38,416         187,920
        January.........................          28,540         231,420
        February........................          33,330         320,740
        March...........................          29,000         211,120
        April...........................          29,000         372,940
        May.............................          29,000         309,720
        June............................          29,000         161,240
        July............................          29,000         132,820
        August..........................          29,000          53,360
        September.......................          29,000          62,640
                                         -------------------------------
          Total.........................         361,905       3,498,560
------------------------------------------------------------------------

    Question. Please provide a chart with the fiscal year 2006 
annualization projections broken out by fiscal year 2005 initiative.
    Answer. Please see table below.

----------------------------------------------------------------------------------------------------------------
                          Enhancement                             Annualization   One-time costs        Net
----------------------------------------------------------------------------------------------------------------
Compliance.....................................................         $13,743         ($9,710)          $4,033
IRP............................................................          28,478         (11,420)          17,058
Fugitive Ops...................................................          25,799         (11,543)          14,256
Alternatives...................................................           4,925          (2,856)           2,069
Bed Space......................................................           2,869          (1,326)           1,543
Backlog........................................................          13,256          (2,222)          11,034
Worksite.......................................................           3,044          (1,648)           1,396
                                                                ------------------------------------------------
      Total....................................................          92,114         (40,725)          51,389
----------------------------------------------------------------------------------------------------------------

    Question. Please provide detailed comprehensive justifications for 
each program increase requested in the fiscal year 2006 President's 
budget.
    Answer.
Homeland Security Data Network (HSDN)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                     Program                        2004 budget     2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
ICE's portion of HSDN \1\.......................  ..............  ..............          11,300          11,300
----------------------------------------------------------------------------------------------------------------
\1\ Note: There is no base budget for HSDN. However, the Department's Working Capital Fund assessment for fiscal
  year 2005 is currently estimated to be $8.695 million. ICE contributed $3.2 million to the WCF in fiscal year
  2004 for HSDN.

    The fiscal year 2006 enhancement for HSDN totals $11.3 million and 
1 FTE.
    HSDN is a multi-agency, Department-wide project, funded from 
contributions from participating agencies. For fiscal year 2005, ICE's 
estimated contribution to HSDN is $8.7 million. In fiscal year 2004, 
ICE contributed $3.2 million to HSDN. Although ICE contributes funding 
for HSDN, the development, deployment, and management of the network is 
the direct responsibility of the HSDN Program Office which also manages 
all the funding for this ICE-sponsored initiative.
    The HSDN is a secure communication network for transmission of 
information classified up to SECRET. It has been designed to replace 
several disparate legacy systems. HSDN will provide connectivity to the 
Department of Defense (DOD) Secret Internet Protocol Router Network 
(SIPRNet) to all users. DOD has indicated that non-DOD agencies should 
not use the SIPRNet as their primary classified communications medium. 
HSDN will provide access to SIPRNet via controlled gateways, satisfying 
this DOD concern. There are more than 400 DHS sites requiring HSDN 
deployment. Funding of this initiative will provide access to as many 
as 700 users in fiscal year 2006.
    Funding for this request would support a HSDN coordinator to serve 
as a liaison between ICE program offices and the DHS's Science and 
Technology (S&T) Directorate, the HSDN program manager. The remaining 
resources would be provided to S&T for costs associated with the HSDN 
development process, including a survey of ICE locations, installation 
of equipment, set-up of terminals, and activation of service to 
terminals.
    HSDN implementation was designed to follow a phased schedule. The 
first phase--which included the design and approval of the overall 
network design--has been completed. The second phase proposes the 
installation of a limited number of terminals in 72 locations. Among 
these, 13 are ICE locations which include facilities within the Office 
of Intelligence and Office of Investigations. Equipment installation at 
these ICE locations is expected to continue through fiscal year 2005.
    The remaining HSDN implementation phases will encompass the 
installation of all remaining locations including State and local 
offices. ICE has identified an additional eighty-eight locations which 
will have the HSDN installed in these remaining phases. These include 
the remaining Special Agent in Charge Offices, most Resident Agent in 
Charge Offices, Intelligence Collection and Analysis Teams, and 
remaining Office of Intelligence locations.
    Performance Impact.--Funding of this initiative will provide access 
to HSDN as follows:

----------------------------------------------------------------------------------------------------------------
                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year
      Performance increase         2006 request    2007 request    2008 request    2009 request    2010 request
                                       level           level           level           level           level
----------------------------------------------------------------------------------------------------------------
Total number of HSDN users......             700           1,000           1,000           1,000           1,000
----------------------------------------------------------------------------------------------------------------

Visa Security Unit

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year     Fiscal year
             Program                2004 budget     2005 budget      2006 base      2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
Visa Security Unit..............  ..............          10,000          10,000          15,000           5,000
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2006 enhancement for VSU totals $5 million and 5 
FTE.
    The ICE Visa Security Unit (VSU) conducts in-depth review of visa 
applicants wishing to enter the United States, with the goal of denying 
visas to terrorists, criminals, and persons of special interest. Visa 
Security Program officers are assigned to posts to perform this law 
enforcement review of immigrant and nonimmigrant visa applications 
prior to visa issuance by consular officers of the Department of State.
    For fiscal year 2005, the VSU's first year of funding, $10 million 
was provided to: (1) establish permanent operations in Saudi Arabia; 
(2) expand visa security operations to five additional high-risk 
locations (locations are not named here due to law enforcement 
sensitivity); and (3) hire 22 permanent positions (five at Headquarters 
and 17 at the overseas posts).
    The enhancement requested for fiscal year 2006 would support nine 
additional positions ($4.827 million) and provide $173,000 for 
Investigations Training. These resources would advance incremental 
progress toward program expansion.
    A $5 million enhancement to the base would:
  --fund new overseas visa security post (to be selected based on 
        current risk), staffed by three permanent Visa Security 
        Officers, to expand the scope of visa security operations. 
        Overseas operations involve: conducting in-depth scrutiny of 
        high risk visa applicants; providing advice and training to 
        consular officers to enhance their ability to detect terrorist, 
        criminal, and otherwise fraudulent visa applicants through the 
        consular adjudication process; and initiating investigations 
        under DHS authority;
  --hire two additional officers at Headquarters to provide operational 
        and administrative support to the overseas operations;
  --hire four permanent officer positions to replace temporary duty 
        personnel currently investigating Security Advisory Opinions 
        (SAOs) and ``Section 306'' cases (visa applicants from a State 
        Sponsor of Terrorism);
  --expand funding for Consular Training programs, including 
        Headquarters consular training program development, Rapid 
        Response Team capability, and consular evaluation program 
        development.
    Performance Impact.--The Homeland Security Act authorizes the 
Secretary of Homeland Security to assign employees of the Department to 
diplomatic and consular posts at which visas are issued, unless the 
Secretary determines that such an assignment to a particular post would 
not promote homeland security. The Secretary must submit an annual 
report to Congress that describes the basis for each determination that 
the assignment of an employee of the Department at a particular post 
would not promote homeland security.
    Conducting the activities of the VSU in Saudi Arabia and expanding 
to the locations designated as highest risk by the Secretary are 
expected to generate an increase in homeland security outputs such as: 
recommendations to refuse individual visa applications, generation of 
investigative leads, additional lookouts and watch list entries, 
identification of visa fraud schemes (including fraudulent documents, 
businesses, organizations, and associates), delivery of formal and 
informal training to consular officers, and other enforcement actions. 
The outcomes associated with these outputs may include a decrease in 
the vulnerabilities in the visa issuance process, increased integrity 
of the immigration system, and a greater awareness of terrorist 
suspects and activity patterns.

----------------------------------------------------------------------------------------------------------------
                                                 Fiscal year  Fiscal year  Fiscal year  Fiscal year  Fiscal year
                                    Fiscal year      2006         2007         2008         2009         2010
         Performance level           2005  est.    request      request      request      request      request
                                       level        level        level        level        level        level
----------------------------------------------------------------------------------------------------------------
Percentage security review of all           100          100          100          100          100          100
 visa applications in Saudi Arabia
Percentage of high risk visa                 NA
 applicants scrutinized at the non-
 Saudi posts......................
----------------------------------------------------------------------------------------------------------------

Legal Proceedings

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
             Program                Fiscal year     Fiscal year     Fiscal year     Fiscal year        2006
                                    2004 budget     2005 budget      2006 base      2006 budget    enhancements
----------------------------------------------------------------------------------------------------------------
Principal Legal Advisor.........          86,423         113,105         119,514         123,014           3,500
----------------------------------------------------------------------------------------------------------------
Note: Funding from the Salaries and Expense account only. Does not include reimbursable funding.

    The fiscal year 2006 enhancement for Legal Proceedings totals $3.5 
million and 24 FTE.
    Of the fiscal year 2005 enhancements, 16 attorney and 12 support 
positions are scheduled for Headquarters while 38 attorneys and 8 
support positions are targeted for the Field. The Headquarters 
positions will be distributed among existing Headquarters teams dealing 
with the following areas:
  --Commercial and Administrative Law Division (primarily working on 
        Merit Systems Protection Board appeals, and defending Equal 
        Employment Opportunity claims generated by ICE clients (Federal 
        Protective Service (FPS) and Federal Air Marshals (FAMS)), and 
        handling bid protests primarily generated by FPS contracts;
  --the National Security Law Division overseeing the litigation of 
        national security cases, providing legal advice to the Office 
        of Intelligence, and performing liaison activities with other 
        law enforcement agencies;
  --the Customs Enforcement Law Division, dealing with policy issues, 
        and day to day monitoring of undercover operations, and ongoing 
        criminal investigations; the Enforcement Law Division, dealing 
        with a wide range of issues generated by the Office of 
        Detention and Removal, the Office of Investigations, FAMS, and 
        FPS, including statutory authority, search and seizure, use of 
        force, and parole and custody issues, and the Human Rights Law 
        Division, coordinating the litigation and advices the field on 
        human rights abuser and persecutor cases.
    The fiscal year 2005 field positions will be devoted to the 
following field areas:
  --increased time and efforts spent on national security, predator and 
        persecutor cases at the field level;
  --increased training of staff on national security and persecutor 
        issues;
  --increased review of Notices to Appear prior to issuance or the 
        hearing date;
  --more timely movement of ``change of venue cases'' between district 
        offices to cut down on adjournments because the agency 
        representative does not have the file;
  --increased amount of time spent on preparing a case for hearing, 
        with a particular focus on review of alien evidentiary 
        submissions and investigation thereof so as to minimize the 
        number of adjournments required for document checks (by the 
        Forensic Document Laboratory, the Department of States, and 
        ICE/CIS offices abroad);
  --increased emphasis on benefit and asylum fraud, including 
        development of criminal prosecutions, so as to discourage the 
        filing of fraudulent or frivolous applications;
  --increased emphasis on responding to motions to reopen and filing 
        responses to alien briefs before the Board of Immigration 
        Appeals so as to diminish the number of non-meritorious cases 
        that are reopened, and to speed up appeal processing at the 
        Board of Immigration Appeals level.
    These increased resources will also be used to assist the Office of 
Immigration Litigation (OIL) and the Offices of the United States 
Attorney (USAO) litigating Petitions of Review of removal orders and 
habeas challenges to custody and removal.
    Past, current, and planned deployment of resources (Attorneys/
Support):

----------------------------------------------------------------------------------------------------------------
                                                                                  Planned fiscal  Planned fiscal
                                                                      Current        year 2005       year 2006
----------------------------------------------------------------------------------------------------------------
Arlington.......................................................            11/4            13/4            14/4
Atlanta.........................................................             8/3             9/3            10/3
Baltimore.......................................................            10/4            11/4            12/4
Boston (Includes Hartford Office)...............................            19/6            21/6            23/7
Buffalo.........................................................             8/3             8/3
Chicago (Includes Kansas City Office)...........................            17/7            19/7
Dallas..........................................................            10/4            10/4
Denver (Includes Helena and Salt Lake City Offices).............            11/5            12/6            12/7
Detroit (Includes Cleveland, Cincinnati Offices)................            12/4            14/5            16/6
El Paso.........................................................            10/4            11/4            12/4
Honolulu........................................................             2/1             2/1
Houston.........................................................            18/7            19/7            20/7
Los Angeles (Includes Las Vegas Office).........................           75/26           83/28           89/32
Miami...........................................................           52/18           56/19           60/22
Newark..........................................................            21/7            23/7            24/8
New Orleans (Includes Memphis Office)...........................            14/5            16/5            17/5
New York........................................................           75/26           77/27           80/29
Orlando.........................................................            11/4            12/4
Philadelphia....................................................            15/5            16/6            17/7
Phoenix.........................................................            22/8            25/9            27/9
St. Paul (Includes Omaha Office)................................             8/3            10/3            11/3
San Antonio (Includes Harlingen Office).........................            22/8            23/8            23/9
San Diego.......................................................            25/9            25/9
San Francisco...................................................           41/14           43/14           45/15
San Juan........................................................             3/2             3/2
Seattle (Includes Portland and Anchorage Offices)...............            11/4            11/4
----------------------------------------------------------------------------------------------------------------

    EOIR's statistical data demonstrates that the largest pending case 
load exists in descending order in Los Angeles, Miami, New York, San 
Antonio (including Harlingen), San Francisco, Chicago, Boston 
(including Hartford), Orlando, Arlington, and Philadelphia Many cases 
from Harlingen are ultimately transferred through a change of venue 
order to more urban locations.
    The specific results expected by the investment of resources and/or 
the impact of not providing the investment:
    At present, six different entities (CIS--Asylum Offices and 
Examinations; CBP--Inspections and Border Patrol; ICE--Investigations 
and Detention and Removal) create the Notices to Appear (charging 
documents) that form the basis for litigation before the immigration 
court. With these expanded resources, ICE legal staff will be able to 
review more ICE generated charging documents to ensure better quality. 
It can also take more proactive steps to review charging documents 
created by other offices prior to the first master calendar on these 
cases, amending those charges that are legally deficient and filing 
such amended charges with the court in advance of the hearing date. 
This will lead to a reduction in adjournments. In addition, it will 
also permit the ICE litigation staff to terminate any cases that may 
have been improvidently brought.
    Another source of adjournments (and hence backlog) stems from those 
cases where venue of the hearing has been transferred from one district 
to another. Frequently, because of a lack of support staffs, the needed 
files are not forwarded to the gaining office on a timely basis. With 
these added support resources, more focus can be made on those files, 
which are the subject of a change in venue, with either the losing 
office sending the file more expeditiously or the gaining office making 
more determined efforts to obtain the needed file in advance of the 
scheduled hearing date. These same support personnel can also more 
readily assist Assistant Chief Counsel in administrative tasks, which 
consume a great deal of attorney time best spent on moving a case 
forward.
    The nature of immigration court litigation case has grown 
exceedingly complex. In the larger city offices, the vast majority of 
cases before the court are asylum claims, which are very time intensive 
to litigate. Unfortunately, asylum claims are frequently fraudulent and 
can be used by unscrupulous individuals as a way to gain status in the 
country. As part of the application process, aliens normally provide a 
large number of documents in support of their claim, many of which may 
have been manufactured. To attempt to ensure the process is not abused, 
the Assistant Chief Counsel must conduct intensive alien file and 
document review. The Assistant Chief Counsel attempts to make full use 
of the Forensics Document Laboratory and other avenues of investigation 
to determine if the claim/documentation is bona fide. The Assistant 
Chief Counsel must also try to track down related alien files to 
determine if the alien has applied for a benefit under a different 
alien number/different name, locate alien files of relatives to 
determine consistency of the claim, and run extensive record checks. 
Assistant Chief Counsel also needs to contact victims in cases that are 
brought under the ICE Predator Initiative to assure that they are 
available to testify regarding the life long adverse impact these 
actions caused to them to assure alien sexual violators are removed and 
their relief applications are denied. With these additional attorney 
resources, Assistant Chief Counsel will be in a better position to do 
more complete and timely case review, and to request document checks, 
make record checks, and review related files in a timely manner. This 
in turn not only makes a better record on which the immigration judge 
can base his/her decision; it speeds up resolution of the case because 
all the crucial steps in the process are undertaken sooner.
    Agency lawyers also work closely with the Office of the United 
States Attorneys, and Office of Immigration Litigation litigators by 
preparing litigation reports, reviewing records where remands are 
proposed, preparing recommendations for further review where judicial 
decisions are adverse to DHS interests and by providing guidance, 
advice and assistance on complex immigration law issues.
    In a related vein, in larger city offices, ICE tries to have joint 
attorney-investigator focus on travel agencies and corrupt attorneys 
who actively encourage and assist in the filing of fraudulent or 
frivolous asylum cases. These cases clog the system and lead to 
additional court backlog. Currently, these joint attorney-investigator 
efforts have had to be more ad hoc and limited in nature. With these 
additional attorney resources, the staff would devote more time and 
effort to identifying the individuals who are the source of such 
claims, and work more closely with the criminal investigators in 
developing criminal prosecutions for the United States Attorneys 
Offices.
Temporary Worker Worksite Enforcement (TWP/WSE)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year
                     Program                        2004 budget     Fiscal year     Fiscal year     Fiscal year
                                                        \1\         2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
TWA.............................................  ..............           5,000          23,000          18,000
----------------------------------------------------------------------------------------------------------------
\1\ No funding was devoted to ``Temporary Worker Worksite Enforcement'' in fiscal year 2004, but approximately
  $18 million was devoted to Worksite Enforcement in fiscal year 2004.

    The fiscal year 2006 enhancement for TWP totals $18 million and 72 
FTE
    As part of the President's proposed temporary worker program to 
match willing foreign workers with willing U.S. employers, enforcement 
of immigration laws to ensure compliance is required. Under the 
President's proposal, the temporary worker program would be open to new 
foreign workers, and to the undocumented men and women currently 
employed in the United States. The program would allow workers who 
currently hold jobs unlawfully to participate legally in America's 
economy, while not encouraging further illegal behavior.
    The spend plan for the $5 million enhancement in fiscal year 2005 
focuses on field training, employer outreach, and reconstituting the 
Worksite Enforcement Program infrastructure within the Office of 
Investigations in Headquarters in the final half of fiscal year 2005. 
Resources requested for fiscal year 2006 will primarily fund the 
deployment of FTEs to States (CA, TX, FL, NY, IL) having the greatest 
population of unauthorized workers.
    The $18 million enhancement (of which $16.216 million is required 
in the Investigations Operations activity and $1.784 million is 
required in the Investigations Training activity) would fund 140 
Special Agent and 3 support positions.
    Performance Impact.--The additional resources will broaden the 
scope of the worksite enforcement program's strategic goals to include 
protecting the jobs and wages of legal workers by identifying and 
removing unauthorized workers. ICE will increase its presence at 
worksites, concentrating on employers in specific industries and 
geographical areas who intentionally violate the law or who have 
historically hired large numbers of unauthorized workers. ICE will also 
coordinate with Citizenship and Immigration Services to improve and 
expand verification services (Basic Pilot Program) to employers 
nationwide pursuant to the Basic Pilot Program Extension and Expansion 
Act of 2003.

----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
              Performance measure                Fiscal year 2006 request level    2007 request    2008 request
                                                                                       level           level
----------------------------------------------------------------------------------------------------------------
Administrative Worksite Case Completions......  Base............................    + 20 percent    + 30 percent
Criminal Employer Case Presentations..........  Base............................    + 20 percent    + 30 percent
----------------------------------------------------------------------------------------------------------------

Organized Crime Drug Enforcement Task Force (OCDETF)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                     Program                        2004 budget     2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
OCDETF..........................................          47,300          33,100          43,678          10,578
----------------------------------------------------------------------------------------------------------------
Note: In fiscal year 2004 and fiscal year 2005, OCDETF funding was reimbursable. In fiscal year 2006, funding
  proposed to be directly appropriated to ICE.

    The fiscal year 2006 enhancement for OCDETF totals $43.678 million 
and 346 FTE.
    Currently, funding for ICE OCDETF is provided on a reimbursable 
basis from the Department of Justice (DOJ). Beginning in fiscal year 
2006, funding is being requested via direct appropriations to ICE. 
Funding requested would cover salary costs for 332 Special Agents 
($41.840 million) and 14 Intelligence Research Specialists ($1.838 
million) for a total of $43.678 million.
    The Organized Crime Drug Enforcement Task Force (OCDETF) program is 
a Federal drug enforcement program that focuses attention and resources 
on the disruption and dismantling of major drug trafficking 
organizations. OCDETF provides a framework for Federal, State, and 
local law enforcement agencies to work together to target well-
established and complex organizations that direct, finance, or engage 
in illegal narcotics trafficking and related crimes. Related crimes 
include money laundering and tax violations, public corruption, illegal 
immigration, weapons violations, and violent crimes. The OCDETF program 
has been in existence since 1982 and operates under the guidance and 
oversight of the Attorney General. Utilizing the resources and 
expertise of 11 member Federal agencies, along with support from State 
and local law enforcement partners, OCDETF has contributed to the 
successful prosecution and conviction of more than 44,000 members of 
criminal organizations and resulted in the seizure of cash and property 
assets totaling more than $3.0 billion.
    No new FTEs are being requested. Rather, existing personnel will be 
paid by direct appropriation instead of by reimbursable funding.
    In fiscal year 2004, ICE was reimbursed $47.3 million for costs 
associated with OCDETF. The reimbursable agreement for fiscal year 2005 
provides for up to $33.1 million--a decrease of $14.2 million.
    Performance Impact.--This initiative is intended to restore funding 
that was cut in fiscal year 2005, to ensure a consistent and more 
reliable funding source for ICE OCDETF activities, and to establish an 
appropriated base in lieu of reimbursable funding. This initiative is 
intended to provide funding that supports dedicated resources engaged 
in OCDETF activities and to maintain priority status for the program. 
The impact resulting from the decrease in reimbursable funding in 
fiscal year 2005 has ICE OCDETF requirements competing for funding--
including priority status--within the ICE operational base. As a 
result, there can be no assurance that prior year performance levels 
can be maintained or achieved. Direct appropriated base funding is 
expected to support out-year ICE operations' planning that promotes the 
continued collaboration with other OCDETF participating agencies to 
achieve OCDETF goals and objectives.

$105 Million Base Increase for Investigations Operations

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year
            Program               Fiscal year     Fiscal year     Fiscal year     2006 budget   Fiscal year 2006
                                  2004 budget     2005 budget      2006 base          \1\       enhancements \1\
----------------------------------------------------------------------------------------------------------------
Investigations Operations.....         796,478       1,138,495       1,099,554       1,267,437          167,883
----------------------------------------------------------------------------------------------------------------
\1\ Note: The President's budget proposes enhancements of $167.883 million to the Investigations Operations
  budget activity. Of that amount, $105 million is a base increase, $4.827 million is for the Visa Security
  Unit, $16.216 million is for Temporary Worker Worksite Enforcement, and $41.840 million is for OCDETF
  activities.

    The $105 million base increase will provide resources required to 
fund base requirements for the Office of Investigations, including 
salary costs, vehicle replacement, and other general expenses.
    Performance Impact.--Improved infrastructure on which to support 
continuation of investigative activities, both domestically and 
internationally.

Detention Bed Space

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year
            Program               Fiscal year     fiscal year     Fiscal year     2006 budget   Fiscal year 2006
                                  2004 budget     2005 budget      2006 base          \1\       enhancements \1\
----------------------------------------------------------------------------------------------------------------
DRO-Custody Management \1\....         550,912         697,855         594,169         727,769          108,600
----------------------------------------------------------------------------------------------------------------
\1\ Note: There are three enhancements to the Custody Management program, totaling $90.0 million, $25.0 million,
  and $18.6 million respectively. The $25.0 million for ABC/Interior Repatriation is excluded in this display,
  as it is described separately.

    The fiscal year 2006 enhancement for Detention Bed Space totals 
$108 million and 16 FTE.
    The President's Budget requests an additional $90 million for 
detention bed space and $18.6 million as a base increase for the 
Custody Management program. Approximately $63 million of the $90 
million is intended for the direct cost of providing an additional 
1,920 beds. The balance of the $90 million request is intended to fund 
32 new positions (16 FTE) to provide staff to support to those beds. 
This increase in bed space responds to increased demand for detention 
bed space generated by apprehending agencies (e.g., Border Patrol, 
Inspections, Investigations, etc.). The $18.6 million increase will 
provide resources required to fund base requirements for the Custody 
Management budget activity within the Office of Detention and Removal.
    The fiscal year 2005 appropriation provided an additional $26.5 
million for 1,216 new beds and 28 positions (14 FTE) above fiscal year 
2004 levels.
    Detention capacity and the necessary resources are fundamental 
components to the immigration enforcement mission. For the immigration 
enforcement mission to be successful, detention capacity must be 
considered at an appropriate ratio compared with resources provided for 
investigations and apprehensions. Increased detention capacity will 
improve the ability of ICE to verify alien identity, deter subsequent 
illegal entry, dramatically increase removal rates, prevent criminal 
aliens from returning to communities, and protect national security. 
Criminal aliens comprise more than half of the total detained 
population and we expect their numbers continue to rise due to enhanced 
enforcement efforts like IRP (Institutional Removal Program) and 287(g) 
expansion (local law enforcement authority to enforce immigration 
violations). Criminal aliens comprise a significant portion of our 
mandatory detention population (those individuals who have received 
final orders of removal and whose removal is imminent, those who are 
pending expedited removal activities, and those who are otherwise 
required by law or policy to be detained). In recent months, ICE's 
mandatory population has increased at a gradual, but steady rate due to 
increased enforcement activities (particularly from Expedited Removal 
initiative). As these targeted enforcement efforts continue, further 
growth in our mandatory detention population is likely. ICE continues 
to improve the efficiency of its detention program by consolidating 
populations and improving capacity management. These measures are 
anticipated to reduce costs by eliminating travel from detention 
facilities to proceedings, reducing average time in detention, and 
providing for more consistent and higher quality conditions of 
confinement for the detained population.
    ICE will continue to enforce its robust facility inspection program 
and coordinate with our governmental organizations and non-governmental 
organization partners in pursuit of maintaining acceptable and 
appropriate conditions of confinement for the detained population. We 
are committed to effectively enforcing our immigration laws and 
protecting our Nation's security in a manner that affords the rights 
and proper treatment obligated under our laws to detainees, including 
those claiming asylum.

Fugitive Operations

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
             Program                Fiscal year     Fiscal year     Fiscal year     Fiscal year        2006
                                    2004 budget     2005 budget      2006 base      2006 budget     enhancement
----------------------------------------------------------------------------------------------------------------
DRO-Fugitive Ops................          26,916          44,687          48,121          57,001           8,880
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2006 enhancement for the Fugitive Operations is 
$8.88 million and 0 FTE.
    The President's Budget requests an additional $8.88 million to 
support increased efforts to apprehend fugitive aliens. While estimates 
vary, the alien absconder population is more than 465,000 and that it 
continues to grow at a rate of more than 40,000 absconders per year. 
Experience with the current fugitive operations teams suggests that 
each team yields at least 500 absconder apprehensions/case closures per 
year. This success is very encouraging and expanding these efforts will 
stem the growth of the alien absconder population and begin to reduce 
the overall numbers of alien absconders at large.
    ICE currently employs 16 fugitive operations nation-wide. Cities 
with fugitive operations teams include: Los Angles (2 teams), Boston, 
San Francisco, Miami, Houston, New York City (2 teams), Chicago, Newark 
(2 teams), Detroit, Atlanta, Baltimore, San Diego, and Seattle.
    The fiscal year 2005 reprogramming request reduced the $50 million 
appropriated enhancement to $9 million. For fiscal year 2005, $9 
million will support 42 full time positions (21 FTE) and additional 
funding for bed space and operating costs associated with increased 
apprehension activity.
    This proposed enhancement is aligned to Department of Homeland 
Security Strategic Objective 2.2, Enforce trade and immigration laws.
    All increases in removal rates increase the control DRO has over 
the removal alien population which contributes directly to national 
security.

Institutional Removal Program (Criminal Alien Program)

                                            [In thousands of dollars
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
             Program                Fiscal year     Fiscal year     Fiscal year     Fiscal year        2006
                                    2004 budget     2005 budget      2006 base      2006 budget     enhancement
----------------------------------------------------------------------------------------------------------------
DRO-IRP.........................          17,467          31,512          33,706          39,041           5,335
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2006 Institutional Removal Program (IRP) 
enhancement is $5.355 million and 19 FTE.
    The President's Budget requests an additional $5.355 million to 
expand the IPR program and to continue the transfer of the program from 
the Office of Investigation to the Office of Detention and Removal 
Operations. The fiscal year 2005 amount will complete the transition of 
the State of New York and a sizable portion of the State of California. 
The fiscal year 2006 amount will continue the staffing of California.
    IRP, now referred to as ICE's Criminal Alien Program (CAP), 
identifies aliens who are in criminal incarceration and processing them 
for removal prior to their incarceration release. This is an effective 
approach to preventing criminal recidivism and to ensure removable 
aliens are actually removed once so ordered by an immigration judge.
    Currently, the ICE Office of Investigations administers the IRP 
program with a variety of resources (including job series 1811 criminal 
investigators). The workload for each immigration enforcement agent 
(IEA) is 300 charging documents served per year. This figure 
encompasses the number of interviews and record checks of individuals 
that are not amenable to removal but are of foreign birth. The plan for 
CAP is to interview 90 percent or more of all foreign born inmates in 
Federal, State and mega-county (populations over 1 million) areas. 
287(g) (local law enforcement authority to enforce immigration 
violations) and video teleconferencing will serve the outlying areas.
    ICE has placed increased emphasis on complex criminal 
investigations for its 1811 job series. In recognition of this, 
Congress provided an additional $30 million in the fiscal year 2005 
appropriation to initiate the transfer of IRP from OI to DRO. The 
fiscal year 2005 reprogramming requests the enhancement be reduced to 
$4 million. This will allow for 37 positions and thus, Special Agents 
will continue to perform some institutional removal duties, instead of 
replacing all of them with Immigration Enforcement Agents (IEA). 
Criminal Alien Program (CAP) is the unification of the old 
Institutional Removal Program (IRP) and the Alien Criminal Apprehension 
Program (ACAP). All DRO activities in the incarcerated criminal alien 
arena will be referred to simply as CAP in the future.

                             STAFFING MODEL

    Based on recent production numbers from New York State Department 
of Corrections (DOC) and Florida Department of Corrections, an IEA will 
in a year will do 600 interviews in Southern tier States and 500 
interviews in Northern tier States. The statistics from these two DOCs 
suggest a higher percentage of naturalized foreign-born individuals in 
southern tier States requiring more interviews to obtain the goal of 
300 charging documents issued per agent.
    The transition will focus on a state-by-state transition of 
responsibility from OI to DRO. The first States, in order, are New 
York, California, Texas, Florida and Illinois. The transition, to date, 
is limited to the New York City Jail of Riker's Island.
    New York.--The plan has been coordinated with NY State Department 
of Corrections and New York City Department of Corrections, the two 
largest non-Federal partners. Pre-existing system and partnerships with 
Executive Office for Immigration Review and Bureau of Prisons exist 
under legacy Institutional Hearing Program (IHP). Video 
teleconferencing will cover traditional ACAP locations at smaller 
county facilities. Equipment and staffing will be at newly completed 
Castle Point Facility which offers space for increased staffing.
    California.--Plans have been discussed to improve the efficiency of 
identifying and starting removal proceedings for amenable aliens with 
the California Department of Corrections. The system is currently in a 
number of locations. Pre-existing system and partnerships with EOIR and 
BOP exist under legacy IHP. Video teleconferencing will cover 
traditional ACAP locations at smaller county facilities. Equipment and 
staffing will be hired and located to meet the needs of the State of 
California stretch the capacity of the New York VTC center. Due to the 
costs of installing VTC equipment to local detention facilities, the 
need will be relatively small in the first years and will be built up 
as demand grows.
Arizona Border Control (ABC)/Interior Repatriation

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                     Program                        2004 budget     2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
ABC.............................................  ..............  ..............          39,349          39,349
----------------------------------------------------------------------------------------------------------------

    This fiscal year 2006 enhancement is $39.349 million for the ABC/
Interior Repatriation Program. With this funding, the Interior 
Repatriation program will transfer from Customs and Border Protection 
to ICE/DRO in fiscal year 2006. DRO is in the business of removals and 
will use its experience to build on previous successes.
    Interior repatriation (IR) is a component of the Arizona Border 
Control initiative (ABCI). ABCI is a multi-pronged approach to 
controlling the Arizona Border, which includes anti-smuggling 
investigations, fugitive arrests, as well as controlling and arresting 
illegal crossings. IR has a singular focus of the repatriating Mexican 
nationals. IR's aim is promoting deterrence, reducing recidivism of 
illegal crossings and thus reducing the number of deaths along the 
Arizona border.
    In fiscal year 2004, 14,058 undocumented immigrants were 
voluntarily flown from Tucson, AZ, to the interior of Mexico from July 
12 to September 30, 2004, after screening by DHS and a Mexican Consular 
Official. During the IR, Border Patrol Agents interviewed 96,793 
potential candidates.
    Of those interviewed, 82,735 refused to participate. Of those who 
declined to participate, 14,069 had been deemed ``at risk'' migrants. 
These migrants as well as the other migrants who refused to participate 
were processed either through voluntary return to the Arizona/Mexico 
border or other removal mechanisms.
    A total of 7 percent (1,008) of IRP participants were arrested 
attempting re-entry into the United States during the IRP operation 
dates. This is much lower than the Tucson sector's average recidivism 
rate of 37 percent.
    Interior repatriation can result in a dramatic reduction in the 
number of deaths in the desert suffered by intending immigrants. 
Interior repatriation efforts have resulted in strong U.S.-Mexico and 
cooperation. Since the IR pilot last year, DHS has also implemented 
expedited removal between ports of entry in the Tucson and Laredo 
sectors, resulting in additional apprehensions in the Tucson area.
Alternatives to Detention

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                  Fiscal year     Fiscal year     Fiscal year     Fiscal year   Fiscal year 2006
            Program               2004 budget     2005 budget      2006 base      2006 budget   enhancements \1\
----------------------------------------------------------------------------------------------------------------
DRO-Alternatives..............           8,659          12,202          12,733          23,533           10,800
----------------------------------------------------------------------------------------------------------------
\1\ Note: There are two enhancements to the Alternatives to Detention program, each totaling $5.4 million.

    The fiscal year 2006 enhancement for Alternatives to Detention 
totals $10.8 million and 7 FTE.
    The President's Budget requests an additional $5.4 million to 
expand the Intensive Supervision Appearance Program (ISAP) and $5.4 
million increase for the Alternatives to Detention program, for a total 
of $10.8 million in enhancements. Alternatives to Detention include 
intensive supervision, electronic monitoring, and telephonic voice 
recognition. Currently, ICE (through the Office of Detention and 
Removal Operations--DRO) is piloting several alternatives to detention 
initiatives. Early indications are encouraging and suggest that these 
approaches to monitoring aliens who are not in physical custody may 
yield better appearance rates to immigration proceedings and better 
rates of removal once an alien has been ordered removed. The program is 
still too new to draw definitive conclusions. Over the next 6 to 12 
months ICE will be collecting data and evaluating the efficacy of 
various alternatives to detention strategies.
    ICE began piloting this initiative in fiscal year 2004 and has 
expanded the pilots in fiscal year 2005. Pilot cities include: Miami, 
Philadelphia, Baltimore, Portland, Denver, San Francisco, and others. 
The fiscal year 2005 Budget provided $11 million to expand the number 
of pilot locations and to fund 60 new full time positions (30 FTE). The 
fiscal year 2005 reprogramming reduces the funding to $2 million which 
permits funding for 11 new full time positions.
    DRO will measure the performance of the ISAP program on three 
levels: (1) Do aliens enrolled in ISAP have a greater rate of 
appearance at hearings than the rate of a control group of non-detained 
aliens not enrolled in ISAP? (2) If ordered removed or granted 
voluntary departure, do aliens enrolled in ISAP surrender/depart at a 
greater rate than a control group? (3) If the alien fails to surrender 
for removal or otherwise fails to depart, are absconding aliens in ISAP 
re-apprehended at a greater rate than that for a control group?
    DRO and its ISAP contractor are collecting certain data to test the 
hypothesis that the performance measures for aliens in ISAP will 
indicate a greater success rate than the performance measures for a 
control group of non-detained aliens. ``Success'' is defined as a 
statistically significant increase in the appearance rates, surrender 
rates, and re-apprehension rates. The hypothesis test will involve 
standard statistical tests (such as ``t tests'') and commonly accepted 
levels of statistical significance (generally the significance level in 
social science research is set to .05). DRO expects it will have gained 
a sufficiently large sample population to draw statistical inference 
within the next 6 to 12 months.
    DRO and its contractor will also collect data on the appearances at 
hearings, surrenders for removal, departure from the United States, 
number of re-apprehensions of absconders.
    The ISAP population is non-criminal aliens that are not mandatory 
detention, who live within a reasonable commuting distance of an ISAP 
office, and who agree to the conditions of the program. DRO will select 
a control group of non-detained aliens that are not participating in 
ISAP. These aliens will be selected from Docket Control Offices that 
have ISAP. The control group will closely match the ISAP group on such 
relevant characteristics as country of origin, gender, and length of 
stay in the United States.
    General Explanation and Justification for the Initiative.--
Detention of all aliens that are apprehended and placed into removal 
proceedings is not the only way to ensure that aliens appear at their 
immigration hearings or for removal. Aliens who disappear from ICE 
supervision pose a potential threat to public safety and national 
security. To mitigate this flow of cases into the fugitive population, 
ICE's DRO seeks to further develop alternatives to detention in two 
ways. First, expansion of the ISAP to two additional locations in 
fiscal year 2006. Each site is intended to accommodate 200 participants 
daily. These additional resources would bring the total number of 
participants nationwide on any given day to 2,000. The ISAP is a 
community-based, case management program that provides close 
supervision of illegal aliens emphasizing compliance with Immigration 
Court requirements. Expansion of the program requires 14 positions (7 
FTEs). In order to properly execute the alternatives to detention 
program within DRO, positions must accompany program expansion. These 
positions will be used to manage the alternatives to detention docket 
including enrolling participants, managing the data, ensuring departure 
from the United States as required, and acting as the local Contracting 
Officer's Technical Representative.
    This proposed enhancement is aligned to Department of Homeland 
Security Strategic Objective 2.2, Enforce trade and immigration laws.
    Performance Impact.--This is a cost-effective way to ensure that 
aliens will appear for their immigration hearings or for removal. This 
program will increase the integrity of the immigration enforcement 
process by adding two additional ISAP locations, each intended to 
accommodate 200 participants daily. ICE is still analyzing the results 
of alternative to detention programs and will baseline the appearance 
rates in fiscal year 2006 to begin measuring the true outcome of ISAP. 
The goal of this program is in line with the strategic objective of 
removing all removable aliens. The anticipated increase in appearance 
rates will also mean fewer cases entering the fugitive population.
Federal Air Marshal Service (FAMS)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
             Program                Fiscal year     Fiscal year     Fiscal year     2006 budget        2006
                                    2004 budget     2005 budget      2006 base          \1\         enhancement
----------------------------------------------------------------------------------------------------------------
FAMS............................         610,290         662,900         678,994         688,860           9,866
----------------------------------------------------------------------------------------------------------------

    This enhancement will allow the FAMS to increase its staffing level 
to a level that will allow it to meet its mission objective, the risk-
based deployment of Federal Air Marshals. FAMS works closely with DHS 
and other Federal, State and local agencies and private industry to 
develop, deploy and sustain a comprehensive intelligence-driven 
approach and response to terrorist and related criminal threats against 
the United States and its interests. FAMS provides critical support to 
DHS' missions to prevent terrorist acts within the United States, 
reduce vulnerability to terrorism, and minimize damage from potential 
attacks.
    Additional information can be provided in a secure manner.
Student and Exchange Visitor Program (SEVP)

                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                    Fiscal year     Fiscal year     Fiscal year     Fiscal year
                     Program                        2004 budget     2005 budget     2006 budget     2006 change
----------------------------------------------------------------------------------------------------------------
SEVP............................................           1,465          40,000      \1\ 58,100      \1\ 18,100
----------------------------------------------------------------------------------------------------------------
\1\ These numbers have been revised since submission of the President's budget on February 7, 2005.

    DHS Strategic Objective Supported: 2.2 Enforce Trade and 
Immigration Laws
    The Student and Exchange Visitor Program (SEVP) was created to 
restore integrity to the U.S. immigration system by ensuring that 
international students, scholars, and exchange visitors studying in the 
United States comply with the terms of their visas. One of SEVP's 
primary functions is to track the immigration status of foreign 
students and exchange visitors.
    In fiscal year 2004, SEVP operated with two separate streams of 
funding--a fee collection process for school certification and 
appropriated dollars from counter-terrorism funds. The Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 mandated 
the establishment and maintenance of a fee collection process to 
support the Student and Exchange Visitor Information System (SEVIS) and 
SEVP. To become a fully fee funded program, SEVP implemented a fee 
collection process (the SEVIS I-901 Fee) on September 1, 2004. This fee 
is paid by all prospective students and exchange visitors ($100 for 
most and $35 for some exchange visitors) prior to seeking a visa at the 
consulates and embassies overseas. The I-901 fee and the fees collected 
from schools seeking certification to host nonimmigrant students (I-17 
Fee), provides the full funding for SEVP, portions of the Compliance 
Enforcement Unit (CEU), and the Department of State efforts.
    In fiscal year 2005, SEVP projects it will collect $46 million from 
the SEVIS I-901 fee and $362,000 from the I-17 school certification 
fees. In addition, SEVP had a carryover balance of $2.6 million from 
fiscal year 2004. Although SEVP projects to have total resources of 
$49.0 million for fiscal year 2005, the execution level will remain at 
$40 million to ensure continuity of funding for the program.
    In fiscal year 2006, SEVP projects to collect $45.9 million from 
the SEVIS I-901 fee and $3.5 million from the I-17 school certification 
fees. The increase in I-17 school certification fees is based on SEVP 
collecting initial fees as well as the re-certification fees whereas in 
fiscal year 2005 they will only collect initial fees. In fiscal year 
2006 SEVP will have a full cycle of SEVIS I-901 fees since its 
inception in September 2004. SEVP projects to have total resources of 
$58 million for fiscal year 2006 that includes a $9 million carryover 
balance from fiscal year 2005.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The additional $18.1 million spending authority for fiscal year 
2006 will allow SEVP to:
  --Maintain staffing levels--the cost of salaries and benefits of 
        newly hired employees
  --Continue to improve SEVIS with IT enhancements--allows SEVP to 
        accelerate the implementation of planned enhancements to 
        improve the batch and real time interface processing, 
        incorporate historical data from the SEVIS predecessor (CIPRIS) 
        and implement a user-friendly reporting tool. This increase in 
        funding will also allow SEVP to develop a search tool for the 
        historical data.
  --Conduct analysis of current fee structures (I-901 SEVIS fee and I-
        17 school certification)--fee studies for both the I-901 SEVIS 
        fee and the I-17 school certification were conducted in early 
        2000
    SEVP will continue to perform the following functions:
  --Certify schools desiring to participate in SEVIS
  --Provide law enforcement with current information on F, M and J 
        nonimmigrants
  --Conduct outreach to the academic community
  --Accept and process fee payments
  --Enhance the functionality of the SEVIS system
  --Write policies and regulations to implement statutory requirements
  --Train users of the SEVIS system
  --Assist ports of entry, DoS consular officials, schools and program 
        sponsors with the entry and stay of F, M and J nonimmigrants

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                      Performance Increase                         2006 request    2007 request    2008 request
                                                                       level           level           level
----------------------------------------------------------------------------------------------------------------
Percent of F, M, and J nonimmigrant information maintained in                100             100             100
 SEVIS..........................................................
----------------------------------------------------------------------------------------------------------------

    Question. Are there any services that ICE is being assessed working 
capital fund charges for in fiscal year 2004 or fiscal year 2005 that 
are not directly utilized by ICE? Is ICE being charged for services on 
a basis proportionate to its usage?
    Answer. According to the DHS Working Capital Fund reimbursable 
agreements, ICE will only be billed for actual services received. This 
was true for fiscal year 2004 WCF billings, and is expected for fiscal 
year 2005 billing. DHS provided detailed proration guidance with the 
fiscal year 2005 anticipated WCF billings. ICE agrees with DHS 
proration of WCF costs.

   OFFICE OF SCREENING COORDINATION AND OPERATIONS (9/11 COMMISSION 
                            RECOMMENDATION)

    Question. The President's Budget proposes to create the Office of 
Screening Coordination and Operations within the Border and 
Transportation Security Directorate. CIS has significant screening and 
identification capabilities and needs, yet the President's budget does 
not propose moving the operational responsibility for any of those 
programs out of CIS. In order to ensure that there is the closest 
possible coordination across screening programs, should CIS screening 
programs be moved to the Office of Screening Coordination and 
Operations?
    Answer. The Office of Screening Coordination and Operations (SCO) 
is the first step in implementing the requirements of HSPD-11, which 
directs DHS to review and integrate all screening requirements across 
the Federal government. USCIS operational requirements and other 
security elements are being reviewed within the Department, and where 
deemed appropriate, may be incorporated within the purview of the SCO.

               TERRORIST TRAVEL (9/11 COMMISSION REPORT)

    Question. In addition to the formal 9/11 Commission Report, the 
Commission issued two staff monographs, one of them on Terrorist 
Travel. While no specific recommendations were made, the report reached 
interesting conclusions. One conclusion was that ``Border inspectors 
today still do not have basic intelligence and operational training to 
aid them in detecting and preventing terrorist entry.'' They are not 
talking about people who are on watchlists, but providing inspectors 
with training to detect terrorists not on the watchlist. What steps is 
CBP taking to incorporate the information uncovered by the 9/11 
Commission staff on terrorist travel into basic training for CBP 
officers?
    Answer. CBP has established anti-terrorism response protocols to 
more effectively handle potential terrorism threats identified by CBP 
personnel. These national-level CBP policies operate both for a CBP 
Officer questioning a person applying for admission at a port of entry 
and for a Border Patrol Agent processing an individual who's been 
apprehended after crossing the border illegally to ensure consistent 
application throughout the border. CBP has also developed specific 
anti-terrorism training for passenger processing that includes specific 
instruction in behavioral analysis, deception detection and eliciting 
information.
    The integrated curriculum for new CBP Officers includes three (3) 
specific components: Pre-Academy, Academy Basic training at Glynco, GA, 
and post-Academy training conducted at the Ports of Entry (In-port 
training). Academy Training courses for new CBP Officers include new 
anti-terrorism passenger training and fraudulent document detection. 
Most importantly, the role of an Officer in CBP's priority mission, 
anti-terrorism, is taught on day one and reiterated throughout the 
curriculum.
    Under our new curriculum, our basic trainees receive 16 hours in 
fraudulent document training at the Academy that culminates with a 
graded practical exercise during which trainees examine characteristics 
of unique documents and determine if the documents are genuine, 
counterfeit or altered. The course highlights fraud indicators that may 
be present in evaluating any document for authenticity. Security 
features of United States entry documents and imposter detection are 
emphasized as well. Trainees that fail to successfully complete the 
course are removed from training. All instructors teaching this course 
have received training from the Forensic Document Lab.
    With regard to questioning techniques, we use practical exercises 
throughout a trainee's 15 weeks at the Academy. With the help of role 
players, students are presented with scenarios based on primary 
inspection situations. During the labs and graded practical exercises, 
trainees review documents presented, question role players about their 
visit to the United States and make ``refer or release'' 
recommendations. Interviewing labs require trainees to practice 
observational skills and questioning skills, while applying their job 
knowledge of documentation requirements, immigration issues, customs 
exemptions, prohibited and restricted articles, and agricultural 
issues.
    Question. Has CBP considered asking the 9/11 Commission staff to 
put together a seminar on its findings for all current inspectors, 
allowing them to sharpen their skills?
    Answer. CBP is open to new training concepts, and though we are not 
sure that using former Commission staff for training CBP inspectors is 
an optimal approach, we will keep such ideas in mind as we continue to 
refine training programs.
    Question. The report on Terrorist Travel also calls attention to 
the lack of ``viable options to prevent documents known to be 
fraudulent from being returned to travelers denied entry into the 
United States''. What additional authority would CBP need to be able to 
confiscate or in some way invalidate fraudulent documents prior to 
denying entry to someone?
    Answer. U.S. Customs and Border Protection (CBP) implemented on 
January 1, 2005, under existing legal authority, a comprehensive 
program for the seizure and systematic processing of fraudulent travel 
documents presented for admission into the United States. Key parts of 
that program include the requirement that no fraudulent travel document 
be returned to the subject presenting the document and the mandatory 
forwarding of all seized documents to CBP's newly established 
Fraudulent Document Analysis Unit for intelligence collection and final 
disposition (return to issuing authority for destruction). Subjects 
from whom fraudulent documents have been seized are now issued a Single 
Journey Letter (SJL) to facilitate their return travel. The SJL 
conforms with all International Civil Aviation Organization (ICAO) 
Annex 9 standards for issuance of such documents. It includes 
interdiction and biographic information as well as the subject's 
photograph and fingerprints from both right and left index fingers.
    Question. The report also states ``There is no programmatic effort 
to focus on terrorist travel facilitators, and special agents lack the 
resources and authority to pursue visitors for immigration violations 
associated with terrorist activity''. What is the Department's position 
on this statement? What can be done to change this?
    Answer. ICE has special agents assigned to CBP's National Targeting 
Center (NTC), the FBI's Foreign Terrorist Travel Task Force (FTTTF) and 
the FBI's Terrorist Financing Operations Section. All three locations 
have developed specialized databases to facilitate the investigation of 
terrorist travel and terrorist travel facilitators. ICE Attaches 
assigned to posts around the world, and the ICE special agent assigned 
to the Department of Defense Central Command, are also well-positioned 
to act upon information relating to terrorist travel facilitators.
    Question. One of the most interesting findings included in the 
report on Terrorist Travel, was related to the U.S. Department of 
Justice's Absconder Apprehension Initiative, started in 2001. Today, 
this initiative has become the responsibility of ICE's Fugitive 
Operations Program.
    Of the almost 6,000 aliens determined to be the highest priority to 
track down and remove, 5 percent had been granted U.S. citizenship or 
had become legal permanent residents after being ordered deported. Can 
ICE and CIS guarantee that this can never happen again? What steps have 
been taken to ensure that this cannot happen again?
    Answer. ICE works to ensure that data is shared and has developed 
and implemented agreements with CIS to share data. ICE also routinely 
runs CIS cases against the fugitive database. In addition, CIS has 
access to the Deportable Alien Computer System (DACS), which tracks all 
cases under removal proceedings.
    Question. Is all of the relevant information that each organization 
has in its records being shared today? Is the Department confident that 
someone who has been ordered deported from this country can not be 
granted U.S. citizenship while an absconder?
    Answer. The information regarding who is an absconder is readily 
available for queries and searches for CIS to determine if an applicant 
is considered an absconder or fugitive. An applicant for citizenship 
has the burden of establishing that he was lawfully admitted for 
permanent residency in the United States. The Naturalization 
application requires additional identity and security checks; a 
definitive response from the FBI background checks, and IBIS checks. In 
addition, all applications are processed in accordance with established 
Naturalization Quality Procedures (NQP).
    Question. When someone is found to be attempting to fraudulently 
obtain U.S. citizenship, through the use of a false name or some other 
method, why does it take so long to bring them to justice?
    On February 10, 2005, Mostofa Kamal, aka Shaheen Sardar, a native 
of Bangladesh, was arrested in New York. He entered this country in 
1994, over 10 years ago. He was ordered to leave the United States in 
1997. This individual made his first fraudulent request for benefits in 
1997. Mr. Kamal was interviewed by CIS in connection with his 
application for U.S. citizenship in November of 2004, an application 
that was received by CIS in August of 2003, but he was only arrested 3 
weeks ago. The Department has known for sometime where he was--employed 
by the New York City Police Department as a Traffic Enforcement Agent. 
What is the issue? Is it resources, priorities? Why do these cases drag 
on so long before ICE arrests someone?
    Answer. In the referenced case, the subject had previously entered 
the United States in 1993 under a false name and made claims to 
political asylum. His asylum claim was denied, and an Immigration Judge 
granted him Voluntary Departure with an alternate order of deportation 
should he not depart by the specified date in May of 1996. In 1997, he 
changed his name (name referenced in question), married a U.S. citizen, 
and applied for a benefit through that relationship. Based on that 
relationship, he left the United States, reentered, and was admitted to 
the United States as a Lawful Permanent Resident in 2000. He, in 
effect, caused an alternate order of deportation when he departed the 
United States to pick up his Visa. As a result of the name change, the 
fraud had not been detected. In continuance of this fraud, the subject 
applied for citizenship, for which he passed all stages in the process 
and was awaiting a naturalization date. The fraud was discovered. In 
February 2005, he was presented for criminal prosecution in the 
Southern District of New York for committing naturalization fraud.
    It may take many years for an individual to exhaust his legal 
administrative remedies. Normally, arrests would not take place while 
there is an adjudicative or administrative judicial process being 
pursued and would only take place if the subject were considered likely 
to abscond. Generally, single scheme frauds are not accepted for 
criminal prosecution unless there are extraordinary circumstances that 
would sway the U.S. Attorney's office to consider it.

                   ARIZONA BORDER CONTROL INITIATIVE

    Question. The Arizona Border Control (ABC) Initiative has been 
underway for almost a full 12 months. What are the results of this 
initiative so far? Has it been a success?
    Answer. The Arizona Border Control Initiative (ABCI) has been very 
successful. Initial successes have established a foundation to expand 
on during fiscal year 2005 in order to achieve operation control of the 
Arizona/Mexico Border under control. Intelligence and arrest trends 
collected through ABCI indicate that alien smugglers have been forced 
to change their operating procedures as a result of ABCI. Selected 
statistics associated with ABCI are as follows:
  --42 percent increase in arrests over the previous year
  --105 percent increase in narcotics seizures over the previous year
  --26 percent decrease in migrant deaths
  --22 percent increase in Immigration Felony Prosecutions
  --461 percent increases in vehicle seizures
  --350 percent increase in weapons seizures
    Question. What lessons from the ABC initiative can now be 
incorporated into the operations of CBP, ICE and others across the 
Nation?
    Answer. Lessons learned that can be incorporated throughout the 
Nation include:
  --Development of Planning Cell Committees of agency leadership 
        personnel to coordinate the creation of operation plans to 
        foster a seamless flow of information and to establish 
        operating coalitions.
  --Establishing a coordinated leadership structure with an emphasis on 
        information and intelligence sharing and ensuring that 
        sufficient resources are deployed is a requirement for success.
  --Integrating operations between all BTS entities, State, local, 
        tribal agencies and foreign governments achieve better results 
        than working alone.
  --Integrating ground-based surveillance technology, air surveillance, 
        and ground personnel creates a ``defense in depth'' posture, 
        which inhibits the ability of criminal enterprises to operate 
        freely along the U.S./Mexico Border.
    Question. Funding for this initiative has been requested in the 
fiscal year 2006 budget request. Should this initiative now be regarded 
as a permanent resource enhancement?
    Answer. The $1 million increase included in the fiscal year 2006 
President's Budget for the Arizona Border Control Initiative (ABCI) 
should be considered to be a permanent increase to CBP's base funding. 
These additional resources are required to meet the objectives of the 
ABCI.
    Question. The use of unmanned aerial vehicles as a part of the ABC 
initiative has been considered very successful. However, the contract 
vehicle that the Science and Technology Directorate was using to 
provide the UAVs has ended, and there is no UAV coverage while CBP 
evaluates how best to continue this project. When does CBP expect to 
have this issue resolved so that UAV coverage can be put back into 
place in the Tucson Sector?
    Answer. CBP is currently refining requirements to issue a request 
for proposals (RFP) to the unmanned aerial vehicle (UAV) industry. The 
contract will specify delivery of the system within 30 days of contract 
award, which will allow CBP to establish a UAV initial operating 
capability on the Southern Border in support of the Arizona Border 
Control Initiative. CBP expects to award a contract for UAV procurement 
in the fourth quarter of fiscal year 2005.

                      ASYLUM AND EXPEDITED REMOVAL

    Question. The United States Commission on International Religious 
Freedom recently issued a report entitled ``Asylum Seekers in Expedited 
Removal''. The report contains a number of recommendations for the 
Department of Homeland Security. The report raised specific issues on 
the difficulty of applying the standards for asylum and credible fear 
in a consistent manner across the Department. Has a working group or 
other mechanism been put in place to look into how the standards are 
applied and ensure consistent treatment of asylum seekers?
    Answer. Since the inception of the expedited removal process in 
1997, a standing inter-agency working group has addressed expedited 
removal issues. The Expedited Removal Working Group is an established 
forum for discussing all issues relating to expedited removal and 
comprises experts from each of the affected DHS entities (U.S. 
Citizenship and Immigration Services, Customs and Border Protection, 
and Immigration and Customs Enforcement).
    Pursuant to former Deputy Secretary Admiral James Loy's concurrence 
with a joint memorandum from former Undersecretary of Border and 
Transportation Security Asa Hutchinson, USCIS Director Eduardo Aguirre, 
and Officer for Civil Rights and Civil Liberties Daniel Sutherland, the 
Expedited Removal Working Group has been tasked with coordinating 
review of the United States Commission on International Religious 
Freedom report, ``Asylum Seekers in Expedited Removal.'' The working 
group also will draft the Department's responses to the report's 
recommendations. The working group will report on its review and 
proposed responses to BTS, USCIS, and CRCL, and their report then will 
be forwarded to the Secretary.
    Question. The report also raised concerns about the detention 
policies and facilities used for the majority of asylum applicants. 
CBP, ICE, and CIS must all balance the national security needs of this 
country with the humanitarian needs of legitimate asylum applicants. In 
fact, almost at the same time that this report was made public, the 
11th defendant in a significant case ``Operation Jakarta'' involving 
asylum fraud and document fraud pleaded guilty in a Federal court in 
Virginia. What is being done to review these programs and evaluate the 
specific recommendations of the Commission?
    Answer. The Department of Homeland Security established a working 
group to review and respond to the recommendations suggested by the 
Commission. The working group will issue an evaluation on those 
recommendations this summer.
    Question. What steps have been taken as a result of ``Operation 
Jakarta'' to track down anyone who received benefits fraudulently 
because of this criminal enterprise and remove them from the United 
States?
    Answer. During the course of the criminal investigation, the USCIS 
Asylum Offices have reviewed 12,000 Indonesian asylum cases in order to 
identify all fraudulent cases related to ``Operation Jakarta.'' 
Approximately 800 principal asylum cases were directly linked to the 
perpetrators of the fraud and will be processed for termination. Due to 
the high volume of fraud cases, the Asylum Offices have created teams 
of Asylum Officers to process the cases expeditiously. As the cases are 
terminated, the individuals will then be referred for judicial review 
to the Executive Office of Immigration Review (EOIR). All of the 
individuals that applied for and/or received benefits associated with 
this fraud will be entered as ``lookouts'' in the Treasury Enforcement 
Communications Systems (TECS).

           USE OF STOLEN PASSPORTS--INSPECTOR GENERAL REPORT

    Question. In December of 2004, the Department of Homeland 
Security's Office of Inspector General issued a report entitled ``A 
Review of the Use of Stolen Passports from Visa Waiver Countries to 
Enter the United States''. Both ICE and CBP concurred with the 
recommendations in this report. What progress has ICE and CBP made to 
implement those recommendations?
    Answer. ICE and CBP have implemented coordinated standard operating 
procedures to ensure ICE receives information on all individuals 
present in the United States who entered on a lost or stolen passport. 
On January 28, 2005, the Director of the National Targeting Center 
(NTC) sent the ICE Compliance Enforcement Unit (CEU) a letter 
confirming the agreement between ICE and CBP. CBP will ensure lookouts 
are placed on all lost or stolen passports, conduct appropriate 
database queries, and forward information to the CEU on anyone present 
in the United States who entered on a lost or stolen passport.
    Question. Please provide the Committee with a detailed, item by 
item, breakout of any fiscal year 2004 representation funds that were 
allocated to CBP, CIS, ICE, and the Under Secretary for Border and 
Transportation Security.
    Answer. The requested information has been provided in the tables 
below.

------------------------------------------------------------------------
                                            Fiscal year
         Organizational element                2004         Fiscal year
                                           appropriated   2004 obligated
------------------------------------------------------------------------
Office of Under Secretary for BTS.......  ..............  ..............
CBP.....................................         $40,000         $37,661
ICE.....................................          15,000           6,837
USCIS...................................           5,000           4,953
------------------------------------------------------------------------


 FISCAL YEAR 2004 SUMMARY OF RECEPTION & REPRESENTATION FUND OBLIGATIONS
------------------------------------------------------------------------
              Date                       Event               Amount
------------------------------------------------------------------------
     U.S. Customs and Border
           Protection

30-Oct-03.......................  Official luncheon              $381.14
                                   held in honor of
                                   U.S./Mexico Border
                                   Partnership
                                   Meeting.
13-Nov-03.......................  Protocol Supplies..             170.98
03-Nov-03.......................  Refreshments served              74.82
                                   at the Operation
                                   Safe Commerce
                                   Meeting.
08-Nov-03.......................  Sponsor the                     150.00
                                   Ministers from
                                   Trinidad & Tobago
                                   at the Marine
                                   Corps Ball in
                                   Trinidad in
                                   furtherance of
                                   CMAA negotiations.
12-Nov-03.......................  Refreshments for                 21.09
                                   meeting hosted by
                                   Deputy
                                   Commissioner with
                                   Mexican Delegation.
17-Nov-04.......................  Official Dinner in              402.82
                                   honor of Lars
                                   Karlsson, 2nd
                                   Deputy Director
                                   General, Sweden
                                   Customs.
19-Nov-03.......................  Official Dinner                 923.55
                                   with officials
                                   from New Zealand
                                   during CIS
                                   Discussions.
02-Dec-04.......................  Official reception              326.97
                                   for the opening of
                                   the CSI Port in
                                   Durban, South
                                   Africa.
12-Dec-03.......................  Protocol Supplies--           1,200.00
                                   Commissioner of
                                   Customs office.
18-Dec-04.......................  Official Reception           10,523.50
                                   hosted by
                                   Commissioner of
                                   Customs in honor
                                   of foreign
                                   dignitaries and
                                   high level
                                   officials from
                                   various Embassies.
21-Jan-04.......................  Honorary Award Item              95.00
                                   for WCO Regional
                                   Security
                                   Conference in
                                   Senegal.
21-Jan-04.......................  Official luncheon               148.00
                                   hosted by Chief De
                                   La Vina in honor
                                   of Mexican
                                   Officials,
                                   Fernando Creixell
                                   and Agustin Caso.
23-Jan-04.......................  Official luncheon               213.68
                                   in honor of Canada
                                   Border Security
                                   Agency, President
                                   Alain Jolicoeur
                                   and Director Greg
                                   Boatbe.
28-Jan-04.......................  International                 3,473.00
                                   Customs Day
                                   Reception.
29-Jan-04.......................  Official dinner               1,487.20
                                   hosted by
                                   Secretary Ridge in
                                   honor of Canadian
                                   Prime Minister and
                                   delegation.
24-Feb-04.......................  Official Luncheon               608.00
                                   for Italian
                                   Delegation during
                                   CSI Program Review.
03-Mar-04.......................  Flowers sent on                 219.06
                                   behalf of Customs
                                   and Border
                                   Protection upon
                                   the death of
                                   Comptroller of
                                   Customs, Robin
                                   Dare (New Zealand).
24-Mar-04.......................  Official luncheon               125.13
                                   hosted by Acting
                                   Assistant
                                   Commissioner,
                                   International
                                   Affairs in honor
                                   of Mr. Kaci Abes,
                                   Director, External
                                   Cooperation &
                                   Relations.
22-Apr-04.......................  Protocol Supplies               261.52
                                   for US/EU Signing.
28-Apr-04.......................  Official Luncheon               379.10
                                   hosted in honor of
                                   US/EU signing and
                                   the Joint Customs
                                   Cooperation
                                   Committee.
08-May-04.......................  Protocol Supplies--              10.60
                                   Office of Trade
                                   Relations.
13-May-04.......................  Official luncheon               592.62
                                   hosted in honor of
                                   Mr. Mu Xin-Sheng,
                                   Minister, General
                                   Administration of
                                   China Customs and
                                   his delegation.
24-May-04.......................  Refreshments during             616.92
                                   meetings held with
                                   the European
                                   Community & U.S.
                                   Expert Groups on
                                   Container Security.
08-Jun-04.......................  Dinner hosted by                450.00
                                   Commissioner
                                   Bonner in honor of
                                   the U.S./Canada
                                   Shared Border
                                   meeting.
08-Jun-04.......................  Official luncheon               514.30
                                   hosted by
                                   Commissioner
                                   Bonner in honor of
                                   U.S./Canada Shared
                                   Border meeting.
08-Jun-04.......................  Official Reception            1,967.06
                                   hosted by
                                   Commissioner
                                   Bonner at the U.S./
                                   Canada Shared
                                   Border Meeting.
14-Jun-04.......................  Official luncheon               216.25
                                   hosted by
                                   Commissioner
                                   Bonner in
                                   conjunction with
                                   the U.S./Mexico
                                   Bilateral Meeting.
16-Jun-04.......................  Official luncheon               562.50
                                   hosted by Acting
                                   Assistant
                                   Commissioner,
                                   International
                                   Affairs in honor
                                   of high level
                                   Georgian Officials.
22-Jun-04.......................  Official luncheon               323.01
                                   hosted by Acting
                                   Assistant
                                   Commissioner, INA
                                   for the New
                                   Zealand delegation
                                   attending the WCO
                                   Policy &
                                   Commission
                                   meetings..
25-Jun-04.......................  Official luncheon               421.65
                                   and toast hosted
                                   by Commissioner
                                   Bonner at the
                                   signing of the CSI
                                   agreement with the
                                   Hellenic Republic.
28-Jun-04.......................  Official Luncheon               495.00
                                   hosted by
                                   Commissioner
                                   Bonner for high
                                   level French
                                   Customs officials.
14-Jul-04.......................  Refreshments for                297.01
                                   CSI Global
                                   Targeting Assembly
                                   of Technical
                                   Experts Conference.
27-Jul-04.......................  Official luncheon               878.41
                                   hosted by Acting
                                   Deputy AC, INA for
                                   attendees of the
                                   U.S./Australia
                                   Regional Movement
                                   Alert List System
                                   Conference.
04-Sep-04.......................  Protocol Supplies--              27.73
                                   Director, Trade
                                   Relations.
15-Sep-04.......................  Refreshments during             106.60
                                   conference with
                                   Russian officials
                                   and CBP on
                                   Passenger Name
                                   Record
                                   connectivity.
22-Sep-04.......................  Protocol Supplies--             290.76
                                   AC, INA and
                                   Commissioner
                                   Bonner's Office.
22-Sep-04.......................  CSI PTP, Malaysia               301.62
                                   Luncheon.
23-Sep-04.......................  Honorary Award                8,404.74
                                   Items for Foreign
                                   Officials.
                                                      ------------------
      Total Obligation..........  ...................          37,661.34
                                                      ==================
  U.S. Immigration and Customs
           Enforcement

11-Dec-03.......................  Assistant Secretary           1,325.89
                                   Holiday Reception
                                   for members of
                                   Congress and other
                                   dignitaries.
3-Feb-04........................  International                   717.75
                                   Attache briefing w/
                                   light refreshments
                                   hosted by the
                                   Federal Air
                                   Marshal Services.
                                   Dignitaries and
                                   honorable guests
                                   traveled from
                                   Netherlands,
                                   Austria, Japan,
                                   China, Belgium,
                                   Egypt,
                                   Philippines,
                                   Brazil, New
                                   Zealand, Hungary,
                                   et.al.
2-Mar-04........................  Breakfast with                  205.53
                                   Danish Minister at
                                   ICE.
3-Mar-04........................  ICE One Year                    299.06
                                   Anniversary Event
                                   attended by
                                   Captains, Chiefs
                                   of Police, State
                                   Police Officials,
                                   and
                                   representatives of
                                   other Federal
                                   Agencies.
20-May-04.......................  Luncheon event for              416.75
                                   the Office of the
                                   Assistant
                                   Secretary with
                                   local officials
                                   and dignitaries
                                   who made
                                   substantial
                                   contribution to
                                   Nation or DHS.
8-Jun-04........................  Detention and                   203.66
                                   Removal Operations
                                   Dinner during Four
                                   Country Conference
                                   in San Diego, CA
                                   to address mutual
                                   immigration and
                                   removal issues.
                                   Hosted by DRO;
                                   attendees included
                                   representatives
                                   from the Embassy
                                   of Australia;
                                   Canada Border
                                   Protection Agency;
                                   United Kingdom
                                   Immigration
                                   Service; and other
                                   foreign officials.
20-Aug-04.......................  Opening ceremony                490.00
                                   for ICE Air and
                                   Marine Operations--
                                   Bellingham Branch;
                                   attended by U.S.
                                   Senator Patty
                                   Murray, U.S.
                                   Representative
                                   Rick Larsen, and
                                   other
                                   Congressional
                                   representatives.
                                  Purchase of food                476.08
                                   and beverage items
                                   for AMO ceremony.
18-Sep-04.......................  ICE Air and Marine            2,702.13
                                   Operations
                                   briefing and site
                                   visit for
                                   Congresswoman Kay
                                   Granger and
                                   others. Includes
                                   purchase of
                                   refreshments for
                                   the event.
                                                      ------------------
      Total Obligation..........  ...................           6,836.85
                                                      ==================
U.S. Citizenship and Immigration
            Services

                                  Kitchenware                     389.07
                                   supplies for
                                   Director's suite,
                                   for hosting VIPs
                                   and dignitaries.
                                  Honorary award                  998.93
                                   items (coasters)
                                   for VIPs and
                                   dignitaries.
                                  Official luncheon                25.77
                                   with dignitary
                                   Eduardo Ibarolla
                                   and Director
                                   Aguirre.
                                  Official dinner                 220.96
                                   with incoming
                                   Mexican Ambassador
                                   Icaza and Director
                                   Aguirre to
                                   establish
                                   professional
                                   rapport.
                                  Honorary award item              79.95
                                   (Cufflinks) for
                                   guest speaker at
                                   USCIS 2004
                                   Director's
                                   Leadership
                                   Conference.
                                  Honorary Award                1,075.95
                                   Items (Cufflinks)
                                   for senior
                                   representative and
                                   foreign
                                   dignitaries during
                                   official travel
                                   and visits.
                                  Honorary Award                1,135.00
                                   Items (Lapel Pins)
                                   for distribution
                                   by Director
                                   Aguirre during
                                   official travel
                                   and visits.
                                  Honorary Award                1,000.00
                                   Items (Pewter
                                   bowls and
                                   platters) for high-
                                   level dignitaries.
                                  Official Luncheon                27.52
                                   with senior-level
                                   guest (Alecia
                                   Casteneda) to
                                   establish
                                   professional
                                   interagency
                                   rapport.
                                                      ------------------
      Total Obligation..........  ...................           4,953.15
------------------------------------------------------------------------

   SECURE ELECTRONIC NETWORK FOR TRAVELERS RAPID INSPECTION PROGRAM 
                                (SENTRI)

    Question. In June of 2004 the Department of Homeland Security's 
Office of Inspector General (OIG) issued a report on the Secure 
Electronic Network for Travelers Rapid Inspection program, known as 
SENTRI. CBP agreed with the recommendations made by the Inspector 
General. Please provide an update on the progress that has been made in 
implementing each of the OIG's recommendations regarding the SENTRI 
program.
    Answer. On January 24, 2005, a new Standard Operating Procedure 
(SOP) Manual was sent to the San Diego, CA, and El Paso, TX, Field 
Offices for the administration of the SENTRI program that addressed the 
majority of the recommendations in the OIG's report, including stating 
clearly the program eligibility criteria, establishing procedures for 
background checks and their resolution, developing minimum documentary 
requirements, separation of duties between initial enrollment and final 
approval, monitoring continued eligibility, and recording SENTRI 
violations. Certain other recommendations, relating to the Global 
Enrollment System and integration with related information systems are 
awaiting technical upgrades to achieve completion.

                      IMMIGRATION ADVISORY PROGRAM

    Question. The Immigration Advisory Program is designed to improve 
border security against the threat of terrorism by enabling CBP to 
identify and intercept suspected terrorists and undocumented passengers 
before they board planes bound for the United States from overseas 
locations. The pilots established in Amsterdam and Warsaw in 2004 
appear very promising. The fiscal year 2006 request includes funds to 
expand this program to two additional airports. Can, or should, this 
program be expanded more quickly?
    Answer. Based on the results from Amsterdam and Warsaw through 
February 28, 2005, CBP believes the IAP should be expanded and has 
great potential for similar success at other large European, Latin 
American, and Asian hub airports. IAP expansion is dependent on 
reaching a bilateral agreement with the host country government and 
will be rolled out as expeditiously as possible while ensuring 
operational connectivity to port of entry operations.
    Question. Please provide any evaluations or reports on the 
effectiveness of the IAP pilots.
    Answer. Accomplishments for June 5, 2004, to February 28, 2005, for 
Amsterdam and September 5, 2004, to February 28, 2005, for Warsaw 
follow:

------------------------------------------------------------------------

------------------------------------------------------------------------
No Board Advisements....................................             222
Fraud Intercepts........................................              34
NTC Targets Confirmed...................................              16
CBP Costs Avoided.......................................        $334,554
Potential Carrier Savings...............................        $414,150
------------------------------------------------------------------------

              CUSTOMS-TRADE PARTNERSHIP AGAINST TERRORISM

    Question. The fiscal year 2006 budget requests an additional $8.2 
million to expand the Customs-Trade Partnership Against Terrorism (C-
TPAT). The fiscal year 2006 President's budget states that as of 
January 12, 2005, CBP had reviewed and accepted the security profiles 
of 4,460 companies, making these companies certified partners. The next 
step in the process is validation. According to information that was 
submitted for the record after last year's hearing, CBP planned to 
complete 400 validations of C-TPAT certified partners in fiscal year 
2004. Was that goal met last fiscal year (fiscal year 2004)?
    Answer. CBP initiated 500 validations and completed 287 during 
2004. As of March 25, 2005, over 540 validations have been completed, 
with an additional 400 underway or in various stages of completion. CBP 
anticipates that over 900 validations will be completed by the end of 
fiscal year 2005.
    In fiscal year 2004, CBP created a new position, Supply Chain 
Specialist (SCS), and sought to recruit qualified officers throughout 
the year. CBP continues to aggressively recruit permanent Supply Chain 
Specialists, and has trained field officers to help assist in the 
initiation of validations.
    Question. What is the target number of validations CBP plans to 
complete in fiscal year 2005?
    Answer. CBP will complete 500 validations in fiscal year 2005, for 
a total of 900 since the inception of program.
    The overwhelming response by the trade community (volume of 
applications) forced CBP to reconsider the original goal to validate 
all certified members within a 3-year period.
    CBP's strategy is for C-TPAT to determine and prioritize which 
sectors of membership will be selected for validations, selecting 
individual companies based upon a standardized risk assessment, and 
identifying ``company specific'' high-risk supply chains to better 
focus our efforts/resources.
    Question. How many more validations will CBP be able to complete 
each year with the new resources that have requested?
    Answer. The fiscal year 2006 request of $8.2 million will allow CBP 
to conduct as many as 600 more validation trips per year. Oftentimes, 
multiple validations are conducted on a single trip.
    CBP anticipates having 100 Supply Chain Specialists (SCSs) on board 
by the end of fiscal year 2005. Each SCS is expected to complete 17 
validation trips per year, with more than one validation conducted per 
trip. With 100 SCSs on board, CBP anticipates completing 1,700 
validation trips per year. When fully staffed with SCSs, CBP could 
complete 2,669 validation trips per year.
    Question. Last year, the Committee was informed that validations of 
foreign manufacturers would begin in calendar year 2004. Was that 
review of foreign manufacturers begun last year (calendar year 2004)?
    Answer. During calendar year 2004, CBP initiated 500 validations of 
importers' foreign supply chains, which includes foreign manufacturers, 
and completed 287.
    Validations of the Mexican manufacturer enrollment sector began in 
earnest in March 2005. Additional validations of Mexican manufacturers 
are being planned for June 2005.

                      AMERICA'S SHIELD INITIATIVE

    Question. The President's fiscal year 2006 Budget includes a 
request of $19.8 million for the America's Shield Initiative (ASI). 
These funds will allow CBP to begin deployment of next generation 
technology for electronic surveillance along our Nation's land borders.
    CBP is working on awarding a contract for the integration of ASI 
sometime this year. At the same time, CBP needs to operate and maintain 
the equipment that is in the field today. There are currently 
significant critical operational breakdowns, cameras with unusable 
pictures, cameras down due to lightening strikes, camera control 
problems, cameras that have been replaced but are missing enclosures. 
In fact, the maintenance contract for the current installations lapsed 
in September of 2004, and CBP is still working on finalizing the 
replacement of those services. What is the plan to get the maintenance 
backlog taken care of?
    Answer. As noted, CBP is moving ahead with plans to develop and 
implement the America's Shield Initiative (ASI), which will provide a 
more comprehensive, integrated solution to electronic surveillance the 
border. But simultaneously, CBP is still working to ensure that 
existing border surveillance infrastructure remains operational. For 
example, with regard to operational Remote Video System (RVS) 
installations in the field, activities are underway to address repair 
issues for operational sites. In addition, data and lessons learned 
from these current activities are being used to provide baseline data 
towards the development of an interim operations, maintenance, and 
repair program. This interim program will provide maintenance and 
repair support to existing field equipment pending the development and 
implementation of a maintenance and repair program that will support 
both existing and new field equipment.
    Currently within CBP, the ASI Program Management Office (PMO), the 
National Emergency Equipment Repair and Maintenance Program (NEEMR), 
and the Tactical Communications Organization (TCO) have partnered to 
address several of these repair issues. For example, NEEMR, TCO, and 
the ASI (PMO) partnered to address the lightning strike incident that 
occurred at the Douglas, AZ Border Patrol RVS site. A team consisting 
of these three components responded to repair this installation. That 
activity was initiated at the beginning of February and concluded at 
the beginning of March. The result of this activity was the repair of 
the installation to a pre-lightning strike state, an assessment of 
current installation issues, and a collection of significant amount of 
baseline data regarding how these components worked together.
    Question. When will the maintenance backlog be cleared up?
    Answer. Establishing the ASI Program Management Office and the 
partnership with the National Emergency Equipment Repair and 
Maintenance Program (NEEMR) and the Tactical Communications 
Organizations (TCO), and awarding contracts for parts and equipment 
repair to original equipment manufacturers has significantly reduced 
the maintenance backlog. CBP believes that the maintenance backlog will 
be completely eliminated during the summer of 2005.
    Question. This fiscal year, the plan for ASI calls for spending $10 
million on surge technology. Please provide an explanation of what this 
is and what the plans are for this surge technology?
    Answer. Surge technology is surveillance equipment that can be 
rapidly deployed in self-contained system packages that have the 
mobility and deployment capabilities to allow it to be positioned in a 
very short period of time to support changes in national operational 
needs. The plan at this time is to procure vehicle-mounted ground radar 
equipment that is co-mounted with a cooled, thermal imaging system that 
can sense and identify a vehicle as well as a human over 5 miles away. 
A system of this type will allow the detection and tracking of multiple 
items-of-interest and provides vectoring information to agents on the 
ground. By virtue of their mobility and transportability, CBP will be 
able to deploy these assets to the geographic regions or corridors that 
align with the current, nationally-assessed threat environment.
    Question. CBP also plans to spend $10.6 million for replacement/
repair of ground sensors in fiscal year 2005. Given that plans are in 
place to possibly award an integration contract to upgrade all of this 
technology, why are we replacing ground sensors now? Is it possible we 
will be replacing these again with something new in just a year or two?
    Answer. In the early 1990's, the Federal Communications Commission 
(FCC) modified the spectrum range of commercial and government 
frequency usage. As such, CBP is required to change its systems to 
support the FCC frequency spectrum allocation requirements. CBP's 
Office of Border Patrol (OBP) is purchasing new unattended ground 
sensors to further augment its already deployed sensor fleet, to meet 
operational objectives, and to meet these FCC requirements.
    An objective of this procurement effort is to ensure compatibility 
with any future systems that are acquired. Replacement of newly 
procured unattended ground sensors in a year or two is not anticipated. 
An objective of this procurement is to ensure that these sensors will 
readily integrate with future systems.
    A cost analysis is being performed regarding the ability to upgrade 
our currently deployed unattended ground sensors that were procured and 
deployed prior to the FCC frequency spectrum allocation modification. 
This effort is also being undertaken in such a manner as to ensure that 
these upgrades are made to meet FCC requirements and future systems 
integration.
    Question. What is the timeline for initiating and completing all 
identified ground sensor repairs?
    Answer. A proposal has been developed to augment sensor 
capabilities in Tucson Sector with 1,240 new digital sensors. As these 
sensors are deployed, the ``old'' sensors that are replaced, or rotated 
in from the field will, be assessed for redeployment to other Sectors 
as needed and in alignment with current enforcement objectives and 
national threat assessments. The project is scheduled to begin June 
2005, with projected completion March 2008.

                    AUTOMATED COMMERCIAL ENVIRONMENT

    Question. CBP has been working on modernizing the information 
technology systems that it uses for some time. The most significant 
project is the Automated Commercial Environment, known as ACE. Last 
year, CBP released the re-baseline estimate for completion of the ACE 
system. The new schedule has ACE being fully deployed in 2011, and 
costing an additional $1 billion. How confident is CBP that this new 
timeline can be accomplished?
    Answer. CBP is confident the project can be completed in that time 
frame. That said, the new proposed baseline is presently under review. 
CBP will continue to strive to find ways to deliver ACE better, sooner, 
and at less cost. In addition, CBP has worked to improve ACE 
management. The staffs of legacy systems were merged into the CBP 
Modernization Office last December. The merger greatly increased the 
number of government staff on the program, as well as available subject 
matter expertise and IT project management skills. This will help keep 
the program on budget and schedule.
    CBP now also has the advantage of working with an operational 
system. Release 3, implemented in June 2004, is fully operational and 
has already increased the amount of duty collected via Periodic Monthly 
Statement from $80,000 in June to over $109 million in February 2005. 
The Release 4 pilot in Blaine, Washington although currently 
experiencing some technical problems, has processed over 40,000 trucks. 
Having these ACE systems operating in ``real-world'' CBP environments 
provides excellent experience and feedback for the program team, and 
provides a solid base on which to build future capabilities.
    Question. What is the status of the pilot in Blaine, Washington, of 
e-Manifest Trucks?
    Answer. The ACE truck cargo/eManifest pilot was initiated in 
Blaine, Washington, on December 12, 2004. The system was very well 
received by the CBP Officers in the port, demonstrating a number of 
improvements over previous systems. However, system issues were 
uncovered, which caused delays in the processing of trucks. This 
resulted in a temporary halt to the pilot in late December in order to 
implement necessary changes.
    The ACE pilot was re-started in mid-January with improved 
capabilities and significant streamlining of the cargo screening and 
release functions. With these changes, ACE has been processing trucks, 
on average, more quickly than the different release systems that had 
been in use prior to ACE. Average truck processing times were in the 70 
second range.
    Additional problems with the pilot were uncovered in early March. 
These problems were manifested as a result of the increased volume of 
trucks being processed (over 40,000 trucks had been processed with 
ACE). The problems have been corrected, and the revised system has been 
tested. Since the testing results were positive, CBP re-started the 
pilot April 4.
    Part of the reason for difficulties with the pilot has been the low 
volume of electronic manifests submitted by carriers and service 
providers. A combination of difficulties with the CBP eManifest 
certification process and the effort required by the trade participants 
to make changes to their systems have led to the low participation. 
However, for those eManifests that have been submitted, ACE has 
performed extremely well, demonstrating the full promise of the system. 
CBP is working closely with the carrier community to increase, as 
quickly as possible, their use of eManifests.
    CBP firmly believes that the current problems with the ACE pilot 
will be quickly corrected and the pilot will be operating successfully 
in the Port of Blaine. Plans have been developed to expand ACE to 
additional ports on the northern and southern land borders. Efforts are 
also underway to support 28 new carriers and service providers who have 
state their intentions to begin providing eManifests.

              AIR AND MARINE OPERATIONS--RECAPITALIZATION

    Question. A request for funding to begin the re-capitalization of 
the Border Patrol air fleet was included in the fiscal year 2006 
budget, but there is no request for the replacement of Air and Marine's 
fleet. When can we expect to see such a request?
    Answer. A program increase for re-capitalization of the Air and 
Marine Operations (AMO) fleet is not included in the fiscal year 2006 
President's Budget, however, the fiscal year 2006 AMO base budget does 
include approximately $55 million for the procurement of replacement 
aircraft and deployment of new aircraft to CBP air wings.
    Modernization of CBP air and marine assets is a priority in order 
to meet expanded missions in the areas of detection, surveillance, 
deterrence and apprehension, search and rescue, interdiction and 
Airspace Domain Security.
    CBP is currently conducting a review of AMO and Border Patrol air 
and marine missions, operations and assets with the objective of 
determining how best to allocate and manage resources. It is 
anticipated that areas of both integrated and distinct aviation and 
marine missions will be defined, and opportunities for combining fleet 
modernization requirements will be identified. The existing AMO and 
Border Patrol modernization plans will be reviewed in the context of 
supporting the updated mission needs resulting from the transition 
analysis. All opportunities for commonality of aircraft, vessels, 
facility locations, command and control, maintenance and procedural 
standards are being reviewed. Potential benefits include enhanced 
threat engagement, procurement cost efficiencies, reduced life cycle 
costs, increased mission readiness and operational performance.
    Development of a unified recapitalization plan for all CBP air and 
marine assets is will commence following completion of the integration.

                          WORKSITE ENFORCEMENT

    Question. The President's budget requests $18 million for 
Immigration and Customs Enforcement (ICE) to double the resources 
devoted to worksite enforcement. The President's budget does not 
request any additional investigators for this program. Are there a 
sufficient number of investigators to pursue any leads or cases that 
may be developed?
    Answer. ICE's fiscal year 2006 President's Budget requests $18 
million for the temporary worker program to fund 140 agents and 
investigations training. It is proposed that the agents be assigned to 
field offices nationwide primarily to conduct employer audits, examine 
and prioritize leads, prepare and deliver Notices of Inspection and 
Notices of Inspection Results, and develop employer cases involving 
administrative fines. Agents would be assigned to field offices in the 
States with the greatest number of unauthorized workers.
    The requested resources would enable ICE to increase its presence 
at worksites in specific industries and geographical areas, 
concentrating on employers who intentionally violate the law or who 
have historically hired large numbers of unauthorized workers.
    Question. Please provide the Committee with a description of ICE's 
current worksite enforcement program, including what authorities are 
being enforced and how the program is run.
    Answer. ICE worksite enforcement program activities focus primarily 
on removing unauthorized workers from critical infrastructure 
facilities to reduce the risk of terrorist attack from insiders. This 
may be accomplished through screening and arrest operations to identify 
and remove the unauthorized workers, as well as through strategic 
partnering with employers and the law enforcement entities controlling 
facility access. ICE worksite enforcement activities also target 
criminal employers whose violations have a nexus to human smuggling, 
immigration document or benefit fraud, and worker exploitation.
    The authorities being enforced generally include one or more of the 
civil and/or criminal provisions of INA 274A (Unlawful Employment of 
Aliens). Many criminal employer investigations also charge violations 
relating to harboring, smuggling, and document fraud.
    Question. Please provide the Committee with a breakout of worksite 
enforcement workload of administrative cases versus criminal 
investigations for fiscal years 1999 through 2004, including a breakout 
of the FTE devoted to this area by type of employee for those same 
years.
    Answer. Please see table below.

----------------------------------------------------------------------------------------------------------------
                                                                      Fiscal year
         Performance category         --------------------------------------------------------------------------
                                           1999         2000         2001        2002        2003        2004
----------------------------------------------------------------------------------------------------------------
Criminal Employer Cases..............      \1\ 182      \1\ 109      \1\ 239      \1\ 21       \1\ 4      \3\ 59
Notices of Intent to Fine Issued.....      \1\ 443      \1\ 213      \1\ 141      \1\ 73      \1\ 16       \1\ 3
Number of Fines Collected............      \4\ 890      \4\ 478      \4\ 292     \4\ 115      \4\ 54      \4\ 64
Fine Amounts Collected...............  \4\ $3,690,  \4\ $2,234,  \4\ $1,599,  \4\ $509,8  \4\ $212,3  \4\ $118,5
                                               575          181          323          35          22          28
Worksite Arrests.....................    \5\ 2,849      \5\ 953      \5\ 418     \6\ 816     \6\ 505     \6\ 642
Investigative Work Years (Work             \5\ 278      \5\ 202      \5\ 134     \5\ 152     \5\ 105      \5\ 90
 Year=1,695 hours)...................
Case Completions.....................    \5\ 3,844    \5\ 1,966    \1\ 1,595   \1\ 2,061   \1\ 1,490     \7\ 523
----------------------------------------------------------------------------------------------------------------
\1\ Source: LYNX.
\2\ Source: TECS.
\3\ Calculated utilizing Treasury Enforcement Comms System(TECS) records (criminal employer cases opened).
\4\ Source: Debt Management Center.
\5\ Source: PAS.
\6\ Manually calculated utilizing internal reports submitted by field offices.
\7\ Manually calculated based upon the number of completed cases in LYNX and the number of cases reported closed
  in TECS.

                           VISA SECURITY UNIT

    Question. The President's budget requests an increase of $5 million 
to expand the Visa Security Unit. The recently submitted ``Visa 
Security Program: Annual Report for 2003-2004'' talks about the 
critical need for coordination and training with the Department of 
State Consular Affairs and CBP. What mechanisms are in place to ensure 
that there is the closest possible cooperation in this program?
    Answer. The Visa Security Program (VSP) within ICE is responsible 
for implementing Section 428(e) of the Homeland Security Act, which 
calls for the deployment of DHS officers to visa-issuing posts, unless 
such a deployment would not benefit homeland security. One of their 
principal duties under Section 428(e)(1) is to provide advice and 
training to consular officers regarding specific security threats 
relating to the adjudication of individual visa applications or classes 
of applications. DHS Visa Security Officers in Saudi Arabia are 
currently providing this training, and upcoming deployments of Visa 
Security Officers will expand this activity to additional posts. In 
addition, ICE and the Department of State have designated points of 
contact at Headquarters who coordinate closely on issues including 
consular training. A representative from the Visa Security Program has 
briefed each graduating class of consular officers since October 2004.
    VSP also coordinates with CBP on several operational levels. Visa 
Security Officers regularly utilize the National Targeting Center as a 
supporting element in their in-depth review of visa applications. In 
addition, CBP officers have served temporary details at Headquarters 
and in the field. Finally, VSP has opened announcements for permanent 
positions to both ICE and CBP officers in order to recruit officers 
with a full range of immigration enforcement skills to serve overseas 
as Visa Security Officers.
    The President's requested increase of $5 million in fiscal year 
2006 will fund expanded VSP operations in the field and at 
Headquarters, to include its consular training responsibilities.
    Question. In August of 2004, the Department of Homeland Security's 
Office of Inspector General issued an evaluation of DHS activities to 
implement section 428 of the Homeland Security Act of 2002. This 
evaluation included a number of recommendations to improve the workings 
of the Visa Security Officers. What is the status of implementing each 
of the recommendations in that report?
    Answer. Since the DHS Inspector General's (IG) evaluation in late 
2003, shortly after the initial deployment of officers to Saudi Arabia, 
Visa Security Program operations in Saudi Arabia have made significant 
progress. Of the IG's twelve recommendations, three had been closed at 
the time of the report's publication. The remaining nine 
recommendations were resolved, and remain open while they are 
implemented. Below is an update on each of the IG's recommendations.
    Recommendation 1.--Develop a curriculum of homeland security 
training for consular officers consistent with the requirement in 
Section 428(b)(1) of the Act.
    ICE is working to develop homeland security training for consular 
officers. A VSP's program development staff member has attended the 
Basic Consular Training Program at the Department of State's (DOS) 
National Foreign Affairs Training Center (NFATC) as a basis for ICE's 
recommendations to DOS about consular training. VSP staff also held a 
curriculum development conference with training experts from the 
Federal Law Enforcement Training Center (FLETC) and ICE Academy to plan 
the development of the consular training program. Since October 2004, 
VSP leadership has been addressing each graduating class from the Basic 
Consular Training Program, to introduce them to the visa security 
mission and to prepare them to work with Visa Security Officers in the 
future.
    Recommendation 2.--Develop a training program for Visa Security 
Officers (VSOs) that includes foreign languages, country studies, and 
interview and fraud detection techniques.
    Working with the ICE Academy and FLETC, VSP developed a 4-week 
training curriculum for Visa Security Officers, incorporating the IG's 
content recommendations. With specific regard to language training, 
ICE's VSO selection criteria will continue to emphasize language 
ability, and VSP will continue to exercise best efforts to provide 
additional language training where necessary.
    Recommendation 3.--In coordination with DOS, develop performance 
standards to evaluate consular officers.
    ICE continues in an audit capacity, to advise DOS on consular 
performance evaluation. A VSP staff member recently attended Basic 
Consular Training to assess how consular officers currently are trained 
and evaluated.
    Recommendation 4.--Develop written criteria for assigning VSOs to 
other countries.
    Closed. ICE established such criteria in early 2004, and the OIG 
closed this recommendation as it published the report in August 2004.
    Recommendation 5.--Assign responsibility to develop and publish the 
report to Congress required by Section 428(e)(4).
    ICE/VSP will prepare the report, and BTS will submit the report to 
Congress.
    Recommendation 6.--Conduct a study of the personnel management 
techniques used by other agencies with a global workforce and evaluate 
ways to facilitate the overseas rotations of DHS employees.
    DHS is continuing to evaluate its international presence. No 
specific policy recommendations have yet been announced.
    Recommendation 7.--Discontinue the practice of filling the VSO 
positions with temporarily assigned officers and move toward filling 
the positions with permanently assigned officers.
    VSP has announced and selected positions for Saudi Arabia. VSP will 
announce permanent positions for all future offices.
    Recommendation 8.--Establish criteria for selecting VSOs based on 
required experience and skill sets to support the visa security 
operation.
    Closed. ICE established such criteria in early 2004, and the OIG 
closed this recommendation as it published the report in August 2004.
    Recommendation 9.--Establish a funding mechanism to ensure that the 
visa security operations receive all required support and that DOS is 
promptly reimbursed for the support that it provides.
    VSP has received funding in fiscal year 2005 for its existing posts 
in Saudi Arabia and for expansion to four additional locations. This 
will become the base for fiscal year 2006 and the out-years for all 
locations opened in or already in operation as of fiscal year 2005. To 
facilitate administrative coordination, DOS and VSP recently signed a 
Memorandum of Agreement that explains how reimbursements and other 
administrative matters will be handled.
    Recommendation 10.--Propose a technical correction to Section 
428(i) to align it with Section 428(e) and permit DHS to review only 
those applications with homeland security interest in Saudi Arabia.
    Closed. The OIG agreed with ICE's position that the legal 
requirement to review all visa applications in Saudi Arabia should not 
be modified. The OIG closed this recommendation as it published the 
report in August 2004.
    Recommendation 11.--Evaluate the possible benefit of analyzing the 
existing visa applications in DOS files of young Saudi males who were 
issued visas in the 2 year period prior to September 11, 2001. BTS 
should coordinate with DOS, the FBI, and other Federal agencies, as 
necessary, before making a determination about whether, or how, to 
proceed to analyze the applications.
    ICE agrees that there may be value in reviewing certain 
applications submitted in Saudi Arabia in the 2 years prior to 
September 11, 2001. DHS is still evaluating whether or how to proceed 
with such an analysis.
    Recommendation 12.--Develop an interface between BTS and DOS 
computer systems that permits a fast and efficient method to automate 
the visa security name check process and eliminate the duplicative data 
entry for database checks.
    ICE has been working with DOS to improve information sharing and 
access and has succeeded in virtually eliminating the manual data entry 
that the IG observed in late 2003/early 2004. VSP is working with DOS 
to further enhance regular information sharing and expects the new 
process to be in place in the third quarter of fiscal year 2005.

                         OVERHEAD COST SHARING

    Question. Last fiscal year and this fiscal year, ICE plans to 
charge a portion of the headquarters overhead costs to the Federal 
Protective Service (FPS) and the Federal Air Marshals (FAMS). On what 
basis were the overhead charges calculated to ensure that those 
organizations were paying for services they received on a basis 
proportionate to their usage?
    Answer. Early in the fiscal year, FPS and/or FAMS were expected to 
provide funding for overhead based for the actual costs for services. 
The headquarters (HQ) overhead costs are allocated to the ICE 
components using full-time equivalents (FTE), at the beginning of the 
fiscal year, to construct the proration percentages. Following a review 
of the overhead costing issue for the FAMS and FPS, a final decision 
was made that the FAMS and FPS would only pay for services actually 
being utilized. However, they will not be assessed an overhead charge 
in fiscal year 2005.
    Question. Will this become a permanent charge to FPS and FAMS? If 
so, why are no additional resources being requested to ensure that the 
funds are available to pay these bills?
    Answer. All ICE Programs, Projects and Activities (PPAs) should be 
expected to share HQ overhead costs for the overhead services that ICE 
provides. However, for fiscal year 2005 there will not be an assessment 
for FPS and FAMS.
    HQ overheads are covered out of base appropriated funds. 
Additionally, every new enhancement request includes funds for HQ 
overhead in the modular costs used to compute the enhancement.
    Question. Will this have an adverse impact on the ability of the 
FAMS to maintain its staffing levels?
    Answer. No, the FAMS are not being assessed an overhead charge.

                          FUGITIVE OPERATIONS

    Question. The President's budget requests an increase of $8.8 
million to expand the capabilities of the fugitive operations teams. In 
answer to questions submitted after last year's hearing, ICE stated 
that the strategic plan called for the elimination of the 400,000 
fugitive backlog within 10 years based on significant increases in the 
fugitive program.
    What impact are the continued funding shortfalls having on the 
Office of Detention and Removals' ability to implement that plan?
    Answer. ICE continues to track and apprehend fugitives and continue 
to surpass goals and previous year's statistics. However, some existing 
teams need additional staff that have not yet been hired, and no new 
teams have been deployed. When corrected later this year, this delay 
will have no effect in meeting the 10-year plan.
    Question. Does the fiscal year 2006 budget request include 
sufficient resources for ICE to continue making progress in locating 
and deporting absconders?
    Answer. Yes. The fiscal year 2006 Budget will allow ICE to show 
significant progress in locating, apprehending and removing absconders.
    Question. Has ICE been able to move ahead with the data integrity 
projects related to the absconder records despite the funding 
situation? What results have been seen from the data integrity 
projects?
    Answer. ICE has been investigating data integrity issues with the 
records of absconders. ICE drew random samples of records of aliens 
with an unexecuted order of removal that did not indicate that the 
alien was an absconder. There are approximately 130,000 such alien 
records (does not include aliens with an acceptable reason for an 
unexecuted order). The samples indicated that almost 70 percent of 
those aliens were absconders. The absconder statistics have been 
revised accordingly. DRO estimates that the absconder population on 
September 30, 2004, was 465,353 aliens.
    ICE believes that the new data system to track aliens in removal 
proceedings (EREM) will address many of the data integrity concerns. 
The data system will be easier to use which will encourage completeness 
and accuracy. It will also be more tightly integrated with the work 
process used in an alien's case.

                          FEDERAL AIR MARSHALS

    Question. On January 27, 2005, ICE announced the creation of the 
Federal Air Marshals (FAMS) Advisory Board. The advisory board will 
provide information and recommendations on key FAMS policy and 
operational issues. Some of the issues the FAMS Advisory Board will 
initially address are hiring, dress code, technology, the FAMS role in 
airport security and the FAMS career ladder within ICE. When does ICE 
expect that the advisory board will begin making recommendations on 
some of these issues?
    Answer. While it is difficult to predict with specificity when the 
FAMS Advisory Board will be prepared to make recommendations, the Board 
is currently meeting on a regular basis. One of the objectives of the 
Board is to increase the pace of the FAMS integration into ICE. To that 
end, the Board hopes to be in a position to make recommendations in the 
near future.

                     INSTITUTIONAL REMOVAL PROGRAM

    Question. What progress has been made in transitioning the 
Institutional Removal program from the Office of Investigations to the 
Office of Detention and Removals?
    Answer. In the planning for the transition of responsibility from 
the Office of Investigations (OI) to Detention and Removal Operations 
(DRO), a review of performance standards and available resources was 
completed.
    This review found less than 50 percent of criminal aliens were 
being identified and removed from the United States (comparing State 
Criminal Alien Assistance Program (SCAAP) numbers to the Performance 
Analysis System (PAS)).
    The prior performance standard based on the number of aliens 
removed is not reflective of the function of the Criminal Alien Program 
(CAP). The performance standard for DRO will be the percentage of 
incarcerated foreign born screened for removal. A performance level of 
90 percent of all foreign-born incarcerated in Bureau of Prisons, State 
department of corrections and mega-counties (areas with populations 
over 1 million) will provide a high level of coverage throughout the 
United States. Smaller population areas would be encouraged to 
participate in 287(g) programs or video teleconferencing with newly 
established VTC centers.
    After careful consideration, DRO determined that a state-by-state 
approach would be the most effective way to ensure a successful 
transition. By approaching the transition on a State level, staffing 
plans and proactive communications with relevant State agencies can 
enhance the productivity and workflow.
    The State of New York was determined to be the first State to 
transition because of the existing work force available in DRO to 
assist in covering the City of New York. DRO assumed sole 
responsibility for the City of New York Department of Corrections (NYC 
DOC) on December 17, 2004. With ten facilities, one satellite facility 
in Bronx, 120,000-130,000 inmates admitted annually and with an average 
daily population of 15,000, NYC DOC is one of the largest detention 
programs in the United States.
    The transition at NYC DOC has been remarkably smooth and in the 
first quarter of fiscal year 2005, improvements have been substantial. 
In the last quarter of fiscal year 2003, prior to the transfer, 921 of 
3,542 incarcerated aliens were screened (26 percent). In the first 
quarter of fiscal year 2005, there were 1,866 of the 2,696 incarcerated 
aliens screened (69 percent). Though well below the stated performance 
level; significant progress has been made without additional staffing. 
As staffing becomes available, NYC DOC operations will achieve the 
target level of screening.
    The State of New York effort has provided an excellent blueprint 
for subsequent transfers, and using the lessons learned, DRO has 
completed transfer plans for California, Florida, Illinois, Arizona and 
New Mexico.
    Question. Are there other ways ICE could be working with State and 
local officials to improve communication in order to identify 
incarcerated aliens in a more timely manner?
    Answer. In the planning for the transition of responsibility from 
the Office of Investigations (OI) to Detention and Removal Operations 
(DRO), a number of possible communications enhancements have been 
explored by DRO.
    The most basic approach to improve communications is and continues 
to be open, face-to-face dialogue with the local and State officials to 
determine the needs and requirements of both parties, to establish an 
approach to accomplish the mutual goals, and to maintain an open line 
of communication between the parties.
    During the planning for the State of New York, ICE met with State 
officials that oversee the entire New York State Department of 
Corrections, Parole and Probation and the State Police. These 
discussion have led to an enhanced streamlined approach to processing 
aliens, centralized release of aliens to ICE custody, created a 
procedure for State of New York Parole to compare information and 
update their information based on removal information and opened the 
dialogue to continue improvements in the areas of conviction documents, 
appeal processes in State courts and new procedures for automated 
immigration status checks. Dialogue has already been started with the 
State of California and a meeting between ICE/DRO and the Assistant 
Chief of Staff of the Governor's office has been planned for the end of 
March.
    ICE has also investigated whether the 287(g) program by State and 
local governments is another opportunity to train local law enforcement 
in the authorities as well as what the information provided to them 
means. The Immigration and Nationality Act (INA) and supportive data 
bases can be confusing to experienced officers, much less individuals 
that have not had years of experience in these issues. The formalized 
training allows for concise communication of status to ensure proper 
enforcement of the INA. Expansion of the 287(g) program has a direct 
impact on the DRO program through the additional identification of 
individuals amenable to removal.
    The PEGASUS program is operated under a COPS grant and allows a new 
venue to share information with local and State authorities. The 
program provides Sheriffs and municipal law enforcement with secure 
access to other participating law enforcement agency databases. Through 
recent presentations, DHS is considering how best to incorporate parts 
of our databases to assist identification of aliens amenable to removal 
as well assist DHS in our mission. The databases in question would 
definitely include the Deportable Alien Control System (DACS) and would 
allow an automatic data search system via a ``pointer system''. The 
possibilities of an automated system would greatly enhance the 
identification of aliens in removal proceedings and those already 
removed. The extent of the data sharing that DHS is willing to consider 
is still under review.
    The Law Enforcement Support Center (LESC) continues to provide a 
one-stop location for searching several data systems. The LESC, 
currently operated by OI, accepts queries from a multitude of law 
enforcement agencies and sends responses back to the originating 
agency. In cases where the alien in question is identified as a 
removable alien, a detainer is placed by the LESC for the local DHS 
office to pursue appropriate removal action.

                       FEDERAL PROTECTIVE SERVICE

    Question. The Federal Protective Service (FPS) has been in the 
midst of a very difficult transition from the General Services 
Administration's (GSA) financial management system to that of ICE.
    Given the financial problems of ICE, which extend to not having 
proper internal fund controls, why wasn't more consideration given to 
having FPS continue to use the GSA financial system for at least 1 more 
year, or until eMERGE2 was ready?
    Answer. The Department of Homeland Security, Office of the Under 
Secretary for Management, initially directed that the FPS transition 
from the GSA financial management system be completed by October 1, 
2003. Following the initial review of the unique financial management 
requirements needed to support the FPS offsetting collections program, 
the transition date was extended to October 1, 2004. At the time that 
this decision was made, ICE felt that the additional year for planning 
the transition would be sufficient to avoid any major problems. The GSA 
and ICE Financial Management staffs worked closely to plan for a smooth 
transition. However, the technical financial and accounting differences 
between the GSA and ICE financial systems proved to be much greater 
than either agency had anticipated. The ICE Financial management staff 
has been following an aggressive plan and timetable to complete the FPS 
transition by September 30, 2005.
    With regard to the specific financial situation, specific planning 
milestones called for a successful transition of FPS to ICE, as agreed 
with GSA, FPS and ICE. This plan was successful, with the only 
contributing factor being data transmission problems from GSA. That 
situation exacerbated payment problems in the ICE transition. Much of 
the data from the GSA financial system has had to be manually uploaded 
into the ICE system, requiring additional quality assurance steps to 
maintain the highest level of data integrity.
    Question. The current remediation plan for fixing the financial 
problems at FPS call for the reconciliation of payments to be finished 
by March 31, 2005. How will this plan solve all of the problems and 
ensure that contractors will get paid in a timely manner?
    Answer. In addition to a full reconciliation of FPS payments, ICE 
is convening a high level working group to address the financial 
problems at FPS. This group will evaluate and make appropriate changes 
in the business process flow to ensure that contractors are paid timely 
and that financial events are properly and timely recorded. ICE will 
continue to work with GSA to resolve any discrepancies in the balances 
transferred. A full reconciliation of financial activities is 
anticipated by September 30, 2005.

                            HUMAN SMUGGLING

    Question. What is ICE doing in the area human smuggling? What has 
happened in the Carreto case that was the subject of a recent CBS News 
report?
    Answer. Recognizing that global human smuggling is of the nature of 
organized crime, ICE has employed Task Force methodologies to attack 
and dismantle the operations and networks that profit from these 
crimes. An example of this methodology is Operation ICE Storm in 
Phoenix, Arizona. ICE, in conjunction with partners in the Federal, 
State, local and foreign law enforcement community, has initiated a 
task force to address widespread violence, kidnapping, extortion, and 
other crimes associated with human smuggling. By vigorously applying 
its money laundering authorities, ICE and our State and local and 
partners in Arizona have deprived human smuggling organizations of 
nearly $7.3 million of their criminal proceeds. Since the inception of 
ICE Storm in October 2003, over 320 persons have been prosecuted for 
human smuggling and related crimes and over 170 firearms have been 
seized. Over 6,700 smuggled aliens have also been arrested and removed 
from the United States.
    ICE is fully supporting the Arizona Border Control (ABC) 
Initiative, which was developed to focus on criminal organizations and 
supporting infrastructures that are currently exploiting the Arizona 
region. ICE's role in this initiative, which is being coordinated 
closely with other BTS components as well as State, local and foreign 
law enforcement agencies, focuses on interdiction and investigation 
efforts to target human and contraband smuggling organizations 
operating near the Arizona/Mexico border. To date, a total of 635 
individuals have been prosecuted as a direct result of those 
enforcement efforts. In addition to what has already been seized under 
ICE Storm, approximately $2.1 million in U.S. currency has been seized 
and 26 weapons have been removed from the streets.
    Since July 2004, ICE has implemented the LAX Initiative, which was 
developed to address the human smuggling organizations using the Los 
Angeles International Airport. This operation targets not only the 
vulnerabilities of airline and border security, but related financial 
institutions and support industries directly affected by the identified 
criminal activity. ICE has seized approximately $1.2 million in U.S. 
currency, 486 undocumented aliens have been arrested, and there have 
been 11 Federal prosecutions in connection with these enforcement 
efforts.
    At this time, we cannot comment on the Carreto case, since it is an 
ongoing criminal investigation.

                         BACKLOG REDUCTION PLAN

    Question. CIS has reduced the benefit application backlog to 1.5 
million cases, down from a high of 3.8 million cases in January of 
2004. What is the plan for maintaining a 6-month average processing 
time--once dollars are no longer specifically set aside for this 
purpose?
    Answer. USCIS is in the process of reengineering its business 
practices to ensure that it will be more efficient and effective. USCIS 
also plans to invest in IT transformation efforts, including a new case 
management system, to build the necessary infrastructure to ensure that 
backlogs do not return for the foreseeable future. Finally, USCIS has 
recently completed an in-depth staffing requirements analysis which 
will ensure that each USCIS office receives the appropriate amount of 
staff necessary to maintain the 6-month cycle time standard.
    Question. What assurances do we have that the productivity gains 
are not coming at the expense of quality, that the right decisions are 
still getting made by the adjudicators?
    Answer. Backlog elimination efforts will not come at the expense of 
national security or adjudicative integrity. USCIS has struck a solid 
balance in this area by ensuring that processes facilitate legal 
immigration, while preventing those who would misuse the system from 
entering or remaining in the United States. It is imperative that the 
integrity of the benefits process not be compromised in the effort to 
stimulate additional productivity.
    Efforts to benchmark and assure quality are at the heart of every 
production initiative. For example, USCIS is committed to attacking 
benefit fraud and has created an Office of Fraud Detection and National 
Security (FDNS) specifically to lead USCIS efforts in this area. FDNS 
will assist USCIS adjudicators in verifying applicant and petitioner 
information, and will work cooperatively with ICE to ensure that fraud 
schemes are identified and referred to ICE for criminal investigation 
and prosecution. USCIS field officers have been instructed to issue 
Notices to Appear for removal proceedings in instances where an 
applicant or beneficiary has attempted to defraud the government.

                            CUSTOMER SERVICE

    Question. In order to improve customer service, CIS is working on 
improving the ability of beneficiaries to interact with the Department 
of Homeland Security electronically. USCIS has now expanded electronic 
filing to support 50 percent of the total volume of benefit 
applications. When is the next expansion of the online filing of 
benefit applications planned?
    Answer. The e-filing system currently includes 8 application form 
types, which represent approximately 50 percent of the USCIS workload. 
The e-filing application volume has doubled each year since its 
inception. The current phase entails enhancing system functionality and 
capabilities, which will include accepting Premium Processing filings 
of the Immigrant Petition for Alien Worker (Form I-140) in the third 
quarter of this fiscal year.
    Question. Which applications does CIS plan to add next?
    Answer. USCIS intends to expand e-filing, but has not yet 
determined which applications will be targeted for the next e-filing 
phase.
    Question. What are the current plans for re-designing and re-
launching the CIS website?
    Answer. USCIS is creating a consolidated ``Customer Service 
Portal'' to integrate and align all public-facing USCIS websites. The 
current USCIS web configuration of ``core'' USCIS.gov content was 
completed in 1998. While the core content is continually refreshed, its 
underlying information architecture (IA) has never been refreshed. 
Moreover, three additional USCIS customer service websites, each adding 
a valuable new service, were appended onto USCIS.gov. However, their 
development was not integrated into the core website due to technical 
limitations at the time.
    This new project will enhance the ability to manage the USCIS.gov 
web content; enforce the DHS branding guidelines; standardize the 
presentation of all USCIS.gov web content as being part of ``One Voice, 
One Face, Many Channels,'' and help initiate the development of a 
comprehensive USCIS-wide web governance.
    The development of the USCIS customer service portal will be 
conducted in phases. The initial phase of the project seeks to enhance 
USCIS.gov content by developing a comprehensive information 
architecture (IA) within which all current and anticipated USCIS.gov 
web content and e-services may be organized. The initial phase includes 
standing up a refreshed, customer-oriented USCIS.gov in the newly 
developed environment, with emphasis placed on the requirements of the 
USCIS Office of Communications. Additional phases will concentrate on 
the development of the consolidated web portal, and the requirements of 
other organizations providing content to USCIS.gov and integrating, to 
the degree possible, content from the three service-oriented websites, 
InfoPASS, Customer Relationship Interface System (CRIS), and e-Filing 
into USCIS.gov. As of March 2005, the project has been funded by the 
USCIS Senior Review Board. A Statement of Work for all phases of the 
project is currently being drafted, and USCIS anticipates awarding the 
contract in fiscal year 2005.
    Question. What is the status of the initiative to begin electronic 
adjudication of Temporary Protected Status applications?
    Answer. The electronic adjudication of Temporary Protected Status 
(TPS) applications began with the re-registration of TPS applicants 
from Honduras and Nicaragua on November 6, 2004, and continued with 
applicants from El Salvador on January 5, 2005. The next designated TPS 
country eligible for electronic adjudication is unknown at this point 
in time.

            OFFICE OF FRAUD DETECTION AND NATIONAL SECURITY

    Question. Please provide a detailed update on the establishment and 
expansion plans for the Office of Fraud Detection and National Security 
(FDNS).
    Answer. USCIS Director Eduardo Aguirre created the Office of Fraud 
Detection and National Security (FDNS) to implement two high priorities 
that support the USCIS mission:
  --Conducting effective background checks on persons seeking 
        immigration benefits, and;
  --Detecting and combating immigration benefit fraud.
    Background: In fiscal year 2004, FDNS developed and implemented a 
joint anti-fraud strategy and initiative with the Bureau of Immigration 
and Customs Enforcement (ICE). To support this effort, the FDNS 
developed the necessary policies, procedures, and organizational 
structure. This included incorporating the staffs of the Service Center 
Fraud Detection Units (FDU) with the allocation, deployment, hiring, 
and training of over 150 new employees at field and headquarters 
locations throughout the interior United States starting in fiscal year 
2004. The present staff of the FDNS is 222 permanent and term 
appointment employees. Of the new employees, 110 are field office 
Immigration Officers located within Districts, Sub-offices, Regional 
offices, and Headquarters. Within the FDUs and Headquarters, FDNS has 
61 Intelligence Research Specialists and 30-term appointment 
Investigative Assistants. The remaining staff provides administrative 
and management support to the field officers and are located within the 
FDUs and Headquarters offices. Utilizing fees generated from the H-1B 
and L Visa Reform Act of 2004, USCIS plans to fill 160 FDNS positions. 
These new positions will enable FDNS to make adjustments to current 
staffing and provide specific levels of support for both the anti-fraud 
and national security operations.

Fraud
    The primary objective of the anti-fraud operation is to detect and 
combat immigration benefit fraud by referring articulated leads to ICE 
for criminal investigation, and conducting administrative inquiries 
when ICE rejects a request for investigation. The primary duty of an 
FDNS Immigration Officer (IO) is to review fraud-based leads referred 
by adjudicators and other sources. This review consists of performing a 
variety of system checks, including data mining; conducting field 
administrative inquiries, which includes interviewing various entities; 
and supporting criminal investigations conducted by ICE and 
prosecutions by U.S. Attorneys. It also includes placing individuals in 
removal proceedings when fraud is verified, collecting and analyzing a 
variety of intelligence data, and posting look-outs on individuals 
involved in fraud conspiracies. By removing cases containing elements 
of fraud from the mainstream adjudications process, adjudicators are 
able to concentrate their expertise on applicants and petitioners 
deserving of, and eligible for, the benefits sought. Thus, this anti-
fraud effort will improve the quality of adjudications, increase 
productivity, and reduce cycle times. The 160 new positions will enable 
FDNS to:
  --Place FDNS IOs in the largest districts and each center, where the 
        overwhelming majority of immigration benefit fraud exists, as 
        well as in most of the sub-offices.
  --Put a position in the Department of State's Fraud Prevention 
        Program Office in Washington, DC, to enhance inter-departmental 
        fraud detection and planning efforts.

National Security
    Shortly after the terrorist attack of September 11, 2001, USCIS 
implemented a policy requiring the completion of background checks on 
applicants, petitioners, beneficiaries, and other individuals seeking 
immigration benefits. The National Security Unit has developed, and is 
implementing, a new policy and process pertaining to the 
identification, reporting, and resolution of IBIS national security 
hits. The Interagency Border Information System (IBIS) is the primary 
tool used to conduct background checks on applicants, petitioners, 
beneficiaries, and other individuals seeking immigration benefits. 
Currently, FDNS is conducting a pilot to test the electronic/paperless 
resolution of background checks and the entry and check of all aliases 
at the front end of the adjudication process.
    Question. How are the relationships working with the Department of 
State and Immigration and Customs Enforcement?
    Answer. ICE and the Department of State (DOS) have a productive 
working relationship and coordinate on issues of visa security as well 
as critical law enforcement issues often involving foreign governments. 
For example, ICE is working closely with DOS to develop and implement a 
``diplomatic'' strategy to encourage several countries to accept 
repatriation of their citizens when they are ordered removed from the 
United States. Additionally, ICE works closely with DOS and other 
agencies as members of the Human Smuggling and Trafficking Center to 
synthesize intelligence, law enforcement and other information to bring 
effective international action against smugglers, traffickers of 
persons and criminals facilitating terrorists' clandestine travel. In 
U.S. embassies around the world, a network of ICE attaches, who with 
DOS, are working with their counterparts in foreign law enforcement 
agencies combating transnational crimes involving national security, 
financial, smuggling, illegal arms exports, forced child labor, child 
pornography, human trafficking, intellectual property rights, 
commercial and immigration fraud violations. ICE looks forward to 
continuing and expanding the collaborative relationship with DOS to 
further safeguard our borders and the American people.
    Question. Please explain what the FDNS fraud tracking system will 
be? Who will have access to this system? What are the timeline and 
major milestones for development of the system?
    Answer. FTS Requirements:
  --The ability to maintain and report on fraud lead and case data in a 
        central repository that is available at a national level to all 
        FDNS staff and authorized external agencies
  --The ability to reference benefits application data related to the 
        subject of a case
  --The ability to share case and lead data on validated fraud cases 
        with fraud investigators at ICE
  --The ability to perform reactive and ad-hoc data searches against 
        benefits claims data
  --The ability to perform data mining analysis on benefits claim data
  --The ability to define fraud profiles and apply them against 
        incoming application receipts
  --The ability to track fraud profile matches and analyze data 
        commonalities
  --The ability to generate and report information for management use
  --The ability to generate and automatically report G22 statistics for 
        FDNS
    Access.--FTS is being sized to accommodate up to 500 simultaneous 
users. This will accommodate the current 222 FDNS field staff, 
supervisors, managers and support staff located in geographically 
disparate locations nationwide, but also potential expansion. It will 
also accommodate information sharing with other agencies such as the 
FBI, CIA, Department of State, and other DHS and intelligence entities 
with need to access this information for national security and law 
enforcement purposes.

                                            MILESTONES AND TIMELINES
----------------------------------------------------------------------------------------------------------------
                                                                       Days            Start            End
----------------------------------------------------------------------------------------------------------------
Discovery Stage.................................................               7         2/18/05         3/17/05
Design Stage....................................................              13         2/18/05         3/25/05
Configuration Stage.............................................              18         3/10/05         4/04/05
Validation Stage................................................              15         3/22/05         4/11/05
Deployment Stage................................................               4         4/12/05         4/15/05
----------------------------------------------------------------------------------------------------------------

    Question. Please provide a detailed plan for the development and 
rollout of the benefit fraud assessment tool, including timelines and 
milestones.
    Answer. U.S. Citizenship and Immigration Service's (CIS) Fraud 
Detection and National Security (FDNS) Unit will implement a Benefit 
Fraud Assessment program (BFA). This program was approved in February 
2005, and will be implemented in various phases through October 2005. 
ICE supports FDNS conducting the BFA so that ICE can direct its 
resources to investigating/prosecuting actual benefit fraud violators.

                         OFFICE OF CITIZENSHIP

    Question. Please provide the following information regarding the 
Guide for New Immigrants: which languages will the guide be produced 
in; how many will be printed in each language in the initial run; how 
will the guides be distributed electronically and physically; what is 
the timeline for translating the guide into each of the planned 
languages; and what is the timeline for producing hard copies in each 
language.
    Answer. To ensure that immigrants from a variety of language groups 
have access to the Guide, the Office of Citizenship will translate the 
English version of the Guide into ten (10) languages--Spanish, Chinese, 
Vietnamese, Tagalog, Portuguese, Russian, French, Korean, Haitian 
Creole, and Arabic.
    Hard copies of the Spanish and English versions of the Guide will 
be available for purchase through the Government Printing Office (GPO), 
and all other versions will be accessible online. In order to initially 
market the product, the Office plans to print approximately 250,000 
copies of the English guide and 150,000 copies of the Spanish guide.
    In addition of the current availability of the English Guide online 
(additional languages to be posted as translations are completed) the 
Office is coordinating a national mailing list of community and faith-
based organizations, immigration service providers, State and local 
contacts and adult educators in an effort to disseminate the Guide 
nationally. USCIS Community Liaison Officers and local field Directors 
will also receive copies of the Guide for additional local 
dissemination. GPO order forms will also be included as part of the 
dissemination effort. In addition to planned dissemination efforts, the 
Office also plans to implement a comprehensive outreach/public 
education effort in key communities. These events will be strategically 
located according to where the centers of the various foreign language 
communities are. Plans include high-profile events in: Los Angeles for 
the Spanish version (May); San Francisco for the Chinese, Tagalog, and 
Vietnamese versions (May); New York City for the Russian and Korean 
versions (July); and Detroit/Dearborn for the Arabic version (August).
    Spanish translation should be completed in April; Chinese, Tagalog 
and Vietnamese will be completed in May; Russian, Korean and Arabic 
will be completed in June; and Portuguese, Haitian Creole and French 
will be completed in July.
    Hard copies of the English and Spanish guides will be available in 
June. All other translation will be available online late summer. There 
are currently no plans to print hard copies of the additional 
languages.

                                STAFFING

    Question. Please provide a complete FTE staffing plan for fiscal 
year 2005 and 2006, including but not limited to; location (i.e., 
District Office, Service Processing Center, etc), position type (i.e., 
Immigration Information Officer, Adjudicator, etc), and physical 
location (i.e., Burlington, VT; Dallas, TX; etc).
    Answer. Please see tables provided below. 
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question. Please provide a breakout of attrition rates for each of 
fiscal years 2003, 2004, and 2005 by type of position and location.
    Answer. USCIS only has attrition rates for fiscal year 2004. For 
the major position types, they are:
  --Adjudications Officer: 2.3 percent
  --Asylum Officer: 6.1 percent
  --Asylum/Adjudications Clerk: 2.3 percent
  --Immigration Information Officer/Customer Service
                Representative: 1.2 percent
    Data is not available by location.
    Question. Please provide a chart with the numbers and types of 
employees that have been trained at Glynco, GA for each of fiscal years 
2003, 2004, and 2005.
    Answer:

------------------------------------------------------------------------
                                                            Fiscal year
              Position type                 Fiscal year        2005
                                               2004         (estimate)
------------------------------------------------------------------------
Adjudication Officer....................             751           1,098
Asylum Officer..........................             116             170
Immigration Information Officer.........             142             207
Other...................................              58              85
                                         -------------------------------
      Total.............................           1,067           1,560
------------------------------------------------------------------------
Fiscal year 2003 data is not available.

                              CALL CENTERS

    Question. Please provide a chart with the number of contractors 
assigned to each call center for fiscal years 2004 and 2005.
    Answer. USCIS does not determine the number of contractors assigned 
to each contract call center. Under our contract, the vendor is 
required to have sufficiently trained staff to meet our performance 
requirements, and is responsible for determining the placement and size 
of each of its operations.
    Question. Please provide a chart for each of fiscal years 2004 and 
2005 of the total number of calls received by call center, broken out 
by type of call.
    Answer. USCIS has two kinds of call centers. Contract call centers, 
which provide initial live assistance, and USCIS staffed call centers, 
which answer questions that cannot be answered by the contract staff.
    Our contract call centers operate as one. We do not route calls to 
our general customer service line based on the nature of the call, but 
based on agent availability. Calls are routed to the next available 
agent with the appropriate language skills regardless of location. 
Thus, staff scheduling, availability and performance affect call 
routing, not the nature of the call. USCIS, therefore, does not track 
information by type of call.
    The table below shows the volumes and percentage of live assistance 
calls handled by staff at each of the four (4) contract call centers 
for fiscal year 2004 and fiscal year 2005 (through mid-March).

----------------------------------------------------------------------------------------------------------------
                                                               2004                  2005 (through mid-March)
                                                 ---------------------------------------------------------------
                                                      Volume          Percent         Volume          Percent
----------------------------------------------------------------------------------------------------------------
Phoenix, Arizona................................       1,269,059            16.0         531,867            17.1
Lawrence, Kansas................................       1,534,164            19.3         636,945            20.4
Corbin, Kentucky................................       4,800,717            60.5       1,809,688            58.1
Arlington, Virginia.............................         334,911             4.2         138,153             4.4
Total live assistance calls handled by contract        7,938,851  ..............       3,116,653  ..............
 call centers...................................
Total calls received to USCIS...................      21,295,256  ..............       8,454,022  ..............
Percent of total calls that were handled by       ..............            37.3  ..............            36.9
 contract call centers..........................
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

               Questions Submitted by Senator Ted Stevens

                        ICE--CYBER CRIME CENTER

    Question. Last year, $4.2 million was secured in the fiscal year 
2005 Homeland Security Appropriations Act to expand the ICE Cyber Crime 
Center to ICE field offices. Are these funds at risk of being diverted 
to address the base budget shortfall within ICE this fiscal year?
    Answer. At this time, it is ICE's intent to execute the entire $4.2 
million in fiscal year 2005 for the purpose for which it was 
appropriated.

                          IMMIGRATION SERVICES

    Question. With the split of immigration and enforcement functions 
precipitated by the creation of the Department of Homeland Security, 
Alaska's capitol, Juneau, was left with no personnel to provide 
immigration services. Without immigration services, immigrants are 
forced to fly to Anchorage to access services. What steps have been 
taken by the Homeland Security Department to ensure Juneau's need for 
immigration services will be met?
    Answer. Since the creation of USCIS, the agency has met the needs 
of Juneau and other distant communities of Alaska by sending an officer 
2 or 3 times each year on periodic circuit rides to conduct benefits 
interviews, naturalization ceremonies, and community outreach. USCIS 
has recently expanded the circuit rides to 4 times a year, even though 
there were only 400 Naturalization and Adjustment of Status cases in 
the entire District in the first quarter of this year. The most recent 
trip was in November 2004, and there are trips to Juneau scheduled for 
April, August, and October of 2005. The current cycle times are just 
over 6 months for naturalization, and just under 6 months in Adjustment 
of Status cases.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

                           LAND PORT OF ENTRY

    Question. America has 197 land ports of entry, and it has been 
almost 20 years since we launched a major effort to upgrade 
infrastructure at those ports. That last effort occurred in 1986--
almost 15 years prior September 11, 2001.
    Since September 11, we have placed increasing emphasis on upgrading 
protective measures for our airports, seaports, and critical 
infrastructure. It is imperative that we also improve land port 
security if we are going to be successful in the war on terror. To that 
end, I intend to introduce a bill which will authorize additional funds 
for investment in our Nation's border crossings.
    Have you considered what kinds of improvements are necessary at our 
land ports of entry and how much these upgrades might cost?
    Answer. CBP has initiated a Construction Master Planning Process 
that will allow for increased security at the Nation's borders by 
providing critical facility and infrastructure improvements that are 
prioritized using a rigorous capital investment planning process.
    The planning methodology and resulting allocation of construction 
projects will optimize available resources to support the expanded 
methods of CBP operations and comprehensive border enforcement 
strategy. The construction planning process aligns with the DHS mission 
and strategy, forecasted future growth, identify and justify required 
projects and estimate their associated costs. The CBP Construction 
Master Planning Process was developed in response to the reporting 
requirements included in House Report 108-774 and House Report 108-541.
    Question. Based on your experience at CBP, what do you believe are 
the three top priorities for securing our land ports?
    Answer. Since September 11, 2001, CBP has tightened procedures for 
entry into the United States at all ports of entry, based on three 
strategic priorities:
  --Advance Information and Risk-Targeting.--CBP has moved forward with 
        programs that provide information regarding cargo and 
        passengers as far in advance of arrival to the United States as 
        possible, and systems to review this information and develop 
        targeted response to high-risk cargo and individuals. These 
        programs and systems include C-TPAT, CSI, advance cargo 
        manifests, Advance Passenger Information Systems, all screened 
        through our National Targeting Center.
  --State of the Art Technology.--CBP is investing in state-of-the-art 
        technology, including non-intrusive radiation detection 
        systems, making additional information systems available to 
        inspectors at the ports of entry, and addition of biometric and 
        other systems to enhance security.
  --Training.--CBP has significantly revised and reprioritized our 
        training for CBP Officers based on operational priorities, 
        beginning with the establishment of anti-terrorism protocols 
        for all ports of entry and developing and implementing anti-
        terrorism training for all CBP Officers.
    Question. Specific improvements are needed at the Columbus port of 
entry in New Mexico, and I understand that the General Services 
Administration (GSA) has proposed that construction on the Columbus 
project begin in 2007 or 2008. Do you support GSA's recommendation and 
will you keep the project on track for construction?
    Answer. CBP has requested GSA to modernize and expand the border 
station in Columbus, NM. The existing facility constructed in 1987, is 
a full service port of entry with pedestrian, non-commercial and 
commercial traffic. It is the only 24-hour border crossing point for 
pedestrians and privately owned vehicles in New Mexico. The facility is 
in need of significant renovation and expansion to safely process the 
increased volume of traffic that has occurred since originally 
constructed.
    CBP has requested GSA to include this project at the earliest 
opportunity. If approved for design in fiscal year 2007, construction 
should begin in fiscal year 2009.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

                           OPERATION PREDATOR

    Question. Mr. Secretary, first, let me thank you again this year 
for ICE's efforts to stop the exploitation of children. I understand 
that Operation Predator has had many successes and I am glad to hear of 
its achievements. I believe it is a critical program and I hope it 
continues to be successful. We should continue to do all within our 
power to ensure that children around the world are protected from those 
individuals that would harm them and shamelessly exploit them for 
simple pleasure and monetary gain.
    To that end, I ask that you share with the Committee some of ICE's 
other efforts to eliminate the abuse and exploitation of children. I 
know that you have many partners in this effort. I would appreciate you 
expounding on your opening statement as to what ICE is doing and who 
you are working with to accomplish these goals.
    Answer. In addition to Operation Predator, ICE attempts to 
eliminate the abuse and exploitation of children by enforcing the laws 
related to Forced Child Labor (FCL). ICE has implemented a proactive 
outreach schedule targeting an audience comprised of leaders in 
domestic industry and their employees/agents responsible for foreign 
purchases and related internal security procedures. Our goal is to 
educate this community, promote voluntary compliance, and encourage 
vigilance and reporting of suspected violators. The ICE FCL program 
staff regularly attends other United States Government agency, foreign 
government, and non-governmental organization functions related to 
forced or indentured child labor. In particular, FCL program staff 
attends and participates in monthly meetings with the National Child 
Labor Coalition, an organization that exists to serve as a national 
network for the exchange of information regarding children in an effort 
to end child labor exploitation by promoting progressive initiatives 
and legislation; established contacts with various domestic industry 
trade show representatives and coordinated participation in commodity 
specific events; and published the Forced Child Labor Advisory and 
accompanying pamphlet, produced in English and translated into 5 
foreign languages for distribution in training and outreach activities. 
ICE currently has 20 open investigations related to allegations of the 
importation of products manufactured or produced with forced or 
indentured child labor. During fiscal year 2005, three new 
investigations were opened, twelve were closed, and one investigation 
is in pending status.
    During 2004, ICE hosted two international symposiums on FCL and 
related child exploitation issues as defined in the International Labor 
Organization (ILO) Convention 182. These symposiums hosted in Singapore 
and Johannesburg, South Africa, were geared at educating foreign law 
enforcement partners on U.S. laws, promoting information sharing, and 
enhancing networking vital to successful investigations, and included 
presentations and training on: Forced Child Labor, the Protect Act and 
Operation Predator, Child Pornography, Basic Computer Forensics and 
Investigative Techniques, and Child Sex Tourism. In addition, at the 
Johannesburg, South Africa conference, a block of training was 
conducted by ICE on human smuggling and trafficking particularly with 
regard to children on the African continent.
    In regard to human smuggling and trafficking into the United 
States, ICE does not keep statistics delineating children versus 
adults. However, in terms of all human trafficking (men, women, and 
children), many of these victims are lured from their homes with false 
promises of well-paying jobs; instead, they are forced or coerced into 
prostitution, domestic servitude, or other types of forced labor. ICE, 
with its wide range of authorities, expertise and capabilities attacks 
human trafficking organizations through the aggressive use of human 
trafficking, smuggling and money laundering statutes, as well as 
identification and seizure of criminal proceeds and assets. Each and 
every allegation received by the ICE FCL program is researched, 
analyzed, and referred to the appropriate domestic or foreign office 
for further investigation. ICE's education and outreach process 
provides guidance to ICE agents in distinguishing the clear differences 
between human smuggling violations and human trafficking. This process 
has enabled ICE agents, our State and local law enforcement partners 
and community groups to better understand and identify trafficking 
violations and to better care for victims. ICE office of investigations 
has also conducted extensive outreach and training with our law 
enforcement partners abroad. Coordinating with the ICE Attaches in 
numerous countries, ICE works to combat trafficking organizations, in 
source and transit nations, as well as in the United States.

                           ILLEGAL IMMIGRANTS

    Question. Among each of your roles, is the charge to secure our 
borders and to control illegal immigration. Estimates of the number of 
illegal immigrants range greatly. Some say 8 million others say 
millions more. I believe that we all know that 8 million is an 
extremely conservative estimate.
    What is your best estimate on the number of illegal aliens 
currently residing in the country?
    Answer. It is estimated that the number of illegal aliens currently 
residing in the country is most likely between 11-12 million.
    Question. How many new illegal aliens entered the country last 
year?
    Answer. The total for ``first time'' illegal aliens, in fiscal year 
2004, making entry into the United States between the ports of entry is 
608,073. These numbers are derived from using the data provided in the 
Enforce Integrated Database (EID). This data is based on persons 
identified by biometric data (fingerprints) as first time 
apprehensions.
    Question. Is that an increase or a decrease from the previous year?
    Answer. There was a 20 percent increase in first-time 
apprehensions/entries into to the United States in fiscal year 2004 
compared to fiscal year 2003.
    Fiscal year 2004--608,073.
    Fiscal year 2003--504,889.
    Question. If we are so uncertain about the numbers, doesn't that 
seem to indicate that we are not doing enough to secure our borders and 
our homeland?
    Answer. U.S. Customs and Border Protection is enhancing and 
planning operations in areas along the borders which pose the greatest 
threat to national security. With the development and implementation of 
the Border Patrol's National Strategy, a measured but aggressive 
approach is being taken to increase border security. The guidelines and 
goals outlined in the National Strategy have been translated into the 
CBP/USBP implementation plan.

                             VISA OVERSTAYS

    Question. Another major problem with our immigration system is the 
fact that many of those people currently counted as illegals actually 
entered the country legally, but have overstayed their visas.
    Does the Department have any recent numbers on visa overstays?
    Answer. The US-VISIT Program Office conducted an analysis of 
biometric entry and exit data for the first 9 months of the program 
(January 5, 2004 to September 30, 2004) and initially, the findings 
indicate that, for visa holders on whom biometrics are collected at 
both entry and exit, nearly 90 percent exit the country before their 
periods of admission expire. In addition, US-VISIT's preliminary 
findings show that there is no exit record for less than 1 percent of 
these visa holders. Due to current limitations in capabilities to 
capture complete entry and exit data on all visa holders, the small 
sample size, and the abbreviated period covered by the analysis, US-
VISIT is unable to provide more detailed findings.
    Question. How many temporary visa holders never return to their 
home country?
    Answer. Except for the preliminary information mentioned in the 
previous question, US-VISIT does not yet contain all the technological 
elements that would readily provide this type of status information. 
However, according to a report from the Office Immigration Statistics 
using data from the Nonimmigrant Information System (NIIS), a total of 
23.6 million nonimmigrant departures were recorded by NIIS during 2003. 
Of those, 22.1 million or 94 percent were matched to an arrival and 
showed valid arrival and departure dates.
    The proportion of all admissions matched varies among the broad 
categories of admission. Short-term visitors had the highest match rate 
(95 percent), followed by diplomats and other representatives (93 
percent), students and temporary workers (88 percent), and expected 
long-term residents (87 percent). Records missing the category of 
admission have the highest non-match rate (48 percent) but as a group 
represented less than one percent.
    The report also gives length of visit estimates. Nonimmigrants 
included in NIIS who departed in 2003, remained in the United States an 
average, or mean, of 34 days, or just under 5 weeks, per visit. The 
median length of visit was 8 days, indicating half of all departing 
nonimmigrants remained in the country for 8 days or less. Over 95 
percent of departing nonimmigrants remained for less than 6 months per 
trip, with approximately 4 percent remaining between 6 months and 1 
year, and 1 percent remaining 1 year or more.
    Question. Can you tell us what percentage of the total illegal 
population is visa overstays?
    Answer. It is very difficult to accurately estimate either 
population. The fiscal year 2006 US-VISIT budget request includes $24 
million for the person-centric view that would begin the transformation 
of these systems so as to provide timely and accurate visibility to all 
DOS and DHS officers associated with the visa process regarding those 
who chronically overstay, or are overstaying for extended periods.
    Question. Given that these people make up a large percentage of our 
illegal population, has any consideration been given to strengthening 
the vetting process? What I mean by that is, if a large percentage of 
those people obtaining visas are not returning do you think there a 
breakdown somewhere in the process?
    Answer. Managing the entry, stay and departure of alien visitors is 
a major component of controlling our borders and requires collecting 
information regarding the movement of aliens in, through, and out of 
the United States. The information in the US-VISIT system is available 
to Customs and Border Protection (CBP) officers at ports of entry, 
special agents in Immigration and Customs Enforcement (ICE), 
adjudications staff at U.S. Citizenship and Immigration Services (CIS) 
services offices, U.S. consular offices, and other law enforcement 
agencies. Such information allows these officers to identify and take 
action against those who violate the law, to locate individual aliens 
of interest to law enforcement entities, to validate the immigration 
status of aliens so that only eligible persons receive immigration 
benefits, and to intercept terrorists and other persons who should not 
be allowed into the country. Additionally, the United States Government 
(USG) will be able to use this data to make informed policy and 
management decisions regarding enforcement prioritization, 
participation in visa waiver programs, or immigration benefit programs.
    Collecting exit information through US-VISIT will strengthen the 
vetting process by giving officials who issue visas timely, accurate 
and comprehensive visibility into an applicant's compliance patterns, 
so that appropriate action can be taken on the visa request. Once all 
of the elements of the exit/entry system are in place (i.e., at all 
land, air and sea points of entry, including immigration status 
information capabilities), we will have the ability to accurately 
assess and investigate the overstay population.
    Question. Following-up on that what is your agency doing now and 
what are you planning to do in the future to ensure that this does not 
continue to be a problem?
    Answer. The Homeland Security Act of 2002 gave DHS the 
responsibility for several significant national security programs/
initiatives to track nonimmigrant aliens' compliance with the terms and 
conditions of their admission to the United States. These programs/
initiatives include: the Student and Exchange Visitor Information 
System (SEVIS), the National Security Entry/Exit Registration System 
(NSEERS), and the United States Visitor and Immigrant Status Indicator 
Technology (US-VISIT) program. ICE formed the Compliance Enforcement 
Unit in June 2003, to investigate criminal and administrative 
violations identified through these programs. The CEU receives violator 
data from these programs/initiatives, analyzes the data and sends 
proactive investigation requests to field offices to locate and remove 
the violators. The CEU will continue to exploit the benefits of these 
programs/initiatives.
    Additionally, the fiscal year 2005 budget provides for the hiring 
of additional ICE criminal investigator positions to be assigned to 
compliance enforcement units across the country. ICE plans to staff 
these additional positions in field offices to support compliance 
enforcement investigations generated by the ICE Headquarters CEU. The 
positions will support compliance enforcement of the US-VISIT, NSEERS, 
and SEVIS programs based on current enforcement need projections.
    Question. I know that US-VISIT is slowly being implemented.
    What progress has been made to date and what assurances can you 
give us that we know who is legally entering the United States?
    Answer. The Department of Homeland Security has met the December 
31, 2003, and December 31, 2004, Congressional deadlines to deploy an 
entry-exit program that strengthens security and facilitates travel for 
legitimate visitors while protecting their privacy and ensuring the 
integrity of our immigration system. In conjunction with the Department 
of State's Biometric Visa Program, we are creating a continuum of 
security measures that begins before individuals enter the United 
States and continues through their arrival and departure from the 
country. US-VISIT also works with commercial carriers to receive 
notification of passenger lists before passengers arrive in and depart 
from the United States.
    Since its beginning on January 5, 2004, US-VISIT has implemented 
entry procedures at 115 airports, 14 seaports, and in the secondary 
inspection areas of the 50 busiest land ports of entry. In September 
2004, US-VISIT was expanded from individuals with visas to include 
processing of visitors traveling to the United States under the Visa 
Waiver program. US-VISIT processed over 20 million foreign travelers 
from January 5, 2004, to February 24, 2005, and has prevented 536 
criminals and immigration violators, including Federal and State prison 
escapees, from gaining admission to the United States.
    US-VISIT is protecting our visitors by making it virtually 
impossible for anyone else to claim their identity should their travel 
documents to be stolen or duplicated. Our fingerprint matching system 
has an accuracy rate (True Acceptance Rate or TAR) of 99.6 percent for 
one-to-one verification and a TAR of 96 percent for one-to-many 
identification. DHS is currently working with National Institute of 
Standards and Technology and industry leaders on several initiatives to 
examine mechanisms to increase the level of accuracy.
    Later this summer, US-VISIT will conduct tests using automatic 
identification (Radio Frequency Identification Technology or RFID) at 
land ports of entry to capture entry/exit information. US-VISIT is on 
track to deploy entry procedures to the remaining land ports of entry 
by December 31, 2005, meeting the Data Management Improvement Act 
(DMIA) mandate.
    The work of US-VISIT will extend far past these current efforts. In 
the Intelligence Reform and Terrorism Prevention Act of 2004, Congress 
included requirements and actions to be taken by DHS, the Department of 
State and US-VISIT with the goal of completing a biometric entry and 
exit data system as expeditiously as possible. US-VISIT is preparing a 
Strategic Plan that will describe how a single, unified approach to 
immigration and border management--a U.S. Immigration and Border 
Management Enterprise--will look and operate in the future. The Plan 
will include the overarching vision for how the United States 
Government will manage immigration and its borders, as well as how 
data, facilities, and information technology will contribute to the 
Enterprise mission.
    Question. Conversely, I believe it is important that we know who is 
leaving the country. Specifically, that ties directly into the visa 
overstays. If we know that people are leaving we will have a very good 
accounting of the number of folks that have chosen to stay here 
illegally. Can you tell us what progress has been made on implementing 
the exit portion of the program?
    Answer. In the air and sea environments, DHS is currently 
collecting biographic arrival and departure data through electronic 
manifests submitted by the transportation carriers and is using this 
data to identify alien travelers whose authorized periods of admission 
have expired and for whom no matching departure information is 
available. This information is already being shared with U.S. 
Immigration and Customs Enforcement (ICE). US-VISIT is working 
collaboratively with the ICE Compliance Enforcement Unit (CEU) to 
research existing data limitations and develop protocols and procedures 
to effectively vet these records through additional data sources to 
develop more complete, accurate and actionable information. 
Additionally, US-VISIT is conducting pilots to determine the most 
effective means of capturing exit information.
    Airport and Seaport Pilots.--US-VISIT is currently piloting three 
alternative methods of biometric departure confirmation at one seaport 
(Miami International Cruise line Terminal) and eight airports (Chicago 
O'Hare; Baltimore Washington International; Denver International; 
Dallas/Fort Worth International; Newark Liberty International; Luis 
Munoz International in San Juan, Puerto Rico; San Francisco 
International; and Detroit Metropolitan Wayne County). DHS anticipates 
making a decision on the best method(s) to implement shortly, and 
determining a schedule to expand biometric exit.
    Automated Land Border Entry-Exit.--Later this spring, US-VISIT will 
begin testing Radio Frequency Identification (RFID) technology. Using 
an automatic identifier, RFID technology can detect a visitor at a 
distance and provide primary inspection with entry information as well 
as provide a mechanism for an accurate and timely record of exits. By 
July 31, 2005, testing will begin at the ports of Nogales East and 
Nogales West in Arizona, Alexandria Bay in New York, and the Pacific 
Highway and Peace Arch in Washington. Testing will continue through the 
spring of 2006.
    Question. When does the Department expect the entire program to be 
fully operational?
    Answer. DHS will complete deployment of an initial biometric-based 
entry and exit program at all U.S. ports of entry by the end of 2005, 
meeting the requirements established by legislation. It is important to 
note that the Data Management Improvement Act, which established the 
majority of initial deadlines, only required the integrating of 
existing arrival and departure information--it did not require the 
collection of new information, such as biometrics. The Enhanced Border 
Security and Visa Entry Reform Act contained a requirement to 
biometrically compare and authenticate certain travel documents by 
established dates. DHS, recognizing the importance of biometrics in the 
process, added the requirement to collect biometric information, and is 
establishing additional procedures, beyond those required by statute, 
to enhance security.
    Ultimately, US-VISIT will manage data on foreign nationals covering 
their interactions with U.S. officials before they enter, when they 
enter, while they are in the United States, and when they exit. This 
comprehensive view of immigration and border management will create a 
virtual border and will improve interactions with foreign nationals. In 
its strategic plan (required under the Intelligence Reform and 
Terrorism Prevention Act of 2004) US-VISIT will describe how the U.S. 
Immigration and Border Management Enterprise will look and operate in 
the future.
    Question. Mr. Secretary, can you tell me how many people were 
detained or deported for overstaying their visas last year? Does ICE 
take proactive measures towards apprehending overstays?
    Answer. Statistics obtained from ICE's administrative booking 
system, ENFORCE, revealed that in fiscal year 2004, 3,784 nonimmigrants 
were processed for removal from the United States under the charge of 
INA 237(a)(1)(C)(i), violation of nonimmigrant status or condition of 
entry. The INA does not have a specific charge for visa overstays. The 
above number will include individuals that violated their nonimmigrant 
status by overstaying their visa, as well as other nonimmigrant 
violators. These other nonimmigrant violators include: student visa 
violators, individuals found working without authorization, and 
nonimmigrants that have violated their status by committing a crime.
    The Compliance Enforcement Unit (CEU) receives violator data from 
NSEERS, US-VISIT, and SEVIS. The CEU analyzes the data and sends 
proactive investigation requests to field offices to locate and remove 
the violators. In fiscal year 2004, the CEU sent out over 2,050 visa 
overstay leads generated by NSEERS, US-VISIT, and SEVIS to ICE SAC 
offices throughout the country. The CEU will continue to receive and 
assign overstay leads to ICE SAC offices for investigation.
    Question. What are the ramifications and penalties for overstaying 
a visa? There must be a way to keep track of these folks.
    Answer. A nonimmigrant that has failed to maintain the status in 
which he/she was admitted, or fails to comply with the conditions of 
any such status, to include nonimmigrants that stay beyond their period 
of admission, is subject to removal from the United States under the 
charge of INA 237(a)(1)(C)(i), violation of nonimmigrant status or 
condition of entry.
    DHS implemented the US-VISIT program in January 2004, to address a 
Congressional mandate to implement a nationwide entry-exit tracking 
system. Once fully implemented, US-VISIT will biometrically document 
the entry and exit of all foreign visitors to the United States. The 
CEU works closely with the US-VISIT Program to identify potential visa 
overstay violators and to conduct the necessary follow up 
investigations.

                            BORDER SECURITY

    Question. Every year, I travel to every county in Alabama to hear 
the issues of my constituents and one of their greatest and most 
frequent concerns is immigration and more to the point illegal 
immigration. Every year I feel compelled to tell my constituents that 
while we are making progress we are nowhere near where we need to be.
    What is the Directorate doing to make our borders more secure and 
to eliminate the influx of illegal aliens?
    Answer. ICE is a key player--along with our partners at U.S. 
Customs and Border Protection (CBP) and U.S. Citizenship and 
Immigration Services (USCIS)--in the Department's mission to secure the 
borders and restore integrity to the Nation's immigration system. That 
is a mission ICE takes very seriously--as the tragic results that can 
follow when those wishing to do us harm breach the Nation's border 
security and exploit immigration laws. The key to this effort is 
prioritization--systematically attacking the most serious threats 
first. Specifically, ICE has made the apprehension and removal of 
dangerous criminal aliens and national security threats our top 
enforcement priority. This is not to suggest that ICE does not fully 
and consistently enforce the law in other situations but that ICE 
focuses on addressing the serious threats that individuals with 
possible terrorist associations, fugitive alien absconders, violent 
criminal aliens, sexual predators, and others pose to our communities, 
our families, and our Nation. ICE's objective is to strategically 
target our resources and authorities on the most dangerous aliens in 
order to remove them from the streets before they can do harm.
    It's a strategy that is getting results. In fiscal year 2004, ICE 
removed more than 160,200 aliens with more than half of them having 
prior criminal convictions and 18 fugitive absconder teams across the 
Nation who apprehended more than 11,000 fugitives last year. ICE 
created a ``Most Wanted'' list of the most dangerous criminal aliens, 
which has been a valuable tool for generating tips and leads. From the 
original list, nine of the ten were captured within a few weeks, and 
the tenth was determined to have already left the country. Under ICE's 
``Operation Predator,'' which targets pedophiles, child sex tourists, 
and child pornographers we have arrested more than 5,000 child sex 
predators who exploit children for pleasure or profit. Approximately 40 
percent of the predators arrested under this program have been illegal 
aliens, and an additional 20 percent have been visitors to the United 
States who were ``out of status,'' meaning that they had overstayed or 
otherwise violated the terms of their admission.
    Another priority is to dismantle criminal organizations that 
smuggle and traffic human beings for profit. In fiscal year 2004, ICE 
arrested more than 1,630 human smugglers. Operation ICE Storm, an 
initiative launched in 2003 to target violent human smuggling networks 
in Arizona, has brought charges against more than 300 defendants and 
resulted in the seizure of more than $7 million. This unprecedented 
seizure of alien smuggling proceeds is a direct result of the 
combination of ICE's immigration and customs authorities (particularly 
customs expertise in financial crime investigation). Law enforcement 
authorities in Arizona have credited Operation ICE Storm with a 
dramatic decrease in alien-related kidnappings and other violent crime 
in the Phoenix metropolitan area.
    ICE's Law Enforcement Support Center (LESC) responded to more than 
603,000 immigration status inquiries from Federal, State, and local 
authorities in fiscal year 2004 and placed more than 15,000 immigration 
detainers with police agencies nationwide allowing ICE to more 
efficiently remove aliens from the United States once their jail term 
has expired. ICE is also fostering innovative new relationships through 
our 287(g) program, which delegates authority for immigration 
enforcement to State and local law enforcement. Under the terms of 
Section 287(g) of the Immigration and Nationality Act (Illegal 
Immigration Reform and Immigrant Responsibility Act, Sec. 113, April 
30, 1996), State and local authorities can request this authority for 
their jurisdictions. Once this agreement is in place, ICE provides 
officers with a 5-week training program in immigration issues, and 
provides supervision and support for State and local officers engaged 
in immigration enforcement. These authorities are currently in effect 
in Florida and Alabama.
    The examples above are just a sampling of the critical immigration 
enforcement accomplishments of ICE. By aggressively enforcing our 
immigration laws and targeting criminals, ICE seeks to deter criminal 
and terrorist organizations that threaten our way of life. ICE will 
continue to work with its partners at the Federal, State, and local 
levels to secure the borders and protect the homeland.
    Question. How many aliens have been detained and deported in the 
last year?
    Answer. Based on data reported in the Deportable Alien Control 
System (DACS), as of January 2005, ICE removed/deported 161,090 aliens 
in fiscal year 2004. This number of final order removals is made up of 
criminals and non-criminals, detained and non-detained aliens. This 
does not include any voluntary removals, nor does it include any 
expedited removals, largely handled by the bureau of Customs and Border 
Protection. Virtually all of these removals were detained at least 1 
day prior to their removal.
    Based on data reported in DACS, as of January 2005, 235,449 aliens 
were detained at some point during fiscal year 2004. Some of these 
aliens were detained and then released to the community (bond, 
supervision, recognizance, etc). Others were granted voluntary 
departure, or transferred to other law enforcement agencies. Finally, 
some are still in detention for various reasons.
    Question. If a Mexican citizen looking for work can pay a fee to a 
coyote to traverse our border, what is to keep a terrorist that would 
do us harm from doing the same thing?
    Answer. ICE recognizes that criminal organizations operating 
worldwide are responsible for smuggling and trafficking tens of 
thousands of illegal aliens and thousands of pounds of illegal 
narcotics into the United States. These organizations generate millions 
of dollars in illicit profits that are moved through wire services, 
laundered through front businesses and transported out of the country. 
By exploiting vulnerabilities in border integrity, criminal 
organizations, whether they smuggle humans, illegal narcotics, illegal 
arms, or other contraband, are an unquestionable threat to the security 
of the United States.
    ICE has developed a full range of investigation and enforcement 
methodologies to confront the problem at every point--in source and 
transit countries, on the seas, at the Nation's borders and ports, and 
in the U.S. interior. In U.S. embassies throughout the world, ICE 
Attaches work with consular officials and with foreign law enforcement 
to better coordinate investigations, gather intelligence and follow the 
money trail to seize millions of dollars in profits from these 
organizations. ICE is also integrating intelligence and enforcement 
efforts and is mobilizing other governments and international 
organizations in the fight against human smuggling and trafficking.
    ICE has played a significant role in the newly established Human 
Smuggling and Trafficking Center (HSTC). The HSTC is a joint initiative 
between the Department of Homeland Security, the Department of State, 
the Department of Justice, and members of the national Intelligence 
Community. The HSTC serves as an intelligence fusion center and 
information clearing-house, with the goal of converting intelligence 
into effective action.

        TEMPORARY WORKER PROGRAM AND BACKLOG ELIMINATION PROGRAM

    Question. I remain very concerned with the so called Temporary 
Worker Program that the President has proposed. Last January, we heard 
about this program and despite the claims to the contrary it seemed a 
lot like amnesty. The only difference I can see is that the illegals 
must have jobs in the United States. Beyond that, these people will be 
given permission to work and stay even if only temporarily, in the 
United States despite the fact that they are under the law, criminals. 
I told you last year that I do not believe in rewarding bad behavior 
and I still feel the same way today. Under this plan, over 8 million 
people would have an instant status adjustment. I find this 
particularly troubling considering the severe backlog of people who are 
following the law and waiting sometimes years to be allowed to come to 
the United States.
    Director, I know you spoke about the efforts to eliminate the 
backlog in your testimony and I do appreciate the progress made, but 
there is much more to be done.
    What are we going to do to rectify these problems?
    Answer. The President has stated a Temporary Worker Program (TWP) 
must be guided by four basic principles: that America must control its 
borders; that immigration laws should serve the economic needs of our 
country; that we must not give unfair rewards to illegal immigrants in 
the citizenship process or disadvantage those who came here lawfully, 
or hope to do so; and, that new laws should provide incentives for 
temporary, foreign workers to return permanently to their home 
countries. In designing such a program, we must remain mindful of these 
principles--and, in doing so, address the common and important concerns 
that you point out.
    The President is also committed to achieving our backlog 
elimination goals by the end of fiscal year 2006, which USCIS is on 
track to achieve. A well designed and managed and funded Temporary 
Worker Program would not adversely affect our backlog elimination 
efforts. To ensure this outcome, the TWP program design must be 
cognizant of a variety of factors, including current benefit 
authorities, options for cost recovery via fees, eligibility criteria, 
employer/government partnership opportunities, and application process 
requirements.
    Question. I understand that the backlog at different service 
centers varies, in some cases by months if not years, what is the 
problem and how do we fix it?
    Answer. USCIS has recently submitted a report to the Congress on 
this subject, which speaks to a staffing analysis recently completed 
that will help guide the distribution of resources to ensure that 
Service Centers can meet and maintain backlog elimination goals.
    Question. I am also painfully aware that my abilities to assist my 
constituents through casework has been greatly hindered since at least 
September of 2003 when the Alabama Delegation contacted the Secretary 
regarding staffing at your Atlanta office. To date, my staff has 
trouble receiving prompt replies to inquiries made in Atlanta. Often we 
can do little more than provide them the information they already have 
available to them through your website. What can we do to ensure that 
congressional inquiries to your service offices are acted on promptly?
    Answer. USCIS places a high priority on effectively serving its 
customers. Members of Congress and their staff often contact the agency 
in order to facilitate the resolution of constituent immigration 
casework. Many times, it is through a congressional inquiry that a case 
that has gone off track is identified and resolved. Often these 
inquiries can help us identify trends where changes in operational 
practices or policies would be appropriate.
    Each USCIS District Office and Service Center has staff dedicated 
to working with congressional staff. USCIS Congressional Relations has 
established national standards for responding to congressional 
inquiries. Telephonic inquiries should be acknowledged or resolved by 
close of business the next business day, written inquiries should be 
responded to within 30 days and email inquiries should be responded to 
within 10 days. Atlanta has been meeting these standards. Still, there 
are extenuating circumstances where the complete resolution may take 
longer or where there may be information identified in national 
security background checks that cannot be disclosed to congressional 
offices on individual applicants in order to ensure that ongoing 
investigations or national security are not compromised.
    When we identify a customer service or operational problem specific 
to a particular field office, a multi-programmatic Field Assessment 
Team is deployed to undertake a comprehensive assessment of operational 
effectiveness and responsiveness identifying areas needing improvement, 
action plans, and specific follow up. In the case of the Atlanta 
District, such a study was conducted and follow up takes place on a 
monthly basis. In addition, USCIS has conducted a field study to 
determine workload and workforce allocation. Through this study, many 
offices were identified as understaffed and new staff is being hired. 
As a result of this study, the Atlanta District will be hiring new 
adjudications staff this year. As new staff come on board and backlogs 
are reduced, the need for congressional inquires should likewise 
diminish. The Atlanta District has informed us that they are current 
with all congressional inquires. If there are any outstanding cases 
within your office we would be happy to work with your staff on 
resolving those cases.

                        IMPORTED SHRIMP INDUSTRY

    Question. I know actions are being taken against the imported 
shrimp industry in response to a dumping determination by the ITC and 
Dept. of Commerce. Can you tell me what efforts ICE and CBP are being 
taken in regards to the dumping of shrimp?
    Answer. Although the Department of Commerce (DOC) and U.S. 
International Trade Commission (ITC) share the joint responsibility for 
antidumping and/or countervailing duty (AD/CVD) orders, the 
responsibility for the administration and enforcement of these orders 
belongs to Customs and Border Protection (CBP) and Immigration and 
Customs Enforcement (ICE).
    In July 2004, CBP amended its continuous bond guidelines 
specifically for agriculture/aquaculture AD/CVD merchandise as a 
response to the high-risk nature of these imports. A significant number 
of shipments were found to have circumvented the AD/CVD cases through 
incorrect country declarations, undervaluation, and insufficient surety 
bond coverage, thereby preventing CBP to collect the appropriate duties 
and make the proper distributions.
    The first new case affected by these amended guidelines is shrimp 
from China, Vietnam, Thailand, India, Ecuador and Brazil. CBP has 
performed a risk-based analysis on the continuous bonds used by 
importers of this product to identify circumvention schemes and sham 
companies. To date this effort has been successful, with CBP revoking 
over 100 continuous bonds for failing to respond to requests for 
information. CBP has also worked closely with many importers who are 
willing to comply with the new bond guidelines to appropriately set new 
bond amounts to cover the potential financial risk associated with the 
AD/CVD entries. In addition, CBP is also monitoring imports associated 
with this case on a monthly basis to identify new importers, misuse of 
more favorable AD/CVD rates, misdescription of goods, all to avoid 
paying proper AD/CVD duties.
    CBP is also deploying field officers located at Southeast Asian 
attache offices to determine if the production capabilities exist for 
this commodity. When problems are discovered, CBP will make the 
appropriate referral to ICE for further investigation and action.

                         BORDER PATROL VEHICLES

    Question. As you know, the fiscal year 2005 Homeland Security 
Appropriations conference report calls for a comprehensive border 
patrol vehicle fleet management plan by February 8, 2005. Can you 
please inform the Committee of the status of this report, and 
specifically the findings with respect to extreme terrain border 
regions?
    Answer. CBP has developed a draft comprehensive plan that was 
delivered to the Committee on June 28, 2005. Field implementation of 
the extreme terrain program has begun. The Program consists of four 
steps: (1) terrain mapping; (2) the evaluation and development of an 
off-road vehicle fleet; driver training; and sector management 
orientation. The first step, terrain mapping, involves retrofitting 
severe and enhanced mobility vehicles with specialized equipment to 
measure and pinpoint terrain severity using a global positioning 
system. Agents who have received advanced off-road training operate the 
vehicles in performing their regular duties, and CBP thus obtains 
accurate information about terrain severity that will be used to 
develop the optimal off-road fleet. A total of 10 Border Patrol Sectors 
were selected for the terrain mapping step in this Program. Mapping 
started in San Diego Sector in June 2004, and has been expanded to 
include the El Centro, Yuma, and Tucson Sectors. The following 
additional Sectors are scheduled to begin mapping this fiscal year: 
Marfa, El Paso, El Rio, Laredo, McAllen, and Blaine.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                 VISA WAIVER PROGRAM: FURTHER EXTENSION

    Question. The Enhanced Border Security and Visa Entry Reform Act of 
2002, which President Bush signed into law on May 14, 2002, established 
October 26, 2004, as the deadline by which the 27 existing ``visa 
waiver'' countries must have machine readable passports in order for 
their citizens to enter the United States without a visa. The Congress 
passed legislation last year pushing back that deadline until October 
26, 2005.
    Does the Department believe that additional time is required for 
these visa waiver countries to come into compliance with the machine 
readable passport requirements? If so, has authorizing legislation to 
achieve this goal been introduced?
    Answer. The Enhanced Border Security and Visa Entry Reform Act 
provisions are related to machine-readable passports that are tamper-
resistant and incorporate biometric and document authentication 
identifiers that comply with applicable biometric and document 
identifying standards established by the International Civil Aviation 
Organization. Last year the Administration requested a 2-year extension 
of the deadline requiring Visa Waiver Program (VWP) nationals to 
present biometric passports. Congress provided a 12 month extension to 
give countries designated to participate in the VWP additional time to 
implement the required passport changes. Given that, DHS and DOS have 
continued to work closely with VWP participants to review the progress 
that has been made toward compliance with the new requirement and 
deadline. We will be able to report on this progress to Congress 
shortly, though there are still concerns with the current deadline. I 
look forward to working with you to determine the best solution to both 
enhance the security of the VWP and enable facilitation of legitimate 
travel.
    Question. Former Secretary Ridge stated in one of his departing 
interviews that the United States most likely should impose the same 
requirements regarding biometric identities on U.S. passports. Has the 
machine readable requirement imposed on foreign visas resulted in 
negative treatment of U.S. travelers abroad?
    Answer. The Visa Waiver Permanent Program (Public Law 106-396) 
imposed a requirement that VWP travelers have machine-readable 
passports (with the biographic, not biometric, data being available in 
a standard manner) for VWP entry on or after October 1, 2007, and that 
participating VWP countries certify that they are issuing machine-
readable documents no later than October 1, 2003. Public Law 107-56, 
the USA PATRIOT Act of 2001 advanced the deadline for use of machine-
readable travel documents by VWP applicants from October 1, 2007, to 
October 1, 2003, but provided for the Secretary of State to waive the 
requirement until October 2007. In September 2003, the Secretary 
extended the deadline for individuals to present machine-readable 
documents to October 26, 2004. The requirement for nationals of VWP 
countries to present machine-readable passports to enter the United 
States under the VWP after October 26, 2004, has not resulted in any 
reported negative treatment of U.S. travelers abroad.
    Additionally, U.S. visas now contain biometrics (i.e. two 
fingerprints and a digital photograph). European Union nations are 
discussing options for implementing biometric visa programs as well.

          IMPACT OF BUSH AMNESTY ON BACKLOG REDUCTION/WORKLOAD

    Question. Your agency's budget request states that, if Congress 
provides the minimal discretionary funding you are requesting, you are 
on track to meet the goal of reducing to 6 months the processing 
backlog for immigration documents.
    The President continues to advocate for an amnesty for illegal 
aliens already resident in this country under the guise of an 
immigration reform proposal. I am concerned about the impact on your 
meeting these backlog reduction targets of any immigration proposal. We 
discussed this issue at last year's hearing, and you responded that any 
impacts on your agency's goals and operations would depend in large 
part on what Congress did in response to the President's immigration 
``reform'' proposal. He raised the immigration issue again in his State 
of the Union address. However, we in the Congress continue to await his 
``proposal''. When will Congress get the President's immigration reform 
proposal and what impact would his immigration ``proposal'' have on 
your backlog reduction proposal?
    Answer. The President has outlined his vision for a Temporary 
Worker Program (TWP) and said that it must be guided by four basic 
principles: that America must control its borders; that immigration 
laws should serve the economic needs of our country; that we must not 
give unfair rewards to illegal immigrants in the citizenship process or 
disadvantage those who came here lawfully, or hope to do so; and, that 
new laws should provide incentives for temporary, foreign workers to 
return permanently to their home countries. The key to processing 
temporary worker petitions quickly and efficiently is simplicity in the 
design. A well designed and managed Temporary Worker Program would not 
adversely affect our backlog elimination efforts. To ensure this 
outcome, the TWP program design must be cognizant of a variety of 
factors, including current benefit authorities, options for cost 
recovery via fees, eligibility criteria, employer/government 
partnership opportunities, and application process requirements.
    Question. Rep. Sensenbrenner has promised to attach his immigration 
bill (H.R. 418) to the Emergency Iraqi War Supplemental. This bill 
includes many of the provisions in the original House draft of the 
Intelligence Reform Act.
    Unlike some rhetorical Bush Administration amnesty, the specifics 
of this legislation are known. If the provisions of this bill are 
included in the Supplemental or some other piece of legislation, what 
impact would it have on your agency's abilities to meet your backlog 
reduction goals?
    Answer. This bill would not impact USCIS' ability to meet backlog 
elimination goals.

                          CIS LOCAL OMBUDSMAN

    Question. Section 452 of the Homeland Security Act called for the 
establishment of at least one CIS ombudsman's office in each state. Has 
CIS complied with the Act? If not, when does the Department plan to do 
so?
    Answer. HSA  452 establishes the Office of the Citizenship and 
Immigration Services Ombudsman (CISO), an entity independent of USCIS 
and reporting directly to the DHS Deputy Secretary. HSA  452(e)(1)(A) 
states that the Ombudsman shall have the responsibility and authority 
``to appoint local ombudsmen and make available at least one (1) such 
ombudsman for each State.''
    For fiscal year 2005 the CISO is authorized a total of 24 full-time 
employees (FTE), and the majority of these employees are planned to be 
onboard during the third quarter of the fiscal year. For fiscal year 
2004 the CISO was authorized a total of eight (8) FTE. The fiscal year 
2006 Budget maintains the CISO at the 24 FTE level.
    The CISO has established a ``Local Ombudsman Pilot Program'' which 
is partially staffed at present but planned to be fully staffed by 
April 30, 2005. The pilot program is to design and develop a workable 
local ombudsman office which will have specific operational 
responsibilities over a defined geographic area. The pilot program will 
establish personnel certification and training requirements, determine 
liaison responsibilities and limitations, finalize facilities 
requirements and provide a controlled model for future local ombudsman 
office placements. The pilot program will commence upon the arrival to 
CISO of the new hire personnel to complete the staffing of the pilot 
local ombudsman office (``Beta Office''). The pilot program is 
estimated to last for a minimum of 9 months, however that time may 
expand or contract depending on the results attained. The following is 
a list of tasks to be accomplished during the pilot program:
  --Develop personnel job descriptions based on actual job 
        requirements.
  --Conduct a task and skill analysis for each job position to 
        determine the required skills and knowledge for incumbents, as 
        well as to determine individual training requirements for 
        incumbents.
  --Design and develop a local ombudsman training and certification 
        program.
  --Determine the requisite support equipment necessary for local 
        ombudsman operations.
  --Determine the most efficient data transfer arrangement between the 
        Beta Office and the Ombudsman Information Management System 
        (OIMS) to allow for: (1) inquiries and USCIS actions to be 
        received by the Beta Office from OIMS; (2) Beta Office inputs 
        to OIMS; (3) and statistical data and analyses provided in both 
        directions.
  --Develop and establish inter-office and intra-office liaison 
        methodologies and procedures, with particular emphasis on: (1) 
        Beta Office to Analysis Branch; (2) Beta Office to Executive 
        Officer staff; (3) Beta Office to OIMS staff; (4) Beta Office 
        to USCIS office(s) in geographic area of responsibility; and 
        (5) Beta Office to individuals/employers as appropriate.
  --Develop reporting vehicles for Beta Office operations and 
        productivity.
  --Baseline Beta Office operations, duties and tasks under appropriate 
        quality assurance standards.
  --Develop and produce procedural manuals to baseline Beta Office 
        operations, duties and tasks.
  --Other tasks to be identified throughout the pilot program duration.

                  NATIONAL BORDER SECURITY ASSESSMENT

    Question. The Heritage Foundation issued a December 13, 2004 report 
entitled ``DHS 2.0: Rethinking the Department of Homeland Security,'' 
which made a number of recommendations. One of them recommended that 
the Department of Homeland Security ``conduct a national assessment of 
the resources required for effective border security.''
    Given the comments by Deputy Secretary Loy and other about the 
threat facing our borders from a variety of groups, including Al Qaeda, 
is the Department actively conducting such an assessment and, if not, 
why not?
    Answer. Under the goal of Prevention within the United States 
Department of Homeland Security Strategic Plan, one of the primary 
objectives is to: ``Secure our borders against terrorists, means of 
terrorism, illegal drugs and other illegal activity. We interdict 
terrorist activities by targeting unlawful migration of people, cargo, 
drugs and other contraband, while facilitating legitimate migration and 
commerce. The Department will enforce border security in an integrated 
fashion at ports of entry, on the borders, on the seas and before 
potential threats can reach our borders. Through the continued 
deployment of the appropriate balance of personnel, equipment and 
technology we will create ``smart borders.'' Not only will we create 
more secure United States borders, but in conjunction with 
international partners, we will extend our zones of security beyond our 
physical borders identifying, prioritizing and interdicting threats to 
our Nation before they arrive. We will develop and provide resources 
for a cohesive, unified enforcement capability that makes our border 
security effective, smarter and stronger.''
    DHS operating elements all share in this requirement and are 
conducting assessments within their area(s) of responsibility. For 
example, the Border Patrol has developed America's Shield Initiative, 
which will methodically assess the highest risk illegal border crossing 
corridors and, taking into account the topography and other natural 
barriers, allocate an efficient suite of aerial or ground sensors, 
personnel and equipment, to best secure the areas between the ports of 
entry. At the ports of entry, CBP is using and developing enhanced 
targeting systems and personnel to inspect the highest risk cargo, 
people and conveyances. In addition, radiation portal monitors are 
being deployed at our ports to screen cargo for potential weapons of 
mass effect. One of the tools enforcement officers at the border also 
employ is the United States--Visitor and Immigrant Status Indicator 
Technology (US-VISIT) program which incorporates biometrics (finger 
scans) into entry documentation to ensure we are only letting in those 
visitors with valid visas who have been cleared against terrorist 
watchlists and data bases holding fingerprints for criminals. Our 
national drug control strategy and related annual drug budget also 
contains information on the trans-national drug threat and resources 
devoted to combating this problem which complements our border security 
initiatives. These are a few examples of the family of plans, periodic 
reviews, acquisitions and programs that collectively contain the 
assessments and resource requirements for national border security. 
Annually, those requirements work their way through the budget process 
producing allocations to address the highest priority security 
concerns.

                        IMMIGRATION ENFORCEMENT

    Question. Last year, Congress provided $5 million for a worksite 
enforcement program. For fiscal year 2006, you are requesting $18 
million for the same purpose. How have you used the fiscal year 2005 
funds? Please describe how the requested fiscal year 2006 funds will 
contribute to immigration enforcement.
    Answer. ICE will increase its presence at worksites, concentrating 
on employers in specific industries and geographical areas who 
intentionally violate the law or who have historically hired large 
numbers of unauthorized workers. ICE will also coordinate with 
Citizenship and Immigration Services to improve and expand verification 
services (Basic Pilot Program) to employers nationwide pursuant to the 
Basic Pilot Program Extension and Expansion Act of 2003.

                           DETENTION BEDSPACE

    Question. For the current fiscal year, Congress provided funding to 
fill 20,660 detention beds--yet the total beds that you are filling 
each week thus far is averaging 2,000 below the funded total. Why are 
these beds not being filled? What types or categories of aliens are not 
being held?
    Answer. ICE Detention and Removal Operations (DRO) is detaining 
within its budget.
    National security cases and criminal aliens are ICE's priority in 
immigration enforcement. Daily, ICE is at 100 percent capacity of its 
available allocated funding for detention bed space, the majority of 
those detained being criminal aliens. This aggressive enforcement 
posture is reflected in last year's record 160,284 alien removals, 
including record 84,400 criminal aliens removed from the United States. 
ICE conducts case-by-case determinations on who will be processed for 
removal and who will be detained or released. ICE must also carefully 
consider the conditions of release and factor in community safety 
especially with regards to criminal aliens. ICE will continue to 
aggressively enforce immigration laws against criminal aliens and other 
aliens who pose security threats to the country and expects to continue 
to achieve increased removals.
    Question. Please provide the cost assumptions ICE would use 
regarding hiring the first year (fiscal year 2006) authorized level in 
the Intelligence Reform Act (800) for ICE investigators as well as the 
fiscal year 2007 annualization of those positions. Also, please provide 
the same information for the costs associated with meeting the first 
year authorized levels for detention bedspace (8,000).
    Answer. The fiscal year 2006 Budget includes substantial increases 
for increased detention and removal activities. The fiscal year 2006 
Budget includes $90 million for detention beds and additional detention 
and removal officers. This increase will fund 1,920 beds. In addition, 
the Budget provides $1.5 billion for detention and removal activities, 
$236 million (19 percent increase) over the 2005 enacted level. In 
addition, it also includes $39 million for the detention and 
repatriation costs of the Arizona Border Control Initiative. In 
addition, 140 new Special Agents will also be hired.

          INVESTIGATIONS OF ARMS EXPORT CONTROL ACT VIOLATIONS

    Question. The Department of Justice published revised regulations 
in the November 15, 2004 Federal Register that suggested that DOJ--not 
ICE--will have the lead role in investigations regarding illegal arms 
exports. I understand that in late December, you issued a message which 
stated, in part, ``In recent weeks some media reports have suggested 
that ICE may be ceding some of its authority to investigate violations 
of the Arms Export Control Act, and other export laws. I am writing 
today to inform you that nothing could be further from the truth.''
    This seems to be another troubling example of this new Department's 
willingness to cede authority to other Departments for some of the 
traditional roles played by its component parts over the years. The 
Secret Service had to assert its authority as the primary protector of 
the currency a few years ago and the Department lost some of its lead 
role in terrorist financing when former Secretary Ridge signed a 
Memorandum of Understanding with the former Attorney General. Even the 
Department's central role in coordinating terrorist threat information 
was lost--via Executive Order--almost before the ink was dry on the 
President's signature of the bill creating the Department.
    Please explain for the subcommittee the specific roles played by 
DHS--and ICE in particular--and DOJ in arms export investigations.
    Answer. For over 25 years, U.S. Immigration and Customs Enforcement 
(ICE), has effectively investigated violations of U.S. export control 
laws. The export control laws enforced by ICE include the AECA, the EAR 
(concurrent jurisdiction with the Department of Commerce), the 
International Emergency Economic Powers Act and the Trading with the 
Enemy Act. ICE uses its border search authority, certified undercover 
operations and U.S. money laundering statutes as additional tools to 
prosecute export violators and to assist in the identification and 
seizure of criminal proceeds of specified unlawful activities. As a 
result, ICE has successfully investigated hundreds of significant 
export violations.
    ICE will continue to vigorously pursue criminal violations of the 
export laws and will work jointly with the FBI in export investigations 
that have a nexus to FCI.

                   IMPACT OF THE ICE BUDGET SHORTFALL

    Question. In the fall of 2003, Congress began calling for the 
Department to respond to the fact that ICE had insufficient resources 
to perform its numerous immigration and other investigative duties. In 
both the fiscal year 2004 and 2005 Appropriations Acts, Congress 
stepped up to the plate and provided Immigration and Customs 
Enforcement with more funds than requested by the President to deal 
with the shortfall.
    Yet even with the full acknowledgement that ICE does not have 
sufficient funding, and that the shortfall has hampered its mission and 
damaged the morale of its agents, the President has refused to request 
supplemental funding to make ICE ``whole'' and to put it on a sound 
financial footing.
    Immigration and Customs Enforcement should be able to move forward, 
secure in the knowledge that it has the funds necessary to robustly 
investigate arms smugglers, terrorists, money launderers, child 
predators, as well as enforce existing immigration laws.
    However, ICE has been forced to take dramatic steps--including 
freezing hiring, stopping training, and limiting travel--for more than 
a year in order to live within its constrained budget. The hiring 
freeze and other spending restraints remain in place nearly 6 months 
into the new fiscal year. And now we are being warned that ICE faces a 
funding gap of nearly $300 million this year.
    Mr. Secretary, will you end fiscal year 2005 with fewer 
investigators than you started with at the beginning of Fiscal year 
2004? How has that reduction impacted your mission?
    Answer. The pending reprogramming will give ICE the ability to end 
fiscal year 2005 with at least the same, if not higher, level than 
fiscal year 2004. While ICE has been working through significant 
challenges during the past 2 years, at the same time, ICE has been 
achieving unparalleled success in its mission areas. During fiscal year 
2005, ICE will continue to work through its challenges and accomplish 
its critical mission.
    Question. Did you seek a supplemental to address the shortfall?
    Answer. The proposed reprogramming submitted on March 12, 2005, is 
sufficient to address the financial requirements of ICE.

      CONTAINER SECURITY INITIATIVE: EXPANSION AND REGULARIZATION

    Question. I have long been a supporter of the Container Security 
Initiative, or CSI. This program stations CBP personnel at 
participating foreign seaports to target and inspect ocean-going 
shipping containers prior to their being loaded on U.S.-bound vessels. 
While it was initially skeptical of the program, and reluctant to 
support the funds the Congress provided to begin its implementation, I 
am pleased that this Administration has embraced the CSI.
    The Administration seeks a modest increase of only $5.4 million for 
the CSI for a total fiscal year 2006 request of almost $139 million.
    During visits to some of these ports, my staff has been impressed 
with the generally cooperative relationships that have been formed 
between the CBP personnel and their host country counterparts. As they 
work together and develop increasing levels of trust, the mutually 
beneficial aspects of the CSI program to both our country and theirs 
become apparent. However, the one constant refrain we heard from both 
CBP and host-country officials was the fact that our people are 
generally sent over on a temporary basis. They are concerned that once 
the relationships have matured during the months that the CBP personnel 
are at a port, they are rotated out and the ``trust-building'' process 
must begin again.
    Could the effectiveness of the CSI be improved by resolving this 
temporary duty situation? What are you and the Department doing to 
ensure that CBP personnel based overseas for CSI implementation are 
able to stay at a port for a healthy period of time? Are there problems 
with our State Department representatives that need to be addressed? If 
so, has this been discussed by Secretary Chertoff with Secretary Rice?
    Answer. CBP is transitioning CSI temporary personnel to permanent 
status. This process requires DHS to coordinate with Department of 
State (DOS) as required by National Security Decision Directive 38 
(NSDD-38). DOS negotiates the placement of permanent personnel at 
foreign duty posts and also negotiates the appropriate level of 
Privileges and Immunities (P&I) that will be granted by the host 
government on behalf of all United States Government agencies.
    CBP is currently working with DOS to secure the placement of CSI 
personnel into a permanent status with the appropriate level of P&I. 
The DOS has placed a high level of priority on assisting CBP with this 
initiative.
    Question. Without naming any ports or countries, my staff has also 
heard that some participating ports are often very reluctant to 
cooperate with our requests for more robust inspection and screening of 
containers. If this is indeed the case, has consideration been given to 
lodging formal complaints with the host government--or even to 
suspending a specific port's participation in CSI?
    Answer. There are currently 35 operational CSI ports. The standard 
operating procedures for these CSI ports are in part governed by a 
jointly signed Declaration of Principles, in which the host government 
agrees to pre-screen containers that pose a risk for terrorism.
    It is also understood that due to host government sovereignty, the 
final decision on container examinations is at the discretion of the 
host government. However, CBP has authority to issue no load order for 
those who refused inspection.
    The CSI program has made significant progress in reaching agreement 
with host government agencies on what constitutes a high-risk container 
warranting an examination.
    Challenges still exist at one CSI location with regard to common 
and agreed upon definition/designation of high-risk containers 
warranting examination(s).
    CBP is confident that with the high percentage of CSI locations 
operating very effectively that continued progress will be made in this 
one location. CBP has, and continues to consult with State Department 
(including the U.S. Embassy in this location) to enhance the CSI 
operation.
    CBP has contemplated the alternatives and is receiving full support 
from all Departments and Agencies in making CSI efficient and 
effective.

          IMPACT OF LATE DUTY COLLECTION ON CRAWFISH INDUSTRY

    Question. As mentioned previously, in the past, U.S. industries 
like the U.S. crawfish industry have discovered only very late in the 
year that millions of dollars of antidumping duties for some reason 
have not been collected in their cases against Chinese imports as 
required by law. And, because CBP's failure to collect these duties has 
been discovered late in the year, the non-collection problem in these 
cases could not be addressed in time to enable the industries to obtain 
their yearly distribution of funds under the Byrd Amendment. As a 
consequence, the U.S. crawfish industry, for example, last year failed 
to receive at least $54.4 million it otherwise would have received in 
duties paid the United States Government by Chinese importers.
    It is my understanding that CBP's Office of Information Technology 
(OIT) is fully capable of running an already existing program much 
earlier in each calendar year, (meaning by the end of March at the 
latest), which would enable both CBP and U.S. industries to learn, much 
earlier, if millions of dollars in duties are not being collected by 
CBP from U.S. importers of foreign, dumped products.
    Why can't CBP's Office of information Technology determine by the 
end of this month if there are cases in which CBP is not collecting 
duties owed the United States Government and make that information 
publicly available as early as possible?
    Answer. CBP has responded to the revenue risk posed by the 
inability to collect certain AD/CVD duties through several means, one 
of which is the monitoring the AD/CVD bills and collections on a more 
regular basis. For the distribution of these funds to take place 
timely, it is necessary not only to monitor the timely collection of 
AD/CVD duties but also to ensure our revenue collection system is 
protected from possible circumvention and corporate solvency schemes 
designed to enter AD/CVD goods into the U.S. market with the intention 
of never paying the proper duties at time of liquidation.
    On a monthly basis, CBP is performing a risk-based review of 
outstanding bills for AD/CVD duties. The information has proven 
effective in identifying high-risk companies for AD/CVD evasion as well 
as improve the timeliness of our reviews. CBP is also focused on the 
long-term issue of the company's financial solvency and their ability 
to pay outstanding AD/CVD bills. The continuous bond guidelines for 
imports of certain agriculture/aquaculture imports were amended in July 
2004, to address just such an issue. Working with the Department of 
Commerce, we are addressing the AD/CVD issues that pose the greatest 
risk.

                 OVERTIME PAY WHILE RECEIVING TRAINING

    Question. I understand that since January 2, 2002, your bureau has 
not compensated CBP officers who train 6 days a week at the Federal Law 
Enforcement Training Center. In essence, this means that hundreds of 
newly trained CBP officers have had to work 6 days a week for up to 12 
weeks without any compensation for overtime.
    I support your ``One face at the Border'' initiative and 
acknowledge that the merging of certain legacy personnel into a new 
agency requires intensive training. But I think you would concur that 
this should not come at the expense of basic compensation for these 
professionals.
    How do you plan to correct the current overtime pay problem for 
these CBP officers who were trained between January 2002 and October 
2004?
    Answer. CBP is also concerned about equitable compensation for the 
employees who were engaged in training at the Federal Law Enforcement 
Training Center (FLETC) on a 6-day schedule. As you are aware, the 
Federal Law Enforcement Training Center (FLETC) determined that the 6-
day schedule was a necessity post-September 11 in order to accommodate 
the robust training needs of law enforcement personnel.
    The Government Employee Training Act prohibits the Federal agencies 
from compensating employees with overtime while its employees are 
engaged in training by, in or through government or non-government 
facilities (5 USC, 41). There are only a very few exceptions to this 
broad legislative prohibition, and the CBP has used these, where 
possible, to legally pay our employees so situated.
    Chief amongst these exceptions is a different set of regulations 
that applies to employees covered by the Fair Labor Standards Act 
(FLSA). Legacy INS inspectors, prior to conversion to the CBP Officer 
position and COPRA compensation, were covered by FLSA. We were 
therefore able to retroactively compensate them for the overtime worked 
on the 6 day during the FLETC training; these retroactive payments were 
made in December 2004. Because the agency determined that legacy 
Customs Inspectors were covered by COPRA and therefore exempt from 
FLSA, payment for the 6 day was not appropriate. The different outcomes 
regarding payment of overtime resulted from the fact that these groups 
of employees were covered by different laws at the time that the 
training occurred.
    The National Treasury Employees Union (NTEU) challenged the agency 
through arbitration concerning this issue, and the agency's legal 
interpretation was sustained by the arbitrator. This is a complex 
matter, and there is litigation still pending. It is also important to 
note that effective October 1, 2004, FLETC returned to a 5-day training 
week

                           CONTAINER SECURITY

    Question. In December 2004, the Department unveiled a draft cargo 
security strategy. This strategy stated that the Department proposes to 
adopt a ``zero-tolerance policy'' regarding the arrival of weapons of 
mass effect at our Nation's borders. I concur that preventing these 
weapons from entering the United States should be a priority. I always 
assumed that it was.
    The conference report accompanying the fiscal year 2005 Homeland 
Security Appropriations Act notes that over $200 million has been spent 
over the past 3 years on various projects designed to secure cargo 
containers entering this country. It also calls on the Under Secretary 
for Border and Transportation Security to--among other things--report 
to the Congress no later than February 8, 2005 on which DHS entity will 
have primary responsibility for cargo container security and the 
setting of shipping industry standards. To date we have not received 
this report. I assume your agency was closely involved in the drafting 
of this report.
    How closely were you involved in the drafting of the report and can 
you give us a sense of what it might recommend?
    Answer. In support of the Department's cargo security strategy 
proposal to adopt a ``zero-tolerance policy'' regarding the arrival of 
weapons of mass effect at our Nation's borders, CBP has deployed 
various types of radiation detection technology nationwide with the 
ultimate goal of screening 100 percent of containerized cargo for 
radiation.
    CBP has provided significant input to the draft report on Cargo 
Container Security, including information regarding the current status 
of major CBP initiatives addressing cargo security. In providing 
summary reporting, CBP outlined the desired end state; namely, securing 
and improving operations at existing ports; expanding operations to new 
critical international seaports and encouraging global efforts to 
enhance supply chain security.
    Question. Do you know when the Congress will receive the report 
which is now nearly 1 month overdue?
    Answer. The final report was submitted to the Committee on June 8, 
2005.

                      AMERICA'S SHIELD INITIATIVE

    Question. This Department seems obsessed with selling old wine in 
new bottles. The visa tracking program known for years as ``Entry-
Exit'' became ``US-VISIT''. The Office for Domestic Preparedness became 
the Office for State and Local Government Coordination and 
Preparedness. Now the Border Patrol's Integrated Surveillance 
Information System, or ISIS, has been ``re-branded'' as ``America's 
Shield Initiative''--or ASI. Regardless of the new names for these old 
programs, the fact remains that our borders need to be protected.
    America's Shield Initiative is supposed to implement the Border 
Patrol National Strategy to strengthen U.S. borders to prevent the 
entry into the United States of terrorists and terrorist weapons, 
smugglers and illegal aliens, narcotics and other contraband.
    Our borders are under attack. The President's own experts know and 
are extremely concerned about the threat terrorists pose to our 
borders. In written testimony before the Senate Intelligence Committee 
on February 16, Deputy Secretary Loy cited recently received 
information as the reason for his concern about the threat facing the 
Mexican border. He called it a ``very serious situation.''
    Given this threat, why does the request include only $20 million 
for improved technology on our borders, when CBP staff have estimated 
the full cost to be $250-300 million?
    Answer. The total funding for the ASI program in fiscal year 2006 
is $51 million, including $19.8 million for new investments. The fiscal 
year 2006 request for ASI when coupled with investments for additional 
Border Patrol Agents, helicopter replacements, enhancements to Border 
Patrol facilitates and tactical infrastructure will provide CBP with a 
complement of resources that will increase operational control of our 
Nation's borders.

                           IDENT/IAFIS UPDATE

    Question. The integration of the fingerprint databases created, 
maintained, and used by the Department of Homeland Security and the 
FBI--among other Federal agencies--continues to be a priority concern 
for the Congress and the members of this Subcommittee. It is critical 
that we know whether visitors to this country pose a risk to our 
citizens. As you know, the 9/11 hijackers came into the country on 
student and tourist visas.
    Your Border Patrol agents daily compare the fingerprints of illegal 
aliens apprehended at our borders against these databases. And it is 
your inspectors who--at a growing number of ports of entry--compare the 
fingerprints of visa holders and others wishing to enter this country 
against these same databases via the US-VISIT system.
    That is why I was concerned about the latest Department of Justice 
Inspector General report on this subject. It stated that of the 118,000 
visitors daily entering this country who are subject to US-VISIT, an 
average of about 22,350 individuals are referred for secondary 
inspection. According to DHS, by the end of this fiscal year, it 
expects to directly check only about 800 individuals each day against 
the full FBI fingerprint database known as the IAFIS Criminal Master 
File. This is less than 1 percent of the 118,000 daily visitors.
    Why are we checking less than 1 percent of visitors to this country 
against the FBI fingerprint data base?
    Answer. This response contains information considered Law 
Enforcement Sensitive and has been provided to the Committee under 
separate cover.
    Question. According to the Justice Inspector General report, the 
Justice Department will be increasing the FBI's capacity to handle 
fingerprint checks from 8,000 per day to 20,000 per day by October of 
this year. Will you be changing your policies so that CBP is fully 
utilizing that capacity to check the criminal backgrounds of visitors 
coming into this country?
    Answer. DHS and Department of State have found that IDENT achieves 
their counterterrorism, major law enforcement, and border management 
objectives in timeframes that meet operational needs for processing at 
ports of entry. Every day, DHS and DOS run checks on approximately 
115,000-120,000 individuals using IDENT. These checks are returned, on 
average, within 10 seconds at ports of entry for US-VISIT and within 15 
minutes for Department of State. Even if IAFIS increases its capacity 
to 20,000 fingerprint checks per day, it still cannot come close to the 
number of transactions currently generated by the US-VISIT program. 
Additionally, IAFIS returns results, on average, at best within 10 
minutes, most (such as those transmitted by State) within several 
hours. Currently, IAFIS does not have the capacity to meet our 
operational needs for inspecting visitors. However, we are continuing 
to work with the Department of Justice on finding ways to better 
integrate IAFIS with our existing systems, such as the successful 
integration at our Border Patrol stations.

                          COLLECTION OF DUTIES

    Question. Again, two of the problems that CBP has exhibited with 
respect to its administration of the Byrd Amendment are (1) Customs' 
failure to collect duties rightfully owed; and (2) its failure to pay 
duties already collected in a timely fashion to eligible U.S. companies 
and their workers.
    With respect to the second problem, Customs sometimes holds, in 
what are called ``clearing accounts,'' duties that are collected over 
many years--but for which the agency is awaiting final ``liquidation 
instructions'' from the Commerce Department prior to distribution. 
Often, the Commerce Department claims that such instructions have been 
sent, but CBP does not know they have been sent or never receives them.
    It has been proposed that one solution to this problem would be for 
CBP to publish the amount of funds held in CBP's clearing accounts, by 
administrative review period, so that CBP and Commerce can work 
together to determine which funds should have been liquidated and be 
available for distribution to eligible U.S. producers. CBP, in certain 
circumstances, has provided such information to Members of Congress 
upon request, but has refused to provide such information generally.
    Will you commit to identifying (i.e., publishing) the amount of 
funds held in clearing accounts by administrative review period?
    Answer. The CBP program is designed to generate a bill and collect 
the appropriate duties following the liquidation of each entry summary. 
However, importers are provided the opportunity to appeal these 
decisions, which may involve working with the Departments of Commerce 
and Justice to ultimately collect these AD/CVD duties. During this 
time, estimated duties collected on the entry summary are held pending 
the final liquidation and collection of these duties before they may be 
disbursed in accordance with the Continued Dumping Subsidy Offset Act.
    To ensure transactions are not inadvertently held and made 
available for disbursement, CBP initiated a plan to review and 
liquidate entries that may have been inadvertently held in clearing 
accounts. CBP provided extensive data to Commerce regarding entries by 
administrative review period that remain unliquidated. Feedback from 
Commerce on this analysis allowed CBP field offices to finalize 11,000 
old AD/CVD entries whose liquidation makes $12 million eligible for 
disbursement.
    This process also shed light on the cause of the backlog. Over two-
thirds of old unliquidated entries (10 years old or more) resulted from 
a weakness in communicating liquidation instructions from Commerce to 
CBP. In most instances, CBP is holding old AD/CVD entries with import 
scenarios not covered by any published Commerce instructions. This is 
particularly true where instructions are contingent on a complex mix of 
importer, exporter and/or producer. In fiscal year 2005, CBP is 
concentrating on the liquidation of all remaining AD/CVD entries 
entered prior to 1995 that remain suspended.
    We are committed to working closely with Commerce to ensure that 
CBP promptly receives and acts upon all liquidation instructions 
issued. This will enable CBP to act as promptly as possible to initiate 
liquidation of the affected entries. This could potentially include a 
case-by-case comparison of orders.
    Question. Will you commit similarly to identifying the reasons for 
the lack of liquidation in cases where liquidation has not occurred for 
more than 4 years, and provide specific information with respect to 
those cases showing the amounts that remain unliquidated accompanied by 
an explanation of CBP's understanding of why the amounts have not been 
liquidated?
    Answer. The antidumping and/or countervailing duty (AD/CVD) modules 
within the Automated Commercial System (ACS) do not provide information 
by administrative review periods; therefore, CBP cannot track entries 
this way. Although one module exists to track liquidation instructions 
by review period--the Department of Commerce (DOC), who has sole 
responsibility for the AD/CVD modules, has not consistently provided 
this information.
    A liquidation clean-up project was initiated by CBP in response to 
the Office of Inspector General (OIG) audit on CBP's implementation and 
management of the Continued Dumping Subsidy Offset Act (CDSOA). The OIG 
report expressed concern over CBP's unliquidated inventory of 1 million 
entries and states ``clearing up the liquidation backlog should be a 
priority given the substantial dollars involved.'' At present, CBP is 
holding an ``official'' inventory of 2.2 million suspended AD/CVD 
entries covering 593 cases. According to the AD/CVD duty module within 
ACS only 327 of those cases are current, the rest are either revoked 
(once open, but subsequently closed), terminated (investigated, but 
never issued), or in some stage of investigation (prior to a decision 
on issuance). CBP believes that many of these entries can be closed 
out.
    CBP provided extensive data to DOC regarding entries that remain 
unliquidated despite the fact that their associated AD/CVD cases were 
either terminated revoked or did not have instructions issued for a 
specific review period. Feedback from DOC on this analysis allowed CBP 
field offices to finalize 11,000 old AD/CVD entries whose liquidation 
makes $12 million eligible for disbursement pursuant to the Continued 
Dumping Offset Act of 2000.
    The liquidation clean-up project also shed light on the cause of 
the backlog. Over two-thirds of old unliquidated entries (10 years old 
or more) resulted from a breakdown in the liquidation instructions from 
DOC to CBP. In most instances, import specialists are holding old AD/
CVD entries with import scenarios not covered by any published DOC 
instructions. This is particularly true where instructions are 
contingent on a complex mix of importer, exporter and/or producer. In 
fiscal year 2005, CBP is concentrating on the liquidation of all 
remaining AD/CVD entries entered prior to 1995 that remain suspended. 
Another reason that monies remain in the ``clearing accounts'' and are 
unavailable for distribution via CDSOA are the number of protests on 
bills issued by CBP. Payment of a protested bill is deferred until the 
protest decision is rendered. Currently many protests of AD/CVD 
liquidations are suspended pending the final decision by the Federal 
Appeals Court on International Trade.

                       TRAINING OF CBP INSPECTORS

    Question. With the creation of the CBP Officer position along with 
the ``One Face at the Border Initiative'', how does the CBP plan to 
make sure that one front-line employee can essentially perform job 
functions that were previously done by 3 different inspectors? Does DHS 
plan to create specialty experts for various legacy Customs and INS 
disciplines, or will every officer have to know every detail of both 
Customs and INS laws for both the primary and secondary inspections at 
the border?
    Answer. We are working towards creating an agency-wide law 
enforcement and national security culture, establishing unified primary 
inspections at all United States ports of entry and conducting 
secondary inspections focused primarily on combating terrorism and the 
traditional missions inherited by Customs and Border Protection. To do 
this efficiently and effectively, we have built a comprehensive 
training plan to guide our efforts.
    A very stringent 20-day pre-academy and 73-day basic academy 
training curriculum has been developed for the new CBP Officer. This 
training gives them the foundation needed to work in the primary 
setting upon their return to the port, while also giving them a basic 
understanding of what occurs in the secondary environments. The 
ultimate goal is to train the new CBP Officer to not only be equally 
competent in all of the former, individual areas of responsibility, but 
also to be better able to meet the expanded mission priority of anti-
terrorism. Their Academy training is then followed by a rigorous 2-year 
on the job training program with approximately 40-45 weeks (depending 
on environment--air, land or sea) of structured training courses. They 
are given training in stages in order to absorb it and be afforded time 
on the job to perform the duties and become proficient.
    A comprehensive 37 module cross-training program has been built for 
those officers who previously performed an Agriculture, Customs or 
Immigration function at the ports. Training is being given to those 
officers on a ``just in time'' basis to perform the job they are being 
asked to do. Instead, CBP has created a curriculum that builds off of 
each previous module.
    CBP does have several courses which are considered to be advanced 
training and they would include those that involve analytical 
capabilities and the counter-terrorism response units in our secondary 
areas. CBP is currently exploring the possibility of having additional 
areas and courses designated as specialized training classes.
    Question. Explain how Customs cargo inspection expertise will not 
be lost in the transition to the new CBP officer position? Will the new 
CBP officer be required to thoroughly understand the massive harmonized 
tariff schedule for goods being imported into the United States as well 
as being responsible for thousands of pages that comprise the 400 
sections of Immigration and Nationality Act, hundreds of pages of INS 
Title 8 Federal Regulations and the full INS operations inspection 
manual?
    Answer. Currently, CBP's Office of Field Operations is developing, 
in conjunction with the Office of Training and Development, three 
separate Cargo cross-training modules for the air, land and sea 
environments. The primary recipients of this training will be the new 
CBP Officers and those legacy Immigration Officers new to the cargo 
environment. The training consists of both classroom instruction on 
cargo processing, and on-the-job cargo training under the supervision 
of an experienced CBP Officer. The training consists of reviewing bills 
of lading, processing all types of entries and conducting cargo 
examinations. Officers will receive this training on a ``just in time'' 
basis as they are assigned to cargo primary.
    The expertise on classification using the harmonized schedule still 
resides with the Import Specialists. CBP Officers are introduced to the 
harmonized schedule in some of our Customs Secondary training as well 
as the cargo courses described above. We teach a basic understanding of 
the tariff, how to locate items, and how to do a basic classification/
duty calculation. Final classification and duty calculations are done 
by the Import Specialist.
    It is expected that our training effort for the CBP Officer and CBP 
Agriculture Specialist will be conducted over the course of many years. 
CBP policy is that no officer may perform a function or a part of an 
assignment without having completed the appropriate training module, 
systems training and on the job training that are associated with those 
duties.
    Question. The Department's ``One Face at the Border Initiative'' 
merged over 18,000 inspectors from the Customs Service, Immigration and 
Naturalization Service (INS), and the Animal Plant Health Inspection 
Service (APHIS), into one front line inspector position. As you know, 
current legacy Customs, legacy INS and the new CBP officers carry 
weapons and have arrest authority but are NOT considered Federal law 
enforcement officers. With the demands of the Federal law enforcement 
officer having evolved over the last decade, do you not believe that 
including Federal personnel such as Customs and Border Protection 
Officers, who not only protect our border from illegal drugs and 
facilitate lawful trade, but must now defend against weapons of mass 
destruction and terrorism and the risks that come with these added job 
responsibilities, deserve the recognition and benefits that go with 
Federal Law Enforcement Officer (LEO) status?
    Answer. Customs and Border Protection (CBP) Officers are, in many 
important respects, law enforcement officers, because they have the 
responsibility for enforcing laws, making arrests, and performing a 
critical enforcement and security mission. However, the position does 
not meet the current statutory definition for coverage under the 
special retirement provisions, which requires the primary duties to be 
either investigations of crimes or the apprehension and detention of 
criminals or individuals suspected of criminal activity.
    Question. The final personnel regulations greatly reduce the 
circumstances where collective bargaining will occur for CBP employees. 
Can you please tell the committee why the regulations prohibit 
collective bargaining over basic conditions of work, such as employees' 
rotation between different shifts or posts of duty, or scheduling of 
days off, including even post-implementation expedited bargaining? It 
appears the current procedures for bargaining over basic workplace 
matters such as scheduling have not hampered the agency's homeland 
security missions in any way.
    Answer. The successful assignment and deployment of the right 
employees and technology at precisely the right time is critical to the 
accomplishment of CBP's primary mission of preventing terrorists and 
implements of terror from entering the United States through and 
between our ports of entry. As a result, CBP must be able to assign and 
deploy employees, and to introduce the latest security technologies 
without delay. To assist in the facilitation of this requirement, the 
final DHS regulations provide CBP the flexibility to meet operational 
needs in these areas without subjecting such managerial decision to 
protracted negotiations and third party review by individuals or 
organizations who may not have a full understanding of the complexities 
of CBP's anti-terrorism mission and operational requirements.
    However, in order to balance these operational requirements with 
the interests of employees, the final regulations do provide an 
important mechanism for CBP to consult with employee representatives 
regarding the exercise of these flexibilities. Specifically, CBP will 
continue to inform labor organizations of its policies and procedures 
in these areas, to meet and discuss their views, concerns and 
recommendations with regard to the procedures by which these management 
flexibilities are exercised, and to attempt to reach agreement on such 
procedures where possible. Furthermore, where CBP institutes 
significant changes during the life of a collective bargaining 
agreement affecting the working conditions of employees, the final 
regulations provide for negotiations with labor organizations in those 
cases where the change is foreseeable, substantial and significant in 
terms of impact and duration on the whole or significant portion of the 
bargaining unit.
    This new framework for interacting with its labor organizations 
will better support and facilitate the accomplishment of CBP's critical 
national security mission, while providing a viable and streamlined 
avenue for the expression and consideration of employee interests and 
concerns.

                      BORDER PATROL--APPREHENSIONS

    Question. On average for the current fiscal year, how many illegal 
aliens is the Border Patrol apprehending each week? Of those, how many 
are considered to be criminal aliens or who require mandatory detention 
bedspace? Of the non-criminal/non-mandatory aliens, what is the average 
length of their stay in the United States in Border Patrol custody 
prior to be being removed/expelled?
    Answer. The Border Patrol has apprehended 457,900 illegal aliens to 
date in fiscal year 2005 thru March 11, 2005, approximately 19,908 per 
week.
    Of the total apprehensions to date in fiscal year 2005, 6,171 were 
determined to be criminal aliens (which equates to about 268 per week). 
The number of mandatory detention varies widely. Often the determining 
factor whether aliens are detained or released on their own 
recognizance depends on available bed space. The Border Patrol would 
like to detain all criminal aliens and non-Mexican apprehensions, but 
currently this is not feasible. The Border Patrol does not detain any 
aliens beyond 72 hours. Most detainees are turned over to Immigration 
and Customs Enforcement/Detention and Removal Office (ICE/DRO) before 
72 hours. ICE/DRO has advised us that aliens detained for Expedited 
Removal are routinely held for 30+ days. Criminal aliens and those 
required deportation hearings are held from 75-100 days.

                  BORDER PATROL--STATIONING OF AGENTS

    Question. On average, how long does it take to identify, hire, 
perform a background/suitability check and train a new Border Patrol 
agent prior to their being posted on the border?
    Answer. Advance recruitment for entry-level Border Patrol agents is 
done on a regular basis in order to have a nationwide standing 
inventory of eligible candidates who already have passed the written 
and oral exams, completed pre-appointment requirements (including 
background investigation, medical screenings, etc.), and are ready for 
final selection. It generally takes 6 to 8 months following tentative 
selection for a candidate to be added to the hiring queue for job 
placement. A candidate's position in the hiring queue is based on the 
written test score plus any applicable veterans preference points.
    When the Office of Border Patrol (OBP) identifies specific 
positions and locations to be filled, offers are extended to candidates 
in the hiring queue, their starting dates are established, and their 
training is scheduled. This process generally takes 2 to 4 weeks. 
Within a few days of their hire, the trainees are detailed to the 
Border Patrol Academy in Artesia, New Mexico for 19 weeks of basic 
training. Upon completion of basic training, the agents are returned to 
their home duty stations as certified, credentialed and armed agents. 
Formal post-Academy training continues on the job through the remainder 
of the first year.
    Question. How many Border patrol agents are currently stationed on 
the Southwest and Northern Borders? How many agents were stationed on 
each border on September 11, 2001? Prior to 9/11, what was the average 
placement of BP agents per mile on the Southwest and Northern Borders? 
What are those numbers today?
    Answer. There are currently 10,525 Border patrol agents stationed 
on the Southern and Northern borders with 9,501 on the Southern border 
and 1,024 on the Northern border. There were 9,459 Border patrol agents 
on the border on September 11, 2001, with 9,124 on the Southern border 
and 335 on the Northern border.
    The number of agents on duty per mile varies widely based on risk 
assessments, traffic patterns, deployed technology in an area and 
staffing and personnel changes. For example, the evening and night 
shifts typically have a higher staffing level than the day shift since 
most illegal intrusion attempts occur during the hours of darkness. As 
a result of these variables there is no standard average for agents on 
the border at any given moment.

                             BORDER PATROL

    Question. Please provide the cost assumptions CBP would use 
regarding hiring the first year (fiscal year 2006) authorized level in 
the Intelligence Reform Act (2,000) for Border Patrol agents as well as 
the fiscal year 2007 annualization of those positions.
    Answer. The Intelligence Reform Act presents an ambitious and 
aggressive goal of doubling the size of the Border Patrol Agent cadre 
over 5 years. For fiscal year 2006, the Act authorizes an increase of 
almost 20 percent to the number of Agents now on-board. There are 
practical limitations to the number of Agents that the Border Patrol 
can efficiently and effectively absorb in a year. These limitations are 
the result of the existing Border Patrol infrastructure (including 
training facilities, Border Patrol stations, support personnel, 
communication systems and vehicle and equipment repair and maintenance 
facilities) and the numbers of agents that can be brought on annually 
without undermining the organizational cohesiveness needed for a law 
enforcement organization like the Border Patrol. Significant 
investments in the Border Patrol infrastructure are required as a 
prerequisite to, or at least concomitant with, the increase in the 
Agent cadre authorized by the Act.
    Assuming that the Border Patrol infrastructure receives 
corresponding budgetary increases, a $697.33 million would be required 
for fiscal year 2006 and $447.41 million will be required in fiscal 
year 2007. This includes to costs to effectively hire, train, equip and 
train each new border patrol agent. In addition, it includes costs for 
support personnel, infrastructure, relocations, and the IT support 
necessary to support such an increase.

                        WAR ON DRUGS--HISTORICAL

    Question. During the 1980s, there was a major focus on the ``War on 
Drugs'' on the Southwest Border. Additional resources were provided to 
the Border Patrol and then-Customs Service to engage in this fight. 
Please provide the total number of Border Patrol agents and Customs 
Service personnel (per year 1980-1990) as well as the number of those 
personnel in each agency who were dedicated to the Southwest Border.
    Answer. Shown below is a chart reflecting the number of Border 
Patrol agents and the number of those agents assigned to the southwest 
border.

                          BORDER PATROL AGENTS
------------------------------------------------------------------------
                   Fiscal year ending                       Nationwide
------------------------------------------------------------------------
1980....................................................           2,329
1981....................................................           2,240
1982....................................................           2,227
1983....................................................           2,339
1984....................................................           2,333
1985....................................................           3,023
1986....................................................           3,238
1987....................................................           3,180
1988....................................................           4,074
1989....................................................           3,857
1990....................................................           3,778
------------------------------------------------------------------------

    CBP does not have access to personnel data for the 1980-1990 
timeframe because the former U.S. Customs Service converted to the 
United States Department of Agriculture's Personnel System in 1992.
                                 ______
                                 

            Questions Submitted by Senator Daniel K. Inouye

              IMMIGRATION OFFICERS IN LOCAL USCIS OFFICES

    Question. Being able to talk to knowledgeable immigration officers 
in local USCIS offices is an important customer service, especially for 
elderly or illiterate USCIS customers. Although InfoPass provides a 
free, easy and convenient alternative to waiting in line, InfoPass has 
caused confusion for a number of Hawaii customers who were turned away 
at the local USCIS office because they did not know how to use 
InfoPass. The InfoPass program assumes that all immigrants are 
literate, have access to a computer, and are able to type on a computer 
keyboard. How is USCIS addressing this problem to enable access for 
elderly or illiterate customers with limited computer access and 
limited ability to use the Internet?
    Answer. USCIS encourages customers who need information about 
citizenship and immigration benefits and services to begin with our 
website, or call the toll-free customer service number. That is because 
many times they can get the information or assistance they need without 
having to make a trip to one of our offices.
    InfoPass is designed to let customers who do need in-person service 
make an appointment to reduce the time they may otherwise have to wait 
to be served once they arrive. USCIS prioritizes customers with 
appointments to try to ensure that they do not have to wait for 
service.
    However, we recognize that not all customers have access to the 
Internet. We do continue to offer very basic services, such as forms 
and standard materials, to customers who do not have an appointment. If 
it is determined that a customer needs a service that we provide by 
appointment, we will look to see if one is available that day. If not, 
and the customer indicates they simply do not have the Internet access 
to be able to make an appointment, we will help them make their 
appointment for another day.

                                LIFE ACT

    Question. I am aware that the Legal Immigration Family Equity Act 
(LIFE Act) was enacted into law in 2001 to reduce the separation of 
immediate family members of U.S. citizens who are waiting abroad for an 
immigrant visa. The CIS Service Centers were taking approximately 8-12 
months to process immediate relative (form I-130) visa petitions. The 
LIFE Act created a new K nonimmigrant category that allows a spouse or 
child of a U.S. citizen to enter as a nonimmigrant on a K-3/K-4 visa to 
reunite with her family, and then apply for lawful permanent residency 
while in the United States.
    A U.S. citizen can file a K (form I-129F) visa petition for a 
spouse or child with the National Benefits Center once he files an 
immediate relative (form I-130) visa petition and receives a notice of 
receipt from a Service Center. In most cases, the U.S. citizen 
petitioner files both the I-130 and I-129F, assuming that the I-129F 
will be processed faster, due to the USCIS' announced policy to 
implement the LIFE Act. However, petitioners are finding that the 
National Benefits Center is slow to adjudicate K visa petitions and is 
taking approximately 7 months. Currently, three of the four Service 
Centers are processing immediate relative (form I-130) visa petitions 
faster than the National Benefits Center is taking to process the I-
129F visa petitions (California Service Center=60 days; Vermont Service 
Center=3 months; Texas Service Center=6 months).
    The slowness of K-3 processing suggests that the K-3 program is not 
working as it was intended, which is to expeditiously reunite U.S. 
citizens with their spouses and minor children. Furthermore, U.S. 
citizens submitting K visa petitions waste valuable time and money 
($165 for each petition) when the program fails to provide them with 
the service and benefits that were intended by Congress. What steps are 
being taken to effectively implement the K visa program?
    Answer. USCIS recently made a processing decision that caused the 
situation that we are now facing with Immediate Relative visa petitions 
and the processing of spousal nonimmigrant visa petitions.
    In reviewing our relative visa petition process, USCIS decided that 
the Service Centers should focus their efforts on relative visa 
petitions submitted by U.S. Citizens. As a result of these efforts, the 
Service Centers have done an outstanding job and have decreased 
processing times for this type of relative visa petitions dramatically.
    At the same time, the National Benefits Center (NBC), which 
processes the K-3 visa petitions, has continued to process K-3 
nonimmigrant spousal cases as quickly as resources will allow. The NBC 
is currently in the process of acquiring more adjudicative staff to 
focus on this workload. In the short term, NBC will realign existing 
staff, including utilization of overtime funds, to reduce the pending 
workload and achieve currency.
    Lastly, it has come to the attention of USCIS that if an applicant 
has both an approved I-130 petition and an approved K-3 petition at the 
same time, some local State Department Consulate offices make the 
decision to give the I-130 petition more weight than the K-3 petition. 
This decision has an impact on the Affidavit of Support and Medical 
requirements the petitioner must meet before State will issue an 
immediate relative visa associated with the I-130. USCIS will work with 
the Department of State to review this situation and identify a remedy 
to ensure that both types of visa categories are processed effectively.

                      F2B PREFERENCE VISA PETITION

    Question. When a petitioner, who originally filed an F2B preference 
visa petition, becomes a naturalized U.S. citizen, his petition is 
automatically given F1 status. For those who file petitions for 
relatives in the Philippines, they are penalized by becoming citizens 
because their beneficiaries' waiting period is extended by several 
years.
    Section 6 of the Child Status Protection Act allows a petitioner to 
opt out of converting to F1 status. The bill was enacted into law 
several years ago, but those individuals who applied to opt out are 
still waiting for the Attorney General to implement Section 6. The 
National Visa Center has informed petitioners that there is no 
timeframe for when this review will be completed. Can you please 
comment as to when can we expect this issue to be resolved?
    Answer. USCIS is in the process of writing a regulation to codify 
the Act. We hope it will be published by this summer. In the interim, 
USCIS has issued a policy memo to provide guidance on adjudicating 
requests tendered pursuant to Section 6 of the CSPA.

                     1-800 CUSTOMER SERVICE NUMBERS

    Question. I have heard from number of comments by USCIS customers 
that when they dialed the 1-800 customer service numbers, they received 
misinformation that led to sometimes fatal errors in their immigration 
application, because the customer service person is reading a script 
but is otherwise inexperienced in immigration procedures. Please 
comment on this customer service problem.
    Answer. All contract customer service representatives must take a 
USCIS approved course, and pass a USCIS approved exam, before they can 
answer phone calls. The course and exam are designed to ensure that 
representatives have an understanding of the terms and language of 
immigration, and can find the appropriate materials to convey 
information or offer services to a caller, before they assist 
customers.
    USCIS' commitment to the accuracy and quality of the assistance we 
offer is reflected in the fact that we require contractors to monitor 
each representative randomly twice a day to measure their performance 
against a set of customer service standards. We also have an 
independent company monitor calls against those standards. USCIS also 
uses a secret shopper program to test and evaluate performance against 
a set of future benchmarks for where we want to be in terms of service 
provision, and each month conduct a random phone survey of callers to 
get feedback about their experience.
    However, as with any verbal interchange we recognize that customers 
may not recall in its entirety a precise explanation or conversation, 
may misunderstand an explanation, or that, for all our controls, a 
representative may not convey the correct or complete answer. We also 
understand that customers searching for information about citizenship 
and immigration benefits, which can lead to life changing events, and 
work to improve our process to ensure that we are giving them all the 
options and information. One of USCIS' goals is to give each customer 
more control over the process, and to give them broader direct access 
to the scripts and other materials which we have available. Thus, we 
plan to put all of the scripts that we use to answer customer questions 
on our website so that customers can do their own research, and can 
print the information to be able to review it rather than just hearing 
it explained to them. In fiscal year 2005, USCIS plans to release 
additional standardized fact sheets and brochures, again to give 
customers direct access and something they can take with them. We plan 
to make this information available on our website, and in addition will 
make them available at our local offices, by phone, and through 
community partners.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                       PORTS OF ENTRY IN VERMONT

    Question. I understand there are a number of ports of entry in 
Vermont that will be overhauled in the next 5 years. What is the 
current schedule for construction at the each of the major ports in 
Vermont? What, if any, requests has DHS made to GSA for planning or 
construction projects in Vermont? Of all the border crossings 
nationwide, what is the typical length of highway before the actual 
border that is deemed part of the port? How far along the highway do 
the longest 5 extend into the United States?
    Answer. CBP has requested GSA to consider the Ports of Entry at 
Derby Line (I-91), Richford, and Norton, Vermont for construction in 
fiscal year 2007. In addition, CBP has requested GSA to begin design in 
fiscal year 2007 for Richford (Route 139) and Beebe Plain, Vermont with 
construction to follow in fiscal year 2009.
    In regards to the typical distance between the land ports of entry 
(LPOE) and the international boundary, there are several key factors 
carefully considered to ensure the safe passage of traffic and the 
trade while maintaining safety for CBP Officers and the public.
    Key factors used to determine the LPOE location relative to the 
international border are:
  --Line of Sight.--An adequate line of sight (direction, slope, 
        elevation, and obstacles) must be maintained between 
        operational functions at the LPOE. The distance between the 
        LPOE and the international border should be minimized to ensure 
        that activity in the area is effectively observable.
  --Alignment of Vehicles.--The alignment of passenger vehicles and 
        commercial trucks preparing to enter through Radiation Portal 
        Monitors (RPM) and License Plate Readers (LPR) on the way to 
        the primary inspection booth is critical. The distance required 
        for safe vehicular alignment leading up to the LPR/RPM is 40 
        feet for passenger vehicles and 90 feet for commercial trucks.
  --Obstacles.--There should be no obstacles (buildings, vegetation) 
        located between the LPOE and the international border that 
        would impede the operational effectiveness of the port or 
        degrade safety and security for the CBP Officers and traveling 
        public.
    The vast majority of our LPOEs boundaries begin within 100 feet or 
less of the international border. We do have several locations where 
the distance is greater as a result of environmental wetlands or other 
considerations that precluded construction closer to the border. At one 
location in Minnesota we are planning to be approximately one-half mile 
from the border but will address security requirements through the use 
of video monitoring systems. It is standard CBP policy to maintain a 
clear line of sight between the operations within the LPOE and the 
international border to ensure that our officers monitor all traffic 
entering and departing the United States.

                       BORDER PATROL CHECKPOINTS

    Question. I have received many complaints and concerns from my 
constituents about the checkpoint that has been established on 
Interstate 91 in Vermont. One of my constituents, a naturalized citizen 
who lives in Vermont and works in New Hampshire, has been stopped 
repeatedly and questioned about his legal status. Other constituents 
have expressed concern that racial profiling is occurring at the 
checkpoint. (A) Is there anything you would be willing to do to prevent 
naturalized citizens from being stopped repeatedly at this checkpoint, 
such as offering a frequent traveler card? (B) What measures do your 
officers take to avoid racial profiling?
    Answer. Border Patrol traffic checkpoints are operated in 
accordance with the Constitution of the United States; governing 
judicial rulings; and the Immigration and Nationality Act, Section 
287(a) (8 U.S.C. Section 1357). The principal court case that affirmed 
Border Patrol authority to conduct traffic checkpoints was U.S. v. 
Martinez-Fuerte, 428 U.S. 543, 556 (1976).\1\
---------------------------------------------------------------------------
    \1\ Additional case law references: U.S. v. Gordo-Marin, 497 
F.Supp. 432 (S.D Fla. 1980), and U.S. v. Maxwell, 565 F.2d 596 (9th 
Cir. 1977).
---------------------------------------------------------------------------
    Border Patrol traffic checkpoints, such as the proposed permanent 
facility on Interstate 91, are a critical component of CBP's 
multilayered border security strategy. The Border Patrol maintains over 
50 such traffic checkpoints nationwide. Traffic checkpoints have been 
established to restrict the criminal elements' ability to use our 
highway system to further their entry into the United States. In 
addition, enforcement operations around the checkpoints target those 
attempting to avoid inspection by circumventing the checkpoints 
themselves, further enhancing homeland security. CBP has had 
discussions regarding the integration frequent traveler technology like 
NEXUS and PALS into the design of the permanent Interstate 91 
checkpoint to ensure that regular highway users are impacted to the 
minimum extent possible.
    The Border Patrol does not condone racial profiling, in fact during 
basic training Agents are instructed on how to perform their duties 
without profiling certain classes of people. Any and all allegations of 
racial profiling are taken seriously and are reported to the Office of 
Inspector General for investigation.

                     LAW ENFORCEMENT SUPPORT CENTER

    Question. In your testimony, you mention that the Law Enforcement 
Support Center's workload increased by 12 percent last year. A number 
of the employees who are making this increase in productivity possible 
are temporary employees who have worked for the LESC for up to 4 years, 
with the expectation they would have the opportunity to become 
permanent employees. What are your plans to convert these temporary 
employees to permanent positions?
    Answer. Law Enforcement Technicians (LETs) serving under term 
appointments have contributed significantly to the overall success of 
the ICE Law Enforcement Support Center (LESC). ICE recognizes that the 
workload of the LESC is a permanent one and shares the view that the 
staff should be permanent as well. It has been the practice of the LESC 
to convert term appointments to career appointments as permanent 
vacancies become available. It has also been the practice of the LESC 
to regularly extend term appointments up to their maximum duration. 
However, LESC term LETs are serving under term appointments that have a 
maximum duration of 4 years under Federal personnel rules and cannot be 
further extended. The majority of LETs serving under term appointments 
will not reach their 4-year limit until the spring and summer of 
calendar year 2006. Only one will reach the 4-year limit in calendar 
year 2005. The remainder will not reach their 4-year limit until 
calendar year 2007. As term appointments approach their expiration 
dates, ICE will explore all available options consistent with Federal 
personnel rules, budgetary considerations and good management to retain 
these valuable employees.

                         DEBT MANAGEMENT CENTER

    Question. The ICE Debt Management Center is an integral part of the 
financial stability of the bureau. Responsible for collecting debts 
owed to the agency, the center is an important part of balancing the 
books at ICE. Has the bureau wide hiring freeze affected the ability of 
this debt management center and all other financial offices perform 
their duties? Have you considered providing some flexibility from the 
hiring freeze for offices with financial responsibilities? As these 
offices loose individuals from normal attrition, it seems ironic that 
the offices with responsibilities to correct the financial situation
    Answer. As with all of ICE Financial Management operations, the 
Debt Management Center is committed to fully addressing all of its 
financial management responsibilities in a timely manner. If approved 
by Congress, the ICE reprogramming proposal will provide additional 
support to the Debt Management Center (DMC), and the DMC, along with 
ICE's Office of Financial Management is closely monitoring ongoing 
operations to ensure that essential and critical financial management 
requirements are completed in a timely manner.
    The ICE OFM has gone through a re-engineering process, finalized in 
December 2004. The re-engineering format allows the OFM to address 
audit and financial statement activities (abnormal balances, suspense, 
cash reconciliation, trading partners, reconciliation of unliquidated 
obligations, and analysis) as well as specific financial transactional 
activities for our customer base (Debt Management Center, Dallas 
Finance Center, financial system support of FFMS and Travel services).

                       LEGAL ORIENTATION PROGRAMS

    Question. I have supported and helped to obtain funding for Legal 
Orientation Programs for immigration detainees, with the view that the 
immigration system works better for all parties when detained aliens 
are informed as to whether they have a legitimate legal case to stay in 
the United States. Congress appropriated $1 million for orientation 
proceedings in fiscal year 2003, but DHS has still not transferred that 
money to the Executive Office for Immigration Review so the proceedings 
can take place. Can you tell me when that money will be transferred, 
and why it has taken so long?
    Answer. ICE has provided $3 million to the Executive Office of 
Immigration Review (EOIR) for the Legal Orientation Program covering 
services in fiscal year 2003 through fiscal year 2005. The funding was 
provided in increments of $1million at the following times:
    $1 million to EOIR in late July 2002 (fiscal year 2002).
    $1 million to EOIR in February 2004 (fiscal year 2004).
    $1 million to EOIR in February 2005 (fiscal year 2005).
    As indicated above, the first $1 million was issued very late in 
fiscal year 2002. EOIR used this fiscal year 2002 funding to award a 
contract for legal orientation program services that were provided 
throughout fiscal year 2003. EOIR continued to provide legal 
orientation services based on funding provided in February 2004, and 
currently provides legal orientation program services with an 
additional $1 million provided in February 2005. There have been no 
gaps in providing legal orientation program services because of lack of 
funding.

              CITIZENSHIP AND IMMIGRATION SERVICES FUNDING

    Question. The President's budget proposes a 50 percent cut in the 
amount of directly appropriated funds for the Bureau of Citizenship and 
Immigration Services (CIS), from $160 million to $80 million. Congress 
has already substantially cut the direct appropriations you receive. At 
the same time, the President has proposed a guest worker program that 
would significantly increase the CIS workload. (A) Why is the President 
proposing a 50 percent cut in an agency whose workload he wants to 
increase dramatically? (B) Are you at all concerned that a system of 
immigration services that is supported almost entirely by user fees--
including the expansion of ``premium processing'' fees paid to ensure 
faster processing--will be unfair to immigrants of lesser means?
    Answer. The fiscal year 2006 Budget includes $1.854 billion for 
USCIS ($80 million appropriated; $1.774 billion fees), an overall 
increase of $79 million, or 4 percent over the fiscal year 2005 level. 
The fiscal year 2006 Budget is the final year of the President's 5-year 
plan to achieve a 6-month cycle time standard for all immigration 
benefit applications, including a total of $100 million to support 
backlog elimination efforts as well as improvements in application 
processing. This would bring the 5-year total for this aggressive 
initiative to $560 million. Backlog elimination funds are reduced by a 
total of $80 million. $60 million associated with a one-time increase 
in the fiscal year 2005 USCIS budget, and $20 million for Digitization 
efforts appropriated by the Congress, but not specifically requested in 
the President's budget. The fiscal year 2006 Budget will allow USCIS to 
eliminate the backlog by the end of fiscal year 2006.
    USCIS is committed to meeting the President's backlog elimination 
goals. The key to processing temporary worker petitions quickly and 
efficiently is simplicity in the design. Establishing a program that 
involves a high degree of employer/government partnership, thorough 
background checks, and electronic registration and information sharing 
among participating Departments is critical. Based upon the legislation 
that Congress passes, USCIS will use fees to support applicant 
registration, processing and documentation.
    While Federal guidelines require full cost recovery of services 
provided, USCIS does have the ability to waive fees on a case-by-case 
basis. Any applicant or petitioner who has an ``inability to pay'' the 
fees may request a fee waiver. In determining ``inability to pay,'' 
USCIS officers will consider all factors, circumstances, and evidence 
supplied by the applicant including age, disability, household income, 
and qualification within the past 180 days for a Federal means-tested 
benefit.

                          SUBCOMMITTEE RECESS

    Senator Cochran. We are going to continue to review the 
budget request for fiscal year 2006 for the Department of 
Homeland Security. Our next hearing will be on Wednesday, March 
9, in Room 124 of the Dirksen Senate Office Building. At that 
time the Under Secretary for Emergency Preparedness and 
Response, Mr. Michael Brown, and the Acting Director of the 
Office of State and Local Government Coordination and 
Preparedness, Mr. Matt Meyer, will be here to discuss the 
budget request for the programs under their jurisdictions.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 12:23 p.m., Wednesday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
